<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                          TUESDAY, MAY 6, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Campbell, Byrd, Inouye, 
Hollings, Leahy, and Kohl.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. ASA HUTCHINSON, UNDER SECRETARY, 
            BORDER AND TRANSPORTATION SECURITY 
            DIRECTORATE

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The committee hearing will please come to 
order. This morning we continue our hearings on the fiscal year 
2004 budget request for the Department of Homeland Security. We 
review this morning the programs and activities of the Border 
and Transportation Security Directorate. I am very pleased to 
welcome the Under Secretary for Border and Transportation 
Security, Asa Hutchinson. I think the President and Secretary 
Tom Ridge have chosen a very able and experienced public 
servant for this very difficult and important undertaking.
    The Homeland Security Act of 2002 transferred the United 
States Customs Service, the Office of Domestic Preparedness, 
the Transportation Security Administration, the Federal Law 
Enforcement Training Center, and the Federal Protective Service 
to this directorate. In addition, the directorate is 
responsible for integrating two-thirds of the former 
Immigration and Naturalization Service with the United States 
Customs Service and with quarantine inspection activities of 
the Animal and Plant Health Inspection Service. For fiscal year 
2004, the President's budget requests $16.2 billion in 
discretionary funds for border and transportation security, 
along with an additional $1.8 billion in offsetting 
collections.
    Mr. Secretary, we look forward to hearing from you. We have 
your prepared statement which we will make a part of the 
committee's hearing record, and we invite you to make any 
statement in explanation of the budget request which you think 
would be helpful to our committee's understanding of the budget 
request.
    At this time, I am pleased to yield to other Senators of 
this committee for any opening statements they may have.
    Senator Byrd.

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. There are two things they haven't developed 
yet, how to create a good public address system and how to 
fashion milk cartons so they will open as stated on the top of 
the carton.
    I join you, Mr. Chairman, in welcoming Under Secretary 
Hutchinson. This is his first time appearing before the 
committee in his current capacity. We look forward to hearing 
from him and to working with him. There is no greater 
responsibility than that of making our Nation's borders and 
transportation system secure. It is our failure to do so prior 
to that tragic day in September 2001 that led to the loss of 
the lives of thousands of innocent Americans and others, and it 
was in reaction to those horrific events that the President and 
this Congress created the Department in which you now serve.
    Our role in Congress is to ensure that you and the many 
other dedicated employees of the Department of Homeland 
Security have the resources that you need to do your jobs, and 
to do your jobs well. In that regard I have questioned some of 
the requested funding levels for certain activities of the 
Department, such as the revised entry/exit visa system that we 
discussed last week with Secretary Ridge, and the appearance of 
a singular focus on aviation security in what is supposed to be 
an agency dedicated to the security of all forms of 
transportation. I and other Members will address these and 
other issues in our questions, and we look forward to your 
testimony.
    Thank you.
    Senator Cochran. Senator Campbell.

              STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thank you, Mr. Chairman. I will make my 
opening statement very brief and ask that my complete statement 
be included in the record.
    Senator Cochran. Without objection, so ordered.
    Senator Campbell. Welcome, Under Secretary Hutchinson. I 
guess what we're learning with this whole problem with homeland 
security is that those people who would do us some damage have 
learned how to use the very liberties that we cherish against 
us.
    The use of American money to be filtered to foreign 
operatives, the opportunity to enroll in our universities, in 
our flight schools, and to travel without documentation, all of 
the things that we sort of take for granted, they have learned 
how to use as weapons against us, and I think it was certainly 
a rude awakening September 11, and it has changed our world 
forever, but when we need to protect about 7,500 miles of land 
border and 95,000 miles of shoreline, or whatever it is, and at 
the same time make sure that we don't infringe on civil 
liberties or the rights of people that they have come to accept 
as the American way of lifestyle is a darned difficult thing, 
and all of us are fumbling along, I think, trying to do the 
best we can, and I just wanted, as one Senator, to say that I 
certainly support your efforts and look forward to a time when 
the Nation is safer, and we never get back to what we once 
thought of as total freedom in this country, but certainly we 
can find, I think, a better balance in protecting those 
liberties I mentioned, at the same time decreasing the amount 
of danger.
    Sometime ago, right after 9/11, I remember sitting in a 
hearing, and there was some discussion about those areas that 
seem to be pretty weak yet and would be an opportunity for the 
people who are going to do us some damage to attack, and having 
been a former private pilot myself, I thought at the time that 
we still had a weakness in general aviation.

                           PREPARED STATEMENT

    We've done an awful lot when it comes to the commercial 
aviation. The number of bag screeners and the number of things 
that we have to go through I think has made it a lot safer, and 
when I mentioned I thought there was still a weakness in 
general aviation I got an immediate call from the ALPA 
complaining that I would make such a terrible statement, but as 
I read just recently in the paper, that is certainly one of the 
alerts that we're facing now, the possibility of people using 
private planes, since they don't have the same degree, at FBOs, 
of security that they do at the terminals, that there still may 
be a possibility of that, so I'm interested in knowing maybe a 
little bit more of that as we proceed with the discussions.
    Thank you, Mr. Chairman.
    [The statement follows:]

         Prepared Statement of Senator Ben Nighthorse Campbell

    Thank you Chairman Cochran. I'd like to thank the Under Secretary 
for taking the time to come talk with us today.
    Security procedures in place prior to the tragic events of 
September 11th were obviously seriously flawed. While I realize that 
many steps have been taken to address these concerns, including the 
creation of the Department of Homeland Security, I wonder whether or 
not enough has been done. As I fly back to my home State of Colorado 
every weekend, and wait in line at the baggage screeners and walk 
through the metal detectors, I wonder if these procedures really ensure 
my safety.
    We need to protect the 7,500 miles of land border, and 95,000 miles 
of shoreline, in addition to our nation's transit systems and energy 
and power infrastructures. This is imperative to our country's economy 
that is dependent on travel and the mobility of commerce. Additionally, 
the people of the United States deserve the ability to move about our 
nation in a safe manner. I believe that the TSA, Customs Service, Coast 
Guard, and other agencies in the Department have made great strides in 
improving our sense of safety since September 11, 2001.
    I believe that we have made great advancements quickly by upgrading 
security procedures, response plans, and increasing security. There is 
no issue more important to me than the safety of the American people.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimony of our guest, and I will have a number of questions to ask at 
the appropriate time.

    Senator Byrd. Mr. Chairman, the distinguished Senator is 
still a private pilot.
    Senator Campbell. Yes, sir.
    Senator Byrd. Of a Harley-Davidson.
    Senator Campbell. Still have an airplane, too, just not 
current.
    Senator Cochran. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman. I just 
wish to welcome Under Secretary Hutchinson. Welcome, sir.
    Senator Cochran. Senator Hollings.

                STATEMENT OF SENATOR ERNEST F. HOLLINGS

    Senator Hollings. Thank you, Mr. Chairman.
    Mr. Secretary, we have got a wonderful Border Patrol School 
down there now in Charleston. There was a heck of a contest in 
the midnineties when we had an immigration crisis and we were 
looking to train additional border patrol agents. Now some 
6,000 have graduated. Over half of your border patrol agents 
are graduates of that school. One, they're not paid enough. 
Incidentally, in the school they have about a 30 percent to 40 
percent dropout. There are about 55 in a class, and they have 
about 15 classes. They've got perfect facilities. They've got a 
driving range, they've got a rifle range and everything else 
down there, and they like it, but at $27,000, a GS-7 trained in 
speaking Spanish, trained in law enforcement, trained in 
computer programs, they leave and come over to the airline 
security because they get more pay, so by the time I'm training 
them in Charleston, they leave to train for the air marshall's 
job because they pay more. Let's look at that, because I want 
to write something in that bill to equalize your different 
security folks so you don't train for one function and all of a 
sudden lose too many of them to another function in the same 
agency.
    But it is an outstanding facility, and we invite you to 
come down and look at it, because we've got to expand the 
barracks facilities there to accommodate the increase in 
training.
    But thank you very much. We look forward to your testimony.
    Senator Cochran. Thank you.
    Mr. Secretary, you may proceed.

                 STATEMENT OF HONORABLE ASA HUTCHINSON

    Mr. Hutchinson. Thank you. Mr. Chairman and Senator Byrd, 
members of the committee, thank you for your welcome and your 
comments this morning. It is a pleasure to be with you to 
testify on the President's 2004 budget for the Border and 
Transportation Security Directorate of the Department of 
Homeland Security. It was just a couple of months ago that the 
Department brought nearly 180,000 employees from 22 different 
agencies together into one new Department. I want to express 
the thanks of the men and women of Homeland Security to this 
committee for your support in this reorganization, and also for 
your support in the recently concluded operation, Liberty 
Shield. In our view, and as was stated by Senator Byrd, there 
is really not more of a serious job in all the land than 
stopping future terrorist incidents from occurring on American 
soil, and the Border and Transportation Security Directorate, 
along with the Coast Guard, really represent the operational 
front line of homeland security. We're the operations folks. 
We're the ones that not only play defense, but also offense. 
We're not alone in that effort. We have to rely upon our 
partnership with State and local governments, and part of my 
job is to make sure we enhance those partnerships, increase 
that coordination, and we're working very hard to do that.
    Under the leadership of Secretary Ridge, we have already 
accomplished a substantial amount in terms of reorganization. 
We have unified our border efforts under the Customs and Border 
Protection Bureau. We have created the new Bureau of 
Immigration and Customs Enforcement that put our enforcement 
efforts under one chain of command that gives us a clearer 
focus, and the President's 2004 budget is the first complete 
new budget for the Department, and it is a good foundation for 
the future.
    I believe it is important we develop sound management 
principles and meaningful performance measures as we enact 
budget levels, and we are working hard to do that. If I might 
just comment briefly on the 2004 budget. First of all, for the 
directorate, it is a broad and a very expensive mission. It is 
an enormous challenge that we face. Each year, more than 500 
million persons, 130 million motor vehicles, 2\1/2\ million 
railroad cars, and 5.7 million cargo containers must be 
processed, screened, or inspected at or even before they reach 
our borders. Security decisions by our inspectors must be made 
within seconds, and we need to be right every time. That is 
difficult, and as Senator Hollings pointed out, sometimes they 
do not get paid what they get paid in the private sector, and 
so their commitment is very important.
    The $18.1 billion requested for this directorate by the 
President does provide for greater accountability for a more 
integrated border and transportation security organization. I 
know that sounds like boilerplate language, but that really is 
what I see as the responsibility of my directorate, and the 
uniqueness of this directorate is that we have the 
transportation and border agencies together, and we can enhance 
that integration and cooperation and exchange of information. 
We are increasing the security of our international shipping 
containers. The budget will allow us to continue implementation 
of the congressional mandates that have been wisely provided.
    A few highlighted priorities in the budget. First, under 
the Bureau of Customs and Border Protection. It provides for an 
increase of $1.7 billion over the 2002 budget, and this will 
allow us to support the Customs-Trade Partnership Against 
Terrorism program at a level of $18 million, which increases 
the supply chain security and expedites the clearance of 
international commercial cargoes and conveyances. In the budget 
we're also providing for the enhancement of the Container 
Security Initiative, with $62 million requested, which puts 
personnel in key international ports to examine high risk cargo 
before it is placed in U.S.-bound ships. This is a very 
important part of our overall strategy at Homeland Security.
    And then we have the capital improvements to our IT systems 
from the international trade data system to the automated 
commercial environment system, and if these requests are 
approved, it will be nearly $1.1 billion that have been 
dedicated since 2001.
    I am pleased also that there is $119 million for 
nonintrusive inspection equipment. This allows us not to just 
simply flood the border with people, but provide security at 
our borders wisely with technology and with better systems.
    As was mentioned, the budget also supports continued 
implementation of the comprehensive U.S. VISIT system. The goal 
is to track the entry and exit of visitors to the United 
States. It provides for $100 million in new resources, for a 
total of $480 million. This is an important objective that the 
Border and Transportation Security Directorate will engage in 
over the next couple of years.
    When it comes to the Immigration and Customs Enforcement 
arena, it has 14,000 employees, and a budget of $2.8 billion, 
which is a 16 percent increase over 2002. It will allow us to 
support our investigative activities, including immigration 
fraud, smuggling of illegal aliens, international money 
laundering, export enforcement, forced labor, trade agreement 
investigations, smuggling of narcotics, weapons of mass 
destruction and other contraband, illegal transshipment, and 
vehicle and cargo theft. That is a broad mandate for an 
investigative agency, but we will be prioritizing and working 
in those broad arenas. The budget will allow us to continue our 
traditional roles as well as enforcement of all of our 
immigration laws.
    The Transportation Security Administration has done a good 
job in increasing the professionalism of our screeners, and I 
am proud of the job that they have done. The budget requests 
$4.8 billion for TSA, $2.4 billion of that will be offset by 
collections from aviation passenger security fees and airline 
security fees. Collection of these fees will be suspended from 
June 1 to September 30 of this year, in accord with the 
provisions of the Emergency Wartime Supplemental Appropriations 
Act.
    The total request, $4.3 billion, supports direct aviation 
security activities, including a professionalized passenger and 
baggage screening workforce and additional equipment to prevent 
weapons and other contraband on the aircraft. We will also be 
reimbursing our State and local law enforcement agencies for 
their work in providing now roving patrols and supporting our 
screeners. We will be funding the Federal Air Marshal Service 
and, in addition, enhancing our cargo and passenger screening 
methods and increasing our use of technology.
    One of the important new initiatives is the transportation 
worker identification credential, or the TWIC, that will allow 
us to have more security background checks of our 
transportation workers, and create a credential that will allow 
them to have access to various transportation security 
facilities.
    We also have the Office for Domestic Preparedness and the 
Federal Law Enforcement Training Center. Both are essential for 
training first responders, training of our Federal law 
enforcement agencies, and I am pleased and proud of the work 
that they are doing.

                           PREPARED STATEMENT

    Finally, our directorate supports, through our operations, 
the President's national strategy for homeland security. This 
is a benchmark and a framework for our enforcement 
responsibilities. We want to be able to manage our 
responsibilities in coordination and integration with all of 
our Federal partners and our State and local efforts. These are 
the two benchmarks that guide us as we work in the Border and 
Transportation Security Directorate.
    Thank you for your support. I look forward to your 
questions.
    [The statement follows:]

                  Prepared Statement of Asa Hutchinson

Introduction
    Good morning Chairman Cochran, Senator Byrd, distinguished members 
of the Subcommittee. It is a pleasure to be with you today, and I am 
pleased to be here to discuss the President's fiscal year 2004 budget 
request for the Department of Homeland Security's Border and 
Transportation Security (BTS) Directorate and its component 
organizations.
    Just a couple of months ago, the Department of Homeland Security 
brought nearly 180,000 employees throughout the Federal Government 
together into one agency. I am grateful for the focus and support 
Congress provided in creating the Department, and I also wish to thank 
you for recently providing critical supplemental resources to support 
the Department's efforts in Operation Liberty Shield and the brave men 
and women serving in our military during this challenging time.
    The President's National Strategy for Homeland Security provides 
the framework for mobilizing and organizing the nation--the Federal 
Government, State and local governments, the private sector, and the 
American people--to undertake the complex mission of protecting our 
homeland. It makes the Department's strategic objectives abundantly 
clear: prevent terrorist attacks within the United States, reduce 
America's vulnerability to terrorism, and minimize the damage and 
assist in recovery should a terrorist attack occur.
    There is no more serious job in all the land than stopping future 
terrorist incidents from occurring on American soil. This is especially 
true in light of recent world events. The Border and Transportation 
Security Directorate, along with the U.S. Coast Guard, serves as the 
front line operational force for the Department in achieving its 
objectives. But we are not alone in this effort. The President, 
Secretary Ridge, and I fully understand that our partnerships with 
State and local governments are critical for ensuring the success of 
our mission.
    Under the able leadership of Secretary Ridge, the BTS Directorate 
has already taken significant steps forward. We have reorganized the 
BTS Directorate's nearly 100,000 employees to unify border and 
transportation security activities, integrate our front line 
operational forces, and yet preserve the expertise and functional 
relationships BTS employees have developed over the years.
    This has resulted in the creation of two new bureaus within BTS. 
The inspection and border patrol functions of the former U.S. Customs 
and Immigration and Naturalization Services, and the Agriculture Plant 
Health Inspection Service now reside in the new Bureau of Customs and 
Border Protection (BCBP). The investigation and enforcement functions 
of those agencies, along with the Federal Protective Service, now 
reside in the new Bureau of Immigration and Customs Enforcement (BICE). 
We have also brought first responder resources in the Office for 
Domestic Preparedness (ODP) to improve assistance to our State and 
local partners as they do their part to protect the homeland.
    The fiscal year 2004 budget is the first ever for the new 
Department and the Bureaus of Customs and Border Protection (BCBP) and 
Immigration and Customs Enforcement (BICE). It is the foundation on 
which the Department and the BTS Directorate will be built. In laying 
this foundation, we have a valuable opportunity to develop sound 
management principles and meaningful performance measures. We will use 
these principles and measures to guide our efforts and gauge our 
progress in carrying out the President's Management Agenda.

Budget Request for fiscal year 2004
    In his fiscal year 2004 budget, the President requested $18.1 
billion, including fees, and roughly 108,000 full-time equivalents 
(FTE) positions for the Border and Transportation Security Directorate. 
The request reflects the Administration's commitment to the mission and 
priorities of the Directorate.
    The Border and Transportation Security Directorate secures the 
nation's borders, transportation systems, points of entry, and points 
in between. This includes nearly 7,500 miles of land border, 95,000 
miles of shoreline and navigable rivers, and our Nation's airports, 
highways, rail, maritime, pipeline, and transit systems. This 
Directorate is responsible for preventing the illegal entry of people 
or goods, while at the same time facilitating the unimpeded flow of 
legitimate commerce and people across our borders and throughout the 
national transportation system. This presents an enormous task. Each 
year more than 500 million persons, 130 million motor vehicles, 2.5 
million railcars, and 5.7 million cargo containers must be processed, 
screened, or inspected at, or even before they reach, our borders.
    The $18.1 billion requested by the President for the BTS 
Directorate will: provide greater accountability through an integrated 
border and transportation security organization; create smart borders 
that are more secure; increase the security of international shipping 
containers; continue implementation of the Aviation and Transportation 
Security Act of 2001, the USA PATRIOT Act, and the Maritime 
Transportation Security Act; and ensure that our Nation's first 
responders are trained and equipped to address the threat of terrorism 
through efforts consolidated in the Office for Domestic Preparedness.
    The following sections detail the budget requests for the Border 
and Transportation Security Directorate components.
    The Bureau of Customs and Border Protection brings together 
approximately 42,000 employees including 11,000 Border Patrol Agents, 
and 19,000 inspectors from the Agriculture Plant Health and Inspection 
Service, and the former Immigration and Naturalization and U.S. Customs 
Services, including canine enforcement officers. The Bureau focuses its 
operations on the movement of goods and people across our borders to 
prevent the illegal entry into the United States of people or goods at 
or between ports-of-entry while facilitating the movement of legitimate 
trade and international travel.
    The budget includes $6.7 billion for the Bureau of Customs and 
Border Protection, an increase of $1.7 billion (33 percent) above 
fiscal year 2002. These resources will support the Customs-Trade 
Partnership against Terrorism (C-TPAT) program, which increases supply 
chain security and expedites the clearance of international commercial 
cargoes and conveyances. It also supports the expansion of programs 
such as the Container Security Initiative, which puts personnel in key 
international ports to examine high-risk cargo before it is placed on 
U.S.-bound ships. The request funds the International Trade Data System 
(ITDS) and the Automated Commercial Environment System (ACE), two 
capital projects for which, if the request is approved, nearly $1.1 
billion will have been dedicated since fiscal year 2001.
    The Bureau of Customs and Border Protection will ensure compliance 
with customs and immigration laws, determine the admissibility of 
persons to the United States, and prevent the admission of terrorists 
and other criminals. The Bureau will also focus on deterring illegal 
crossings, seizing illegal drugs, currency, and monetary instruments, 
processing $1.2 trillion in imports, and collecting $20 billion in 
duties on the same, while inspecting 147 million vehicles and more than 
one million aircraft. The budget also supports continued implementation 
of the comprehensive U.S. VISIT system to track the timely departure of 
visitors to the United States.
    The Bureau of Immigration and Customs Enforcement brings together 
the enforcement and investigative arms of the former Customs and 
Immigration and Naturalization Services, and the Federal Protective 
Service. The reorganization involves approximately 14,000 employees, 
including 5,500 criminal investigators, 4,000 employees for immigration 
and deportation services and 1,500 Federal Protective Service staff. 
The Bureau will address the full range of immigration and customs laws 
within the United States, in addition to protecting specified Federal 
buildings. The air and marine enforcement functions of the former 
Customs Service will also be a part of this Bureau.
    The fiscal year 2004 request for the Bureau of Immigration and 
Customs Enforcement (BICE) includes $2.8 billion, an increase of nearly 
$400 million (16 percent) above fiscal year 2002. Nearly $1.1 billion 
of this amount will support investigative activities, including 
immigration fraud, smuggling of illegal aliens, international money 
laundering, export enforcement, forced labor, trade agreement 
investigations, smuggling of narcotics, weapons of mass destruction 
(WMD) and other contraband, illegal transshipment, and vehicle and 
cargo theft. Furthermore, the budget will continue our ability to 
apprehend, detain and remove illegal aliens, and strengthen visitor and 
immigrant arrival and departure control by facilitating timely 
enforcement actions against violators. These funds will also reduce 
infrastructure vulnerabilities, promoting safe and secure Federal 
properties for both employees and visitors.
    The Transportation Security Administration (TSA) continues its 
mission to protect and secure our nation's transportation systems, 
while ensuring the unencumbered movement of commerce and people. The 
President's budget requests $4.8 billion for TSA, approximately $2.4 
billion of which will be financed by offsetting collections from 
aviation passenger security fees and airline security fees. Collection 
of these fees will be suspended from June 1 through September 30, 2003 
in accord with the provisions of the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act, with collections renewed on October 1, 
2003.
    Of the total request, approximately $4.3 billion supports direct 
aviation security activities, including a professionalized passenger 
and baggage screening workforce, and supporting equipment to prevent 
weapons and other contraband on aircraft. The budget also supports 
reimbursement to State and local law enforcement agencies, funding for 
the Federal Air Marshal Service to provide in-flight security, and it 
supports improvements in both air cargo and passenger screening methods 
and technology to reduce security risks.
    The request for TSA includes funding for new air cargo security and 
armed pilot initiatives, and it supports TSA's work to develop and 
implement security standards for non-aviation modes of transportation. 
Furthermore, it will advance the TSA's work on the Transportation 
Worker Identification Credential (TWIC) initiative.
    The Office for Domestic Preparedness will strengthen the readiness 
capabilities of State and local governments that play a critical role 
in the Nation's ability to prepare for and respond to acts of 
terrorism. ODP will manage the Department's First Responder initiative, 
providing grants for preparedness. ODP will award $3.5 billion to 
States to address the equipment, training, planning and exercise needs 
identified in their updated response plans. These State plans 
strategically outline goals and objectives for preparedness, State and 
local enforcement anti-terrorism initiatives, and Citizen Corps 
preparedness activities. ODP will also continue supporting a number of 
unique training facilities, and provide technical assistance for State 
and local planning efforts.
    The Federal Law Enforcement Training Center (FLETC) will continue 
to serve as a leading Government provider of high-quality law 
enforcement training to Federal, State, and local law enforcement 
officers. The fiscal year 2004 budget request for the Federal Law 
Enforcement Training Center is $146.1 million, including capital 
acquisitions. With these funds, FLETC will provide cost-effective and 
contemporary law enforcement training, support the specialized training 
needs of State, local, and international agencies, and deliver 
preventive and investigative law enforcement methodologies and 
terrorism training.

Conclusion
    The budget request for the Department of Homeland Security's Border 
and Transportation Security Directorate supports the President's 
National Strategy for Homeland Security, which is the framework for 
mobilizing and organizing the resources of the Federal Government, 
State and local governments, the private sector, and the American 
people to accomplish our unwavering and complex mission to protect the 
homeland. We have a good start on this work, but we are only at the 
beginning of what will be a long and difficult road. Many challenges 
lie ahead.
    The fiscal year 2004 budget request provides the resources to 
enable the Border and Transportation Security Directorate to manage its 
responsibilities and continue its work to secure the homeland to 
protect and serve the American people. We are committed to preventing 
terrorist attacks, reducing America's vulnerability, and responding to 
and recovering from attacks that occur. I look forward to continuing to 
work with you to successfully accomplish these objectives.
    Mr. Chairman, Senator Byrd, and Members of the Subcommittee, this 
concludes my prepared statement. I would be happy to answer any 
questions you may have at this time.

                 CHALLENGES OF UNDER SECRETARY'S OFFICE

    Senator Cochran. Thank you, Mr. Secretary, for your 
statement. The other day we had the Secretary of the Department 
of Homeland Security, Tom Ridge, before our committee talking 
about the overall budget request for the Department and the 
challenges that face him and the President and all of you who 
are responsible for the individual directorates and carrying 
out the responsibilities of the Department of Homeland Security 
Act.
    I wonder, as we celebrated the first 100 days just recently 
of the creation of this new Department, what you view as your 
most challenging responsibilities. You have had experience in 
other Federal offices, specifically the Drug Enforcement 
Administration, heading up that office. Tell us what your most 
difficult and challenging moments have been as Under Secretary.
    Mr. Hutchinson. Well, thank you, Mr. Chairman, and it has 
been challenging. I think any time you are setting up a new 
organization there exists an incredible organizational 
challenge. You overlay that with being in the Government, and 
then you overlay that being in a high threat environment, and 
our hostilities in Iraq enhanced our operational challenges, 
and so all of that together combined for a very challenging 
start.
    I have been pleased, quite frankly, with the momentum for 
the merging of the cultures between the 22 different agencies, 
and I think the reason we are having a better time than other 
Government reorganizations is because there is really a strong 
commitment to the homeland security effort. It gives our 
employees a tremendous sense of pride to be a part of this 
Department.

                                STAFFING

    Senator Cochran. Has there been a very high turnover in the 
offices, particularly the principal offices of leadership in 
the enforcement agencies and the inspection services that now 
come under your jurisdiction? Have you had to go out and find 
new people to hire, or are you bringing over a lot of folks who 
worked in the offices and were in charge before the new 
Department was created?
    Mr. Hutchinson. Senator, it has not been a particular 
problem with attrition or being able to recruit top-quality 
executives or middle-level management for the work we are 
doing. I think when you saw TSA created a couple of years ago, 
I was at the DEA at that time, and you saw a lot of changeover 
in Federal law enforcement. There was a lot of attraction to 
that new mission. There were some competitive advantages to TSA 
as they set up. I think the dust has settled since then, and 
stabilized in our Federal law enforcement workforce. We have 
people really knocking on our doors because they want to be 
engaged in this tremendous new mission, so I don't identify 
that as a problem.
    Senator Cochran. There is a specific amount in the budget 
request for you to hire employees and to staff up your own 
office. Have you completed that work now, and to what extent is 
the budget request sufficient to provide you with the number of 
employees in your office that you need to carry out your 
responsibilities?
    Mr. Hutchinson. Well, in the 2004 budget request for my 
operational team at the Under Secretary level it will be a part 
of the overall Department management budget, and in my judgment 
it has been adequate thus far. I believe it is adequate for the 
2004 time frame.
    We have budgeted for, I believe it is 67 personnel in the 
Under Secretary's Office. That is relatively small number to 
oversee 110,000 employees in the different agencies, but I 
think it is wise not to start up with a huge bureaucracy. We 
have detailed people from different agencies as part of that 67 
in the near term. That gives us support, and with the 
allocation we have I think that we've got a good team that 
we're putting together for that purpose.

                      STATE OF READINESS IN PORTS

    Senator Cochran. I know that when you mentioned the hiring 
of port directors, you've been traveling around the country 
meeting and getting to know some of the people that are in 
these offices throughout the country, including recently in our 
neighboring city of New Orleans. What do you consider to be the 
state of readiness to protect the security of our Nation's 
ports at this point in time?
    Mr. Hutchinson. Well, first of all it is much improved, as 
compared to prior to September 11. We have made enormous 
strides and progress with our ports. There has been an 
increasing number of ports that have done vulnerability 
assessments. That is an ongoing process. In addition, the 
information systems have improved, where the inspectors on the 
front line have access to more databases to check cargo and 
people, and it has been a partnership with the private sector. 
They have invested a substantial margin in the security of our 
ports. We have a greater distance to go in the future, but I 
believe that the personnel are ready and the systems are 
getting into place.
    When I was there in New Orleans I saw some from your State, 
Biloxi, that came over, doing an outstanding job there, so I 
think that the state of readiness is good.
    Senator Cochran. Senator Byrd. I am prepared to yield to 
you, sir.

TRANSPORTATION SECURITY ADMINISTRATION RESOURCES FOR MARITIME AND LAND 
                                SECURITY

    Senator Byrd. Well, thank you, Mr. Chairman.
    Mr. Secretary, you have referred to the $4.8 billion TSA 
budget. Only $86 million is requested for maritime and land 
security activity while over $4.3 billion is requested for 
aviation security. This means that less than 2 percent of your 
transportation security budget request is for maritime and land 
security, less than $1 in $50. In fact, the budget request for 
administrative costs associated with TSA headquarters and 
mission support centers, $218 million, is two-and-a-half times 
greater than the request for maritime and land security. How do 
you explain that?
    Mr. Hutchinson. Well, Senator, of course, subsequent to 
September 11 and really prior to that there was a great focus 
on airport security, airline security. Much of that was--of 
course, all of that was based upon a mandate from Congress to 
have 100 percent checked baggage inspection, as well as 
screening of each passenger, so that's where the emphasis has 
come from. But as you noted, the TSA has a broader mandate than 
just airline security, and we are moving in that direction.
    I don't think we treat every mode of transportation the 
same. Whenever you're looking at rail, we want to act on best 
practices with strong relationships with the modal 
administrations at the Department of Transportation, so we are 
mindful of our responsibility there. We are moving forward with 
stronger efforts in the other modes of transportation, and we 
will do it based upon threats and the vulnerabilities that we 
assess.
    Senator Byrd. All right. You have introduced my next 
question, and you've partially answered it. Why has more 
funding not been requested for other, equally important modes 
of transportation?
    Last month, Secretary Ridge provided the committee with a 
written statement of his priority guidelines for addressing 
vulnerabilities to another terrorist attack. He included 
attacks on confined spaces, such as rail and air transportation 
systems, that could be used to spread contamination. He 
expressed concern about catastrophic economic damage that could 
come from an attack on transportation systems and on petroleum 
facilities at our ports, and, yet, the request for adequate 
resources is not there. We've concentrated on the $4.3 billion 
requested for aviation security.
    I'm all for that, but, the budget request for 
administrative costs associated with TSA headquarters and 
mission support centers is two-and-a-half times greater than 
the request for maritime and land security. Are port and 
maritime security lower priorities? They must be. Why? Is it 
because there hasn't been a terrorist attack here yet? The 
terrorist track record is to exploit vulnerabilities. The first 
attack on the World Trade Center used truck bombs.
    The attempted millennium attack in Washington State sought 
to exploit our porous borders. The 9/11 attack used airplanes. 
I think we should have learned from this track record to 
address all of our vulnerabilities, and not just those that the 
terrorists have used most frequently.

      PRIORITIES IN TRANSPORTATION SECURITY ADMINISTRATION BUDGET

    Senator Byrd. Mr. Secretary, why is the security of our 
ports, why is the security of our bus and subway systems, why 
is the security of our rail systems, Amtrak, for example, why 
do they have such a lower priority in your budget?
    Mr. Hutchinson. Well, you're absolutely correct that we 
have to address the broad range of vulnerabilities in our 
transportation systems. Whenever you look at the airlines, we 
responded both to vulnerability but also an incident, and now 
we're conducting assessments, and it is important to conduct 
these assessments of the vulnerability of our transportation 
system so we know exactly how we're spending our money and 
where it should be invested.
    In the 2004 budget, $62 million is requested for the 
Container Security Initiative assessments. This also is an 
important part of our efforts to provide, both from the private 
sector and with our taxpayer partnership, greater security 
efforts in our ports. When it comes to other areas of critical 
infrastructure, we have the Directorate of Information Analysis 
and Infrastructure Protection. This directorate has requested 
$500 million to go toward critical infrastructure protection, 
and this has the broader arena of infrastructure.
    Part of it will be in the transportation sector, part of it 
will be in the petroleum or the energy sector, and there will 
be other aspects of critical infrastructure that have to be 
protected, so we'll go through the assessments, and then we 
will be assigning the responsibilities for the protection based 
upon those vulnerabilities.
    Senator Byrd. It appears to me from what you've said that 
you feel that the budget requests are inadequate. What would be 
an adequate request, in your judgment, to meet these 
vulnerabilities about which you have spoken?
    Mr. Hutchinson. With due respect, Senator, I believe the 
2004 budget request is appropriate. I think it is important not 
to measure success simply by the dollar amounts that are 
invested, but also by the strategy that is being implemented, 
and I think it is an appropriate strategy to logically go 
through the evaluations and the assessments and then put the 
money where the threats and greatest vulnerabilities are, so 
clearly down the road there is going to be additional money 
that is needed, but in terms of the 2004 budget, I think it is 
a correct strategy and the right amount to complete these 
assessments.
    Senator Byrd. How much did you request at the OMB level for 
these items?
    Mr. Hutchinson. I do not have that figure as to that 
discussion.
    Senator Byrd. You don't know what you requested at the OMB 
level?
    Mr. Hutchinson. I do not have that in front of me, sir.
    Senator Byrd. Will you supply it to the committee, please?
    Mr. Hutchinson. We will be glad to look at that and get the 
information to you.
    Senator Byrd. You will be glad to supply that information 
to the committee?
    Mr. Hutchinson. Provided there are not any issues there 
that I am unaware of at this time in terms of the 
communications that we had with OMB, but we will certainly want 
to support your request for that information and be able to 
answer you appropriately.
    Senator Byrd. Well, you have fuzzed up that response. I've 
been in Congress now more than 50 years, and I know when an 
answer, is a solid, firm, straightforward answer, and when it 
is not. So, please supply that information to this committee. 
It's our business to try to fund the needs to protect the 
people of this country, and on the basis of your testimony, I 
think that the budget request is inadequate. So, will you 
please supply that information so that this subcommittee can 
respond in an adequate fashion, as we are here to do and want 
to do? Do you understand that?
    Mr. Hutchinson. I understand, and will be happy to respond 
to your question.
    [The information follows:]

    A separate line item was not included in the fiscal year 2004 TSA 
budget for these items. Rather, budget requirements to address these 
needs and similar requirements across all sectors of the Department of 
Homeland Security were consolidated under the Directorate for 
Infrastructure Analysis and Infrastructure Protection.
    The budget requests that agencies send to OMB are part of the 
Executive Branch's deliberative process for developing the President's 
Budget submission to Congress. The longstanding Executive Branch 
position has been that agencies are to preserve the confidentiality of 
these internal deliberations and not release the funding requests that 
they send to OMB.

                  COAST GUARD GRANTS FOR PORT SECURITY

    Senator Byrd. I will just finish with one more question. 
The Coast Guard has estimated already the cost of improving 
port security at $1.4 billion for fiscal year 2004, and there 
are no dollars, none, in the budget request. Do you want to 
comment on that?
    Mr. Hutchinson. Well, an assessment was done by the Coast 
Guard. Obviously, when you look at needs for port security, 
part of it is borne by the private sector. A substantial part 
of that they are investing. In addition, we again are providing 
money to complete the assessments, and there are some grants 
that are available through TSA that would be broader than 
simply an assessment that would be grants for improvement of 
security.
    Senator Byrd. Mr. Chairman, I have further questions, but I 
will wait.
    Senator Cochran. Thank you, Senator Byrd. Senator Campbell.

         OFFICE FOR DOMESTIC PREPAREDNESS GRANT-MAKING PROCESS

    Senator Campbell. Thank you, Mr. Chairman. I have about, 
maybe 10 questions. Some of them I will submit in writing, too, 
with your permission.
    The portion of your budgets dedicated to managing the 
Department's first responder initiative providing for grants 
for preparedness, I think my office is like many of them here, 
and that is we have some disparity about how it ought to be 
administered at the State level. It seems like every town, at 
least major-sized towns in my State, would like to have their 
own Homeland Security office and their own network, their own 
system, and the States would prefer it go through the States. 
Could you explain very quickly how the process that's in place 
now, how it awards the grants?
    Mr. Hutchinson. Yes, Senator. The broad overarching 
principle is that we want to go through the State Homeland 
Security directors to channel the money flow to the first 
responders at the local government level, and the reason is 
that we want to make sure that a security response is highly 
coordinated, that there is a multijurisdictional response to 
any terrorist incident or the planning for it. The only way to 
do that is to have a State coordinating body that will make 
sure that the local entities are coordinating and moving in the 
same direction.
    Senator Campbell. So the grant is given to the State and 
they, in turn, disseminate it to communities as they see fit?
    Mr. Hutchinson. That is correct. Now, in reference to the 
most recent supplemental that was provided, over $2.2 billion, 
the bulk of that will go through the States, but Congress 
wisely put on a requirement that it has to go from the States 
to the local governments within 45 days. Sometimes in the past 
it has stayed there too long, and so that 45 days will move it 
in a more quick fashion to the local governments. There will be 
pressure from the bottom, and we will be putting pressure from 
the top.
    You also allowed, I think it was $10 million at least, for 
technical assistance, so ODP will be providing more technical 
assistance to the States to help them to get that money out to 
local governments. We recognize how important it is to get to 
the local governments. We are going to be working to accomplish 
that, but still, it's important to run that money through the 
State for coordination purposes.
    Senator Campbell. Okay, thank you.

  EMERGING TECHNOLOGIES RELEVANT TO BORDER AND TRANSPORTATION SECURITY

    There must be literally dozens of groups who have already 
come to you, and certainly they have come to us, that have some 
kind of a new, sophisticated technology that they think should 
be in the mix somewhere in trying to provide better security, 
particularly on airlines. I saw one about 6 months ago that 
was--I'm not a really high tech person, and it kind of amazed 
me. It was a very tiny monitor that could be put literally 
anywhere in the plane, in the cabin of the plane, and you 
almost couldn't see it. It was just like a little, small eye, 
and it was coupled with a screen on the ground so people on the 
ground at the appropriate agencies could actually watch what 
was going on inside the cabin of the plane and could 
communicate with the people on the ground, too. I thought that 
was really pretty advanced.
    Is there a process now in place in which these new emerging 
technologies, which are often done by very small groups around 
the country, is there a process in place now where they can get 
into the system and show their wares and have someone evaluate 
it?
    Mr. Hutchinson. Yes, there is, and I was pleased that one 
of the directorates created at Homeland Security is the Science 
and Technology Directorate, which is--I equate it to an R&D 
shop in private industry, and Dr. Chuck McQueary, does an 
outstanding job there, and as we see either new emerging 
technologies or maybe even existing technologies in the private 
sector that may have an application for border security or 
transportation security, we will ask them to evaluate it, to 
test, pilot it, to see if it can work on the border, or we 
might give them an idea that they will go out in the private 
sector and solicit bids for a particular project.
    So they do the evaluation, the piloting of it, we do the 
request, and then the implementation of it if it does have that 
application. I have encouraged those in private industry to 
check our Web sites. They have ways in which they can present 
their ideas to Homeland Security.
    Senator Campbell. And along that line, before 9/11 there 
was very little way to be able to communicate from the air to 
the ground, other than the normal channel to the tower, and the 
air marshals, do they have a way of communicating with the 
ground now, when they are on the airplane, and by the way, if 
there is something you shouldn't say in public, or before the 
committee, that's fine.
    Mr. Hutchinson. Senator, let me get back with you on that 
answer, if I might.
    [The information follows:]

    Pursuant to House Conference Committee Report 107-593, TSA's 
Federal Air Marshal Service (FAMS) was provided $15 million to begin 
implementation of an Air to Ground Communications program. TSA intends 
to utilize this funding to purchase a Commercial Off-the-Shelf (COTS) 
product, which includes hardware and software, for implementation of 
the Air to Ground communications system. This initial system will allow 
FAMS to utilize a portable, quickly deployable air to ground 
communications system which will seamlessly integrate existing FAMS 
wireless technology. This comprehensive wireless communications system 
may also be used by other local, State, and Federal agencies, and the 
Department of Defense, to achieve secure communications through a 
dedicated law enforcement network.

                     MONITORING UNTENDED AIRSTRIPS

    Senator Campbell. I mentioned in my opening statement, too, 
one of the weaknesses I saw, which raised some hackles of 
private aviation, but I know that there are literally hundreds 
and hundreds of runways around the country, many of them paved, 
by the way, that are on the FAA maps, but there's nobody 
around. They're just, literally abandoned.
    I know of two just within a few miles of my own home town, 
in fact, no towers, no FBOs, nothing on it, where people could 
land, and certainly the drug runners know most of these 
airports, and they are the ones who are using them.
    Is there anything that we are doing to catalog them, or 
monitor them, do something so that they would be less 
attractive as a place to put explosives on a private plane, as 
an example?
    Mr. Hutchinson. Well, there are a couple of things that 
we're doing. First of all, the general aviation industry has 
been very supportive in terms of, if they see something that is 
suspicious, they report that. We had a number of different 
reports that we've investigated based on their information, so 
they're really our eyes and ears out there if they see 
something strange or get an unusual request. The general public 
obviously is helpful.
    We have in the Bureau of Immigration and Customs 
Enforcement the Air and Marine Division, in which we monitor 
aircraft, in conjunction with other agencies that might be 
coming into our country. We, during Operation Liberty Shield, 
deployed many of those air assets to the Northern border. That 
helps us to track pilots that are unaccounted for, or might be 
operating under suspicious circumstances.
    So a combination of our own intelligence and law 
enforcement activities on the ground with our monitoring of our 
border air security gives us a pretty good idea of what's going 
on in that arena.
    Senator Campbell. Well, good luck in that arena, because I 
just think there's a huge weakness there yet.

                    PRIVATIZING AIR TRAFFIC CONTROL

    Recently, President Bush issued an Executive order that 
deleted a clause in a previous order signed by President 
Clinton that described air traffic control as an inherently 
governmental function. The administration, this administration 
has proposed studying whether to hire a private company to take 
over the air traffic control system. What effect would that 
have? Do you think it would solve any problems, or would it 
help the current system, or hinder the current system?
    Mr. Hutchinson. If there were private contractors for air 
traffic control?
    Senator Campbell. Yes.
    Mr. Hutchinson. I really wouldn't be in a position to 
comment from an expert standpoint on that. Obviously, we look 
at the private sector where appropriate. That is one that has 
to be closely integrated and we have to be careful about, but I 
would wait for the comments from the FAA before I would want to 
submit my own comments on that.
    Senator Campbell. Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much. Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.

                FURLOUGHING OF AIR PASSENGER INSPECTORS

    Mr. Secretary, recently TSA issued hundreds of yellow slips 
throughout the system, many to recently trained inspectors. 
Does that reflect itself on the budget, because I noticed, 
personnel, you have increased it?
    Mr. Hutchinson. It does, and the reason for that was 
twofold. One, there is a cap on the number of employees. This 
reduction, or right-sizing, as Admiral Loy calls it, will bring 
the screener workforce down to 49,000, and then secondly, there 
naturally needs to be an adjustment out there for efficiency 
purposes. The organization stood up very quickly. Not all of 
our personnel were allocated in the right way. We have to 
adjust it to allow for the traffic flow. There is going to be a 
reduction of 6,000, I think, in the next 6 months. It will be 
phased in.
    About half of those will happen through normal attrition. 
Others will be done through performance evaluations. There is 
some accommodation for those that have to be moved, so Admiral 
Loy is working closely with the workforce on that and with the 
management at TSA to do this in the best way, but it's 
something that was necessary from a budget standpoint and a 
management standpoint, and in answer to your question, it does 
save hundreds of millions of dollars by this reduction in 
force.
    Senator Inouye. Do you have similar caps in other areas?
    Mr. Hutchinson. In other areas of Homeland Security?
    Senator Inouye. Yes.
    Mr. Hutchinson. No. That is the only statutorily mandated 
limitation on numbers. Of course, others are fixed in terms of 
the amount that could be used for personnel, but that was a 
unique circumstance in which we had to stand it up so quickly. 
There was a limitation that was placed on it, and that is the 
only one that, because of budget constraints, TSA is the only 
one that had to do a right-sizing of the workforce.
    Senator Inouye. Thank you very much, Mr. Chairman. May I 
submit my other questions?
    Senator Cochran. Senator, thank you. Certainly, and we hope 
you will be able to respond, Mr. Secretary, to the written 
questions within a reasonable time.
    Mr. Hutchinson. I would be pleased to do so.
    Senator Cochran. Senator Hollings.

                             PORT SECURITY

    Senator Hollings. Mr. Chairman, on Senator Byrd's question 
of your request to OMB, add how much OMB cut your request, will 
you, please?
    Mr. Hutchinson. I will add that to the request.
    Senator Hollings. And this is friendly, because I'm with 
you, and I want to work with you, but you're way behind the 
curve when you intimate that, for example, the port security 
assessments are on course, and that security at ports is good. 
Let me--harken the actual facts.
    When we passed the port security bill in the United States 
Senate, it wasn't just an estimate. That was a determination of 
$4\1/2\ billion, and $1.4 billion immediately. That was voted 
on by every Republican and every Senator, 100 to nothing. When 
we got over on the House side, they bucked all year long, and 
we had to finally compromise just making an authorization bill 
in November.
    Again, in the emergency supplemental we had a billion in 
there that we could spend during the rest of this fiscal year. 
I know Senators, Republican Senators that wanted to cosponsor, 
wanted to vote for it, and word came from the White House, 
don't vote for that. There's no money.
    And when you intimate that money could come from the 
private sector, it won't come from the private sector. It won't 
even come from the public. Working with these folks you learn 
quickly, they don't want security. The name of the game at the 
port is to move it as fast as they possibly can, and so they're 
in competition, and they just cross their fingers and say, 
well, they'll blow up Houston, or they'll blow up Philadelphia, 
they won't come to mine, and I'm not going to spend my time and 
money on that particular story, and incidentally the law says 
the captain of the port is in charge of security, which means 
you, Mr. Secretary, the buck stops with you. We need that 
money. We need it right away.
    We do not have--for one, you testified, the transportation 
worker identification credentials. That's supposed to be 
available next month, in June, and these truck drivers coming 
on the port facility, they don't have credentials. They can't 
enforce it now, but that's what we said last year, that by June 
of this year we would have a card that you had approved in the 
Department of Homeland Security, and that Department would 
issue it, and then everybody would have an identification card.
    We have virtually no security whatever. I can identify 
every plane that approaches the coast of the United States. I 
cannot identify every ship. Now, we made the shipowners provide 
transponders, but we do not have the money for the channel 
towers. It just came out the other day when Secretary Ridge was 
here, and he testified that we don't have that money yet. 
You've got to get your Department on top of this particular 
problem, because Osama bin Laden has got 10 vessels that he 
owns. He used a rust bucket to go into Mombasa, the port of 
Kenya, to blow up U.S. Embassies in Nairobi and Tanzania, and 
they could come up to Houston, or come up the Delaware River.
    They could come up on, not on one of those rust buckets, 
they could take over--like they did the planes, they could take 
over an Exxon tanker coming right up there, throw the captain 
overboard and run it into the tank farm there, blow the whole 
thing. That would close down the eastern seaboard for several 
months--we've got Booz-Allen studies. All of this has been, not 
just estimates, but studies showing the tremendous danger that 
we're in, but to come to say, we're on course and the port 
security is good? I want to work with you and get on with that. 
We need the money now, and your budget doesn't call for it.
    Otherwise, there's been an ongoing, trying to get an 
additional 500 Customs agents. We debated an old textile bill 
back when President Reagan was in. I tried to get the 500 
there. Then when we debated another bill, NAFTA, in 1994--he is 
now the ranking member of the Budget, but Congressman Spratt, 
that you know very well, he voted for NAFTA on the promise that 
he would get 500 Customs agents. He hasn't gotten them yet.
    Now we go to the Customs agency and say, look, you say the 
$5 billion in train shipments in violation of textiles, and the 
agent looks at you and says, Senator, you want me to check 
drugs or do you want me to check textiles? He said, I'm 
checking drugs as best I can. Now, the agent says, excuse me, 
I'm checking terrorists, then I'm checking drugs, then I might 
get to your textiles, so you're way behind the curve on Customs 
agents, so I just suggest that you get on top of that.
    I see according to my news reporter here on the right we're 
getting rid of Mitch Daniels in 30 days.
    Senator Leahy. Hallelujah.
    Senator Hollings. Hallelujah is right. Let's get the money 
and get on, because you're the one that's going to be in 
charge. The buck stops there.
    I appreciate you've got a difficult task, and a lot of old 
things like the Customs things and identification card and the 
Port Security money. The money hasn't been there on rail 
security, it's not there on port security.
    Mr. Hutchinson. Senator, I just want to thank you for your 
comments. You have been a very constructive partner in this, 
and I take your admonitions very seriously, and I certainly do 
not mean to represent that everything is perfect in the 
security realm. We understand the many challenges that we face.
    Senator Hollings. Your problem is money, and let's get it 
out of that crowd.
    Mr. Hutchinson. Thank you for your comments, Senator.
    Senator Cochran. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I checked--any 
further news? I'm so tempted to say something, but I'm not 
going to do that. I don't get the Arkansas wire here.
    Mr. Hutchinson. You're a wise man.
    Senator Leahy. I only get the Vermont political wire.
    Mr. Hutchinson. I'm staying right where I am.
    I think.

                RESTRUCTURING OF IMMIGRATION AND CUSTOMS

    Senator Leahy. Let me ask you a question. You and I have 
known each other and worked with each other for years, and I am 
thinking back to when you testified before the Judiciary 
Committee in March, and I asked you to make good use of the 
excellent former, now former INS employees from Vermont that 
you inherited. Vermont is home to the administrative offices 
for the INS that provides oversight administration for much of 
the eastern half of the United States. I mention them because 
the workers have always received the highest rankings for their 
work and efficiency, and most have felt it was a good bang for 
the buck, and you told me it was essential to get the facts and 
to communicate with them clearly.
    Now, since that testimony, the former INS and Customs 
employees of Vermont still want to know what the restructuring 
means to them. Of course, some confusion is inevitable. I was 
looking at the organizational chart of the Department of 
Homeland Security. It's a pretty daunting one, so could you 
tell me what is the current state of restructuring for the 
Bureau of Immigration and Customs Enforcement, and how will 
that command structure differ from what the INS now has?
    Mr. Hutchinson. Thank you, Senator, and first of all the 
Law Enforcement Service Center in Vermont does an outstanding 
job. Mike Garcia, the Acting Assistant Secretary in charge of 
ICE has been up there. I'm also aware of how critical a role 
they play in providing local law enforcement with information 
on alien absconders and other issues that they have to 
confront, so I'm very impressed with the work that they do in 
terms of our organizational structure with Immigration and 
Customs Enforcement. I call it ICE.
    This Bureau came into Homeland Security by simply linking 
the chain of command at the top, and so you had your 
immigration enforcement and you had your Customs enforcement. 
They just came up to the top. Now we're bringing those middle 
management structures together, and we're going to be moving 
forward in the next couple of weeks. The management of 
Immigration and Customs Enforcement is ready for this unified 
leadership change. I do not see that this impacts the 
enforcement services there in Vermont. We do not plan to reduce 
the staff there. They're doing an outstanding job, and they're 
very needed in this mission, and they will remain a critical 
part of Immigration and Customs Enforcement.

    LEADERSHIP ISSUES IN REORGANIZATION OF BORDER SECURITY AGENCIES

    Senator Leahy. Thank you. I was just wondering. I don't 
envy you having to do this, but you have to integrate the old 
INS, Customs, other agencies into the Bureau of Customs and 
Border Protection. If you've got overlapping personnel and 
administrative support staff and so on, how do you determine 
who takes the lead? Who is in charge? I mean, ultimately you 
are, I understand, but to make it function, how do you 
determine that?
    Mr. Hutchinson. Well, it is a challenge whenever you're 
looking at whether it's immigration enforcement director or 
Customs traditional enforcement, SAC, that takes the lead, when 
you bring the management structure together you look at their 
experience, you look at their grade level, and things like 
that, put an interim person in charge. Then you will go to a 
merit-based selection process where everybody can present 
themselves for that, so it's a process we're going through 
that's working fairly smoothly.
    The biggest challenge is with the services side and 
splitting things off there, because you had support functions 
that supported both the enforcement side as well as the 
services side, as well as the inspection side, and so you've 
got some blend. That's more difficult to split, but 
Commissioner Bonner, Mr. Garcia, and Eduardo Aguirre, who is 
head of the services side, have a working group between them 
that work on these issues, and they're resolving them very 
well. It's a challenge, but they are making progress on it.
    One of the biggest challenges, by the way, is the overseas 
offices, because usually in a small overseas office they serve 
everyone, and they're funded in many instances by the services 
side fee collection, and that is a difficult issue we're 
wrestling with.
    Senator Leahy. I am sure it is. I have other questions 
about TSA staff reductions, certainly at the Burlington Airport 
and others. I will submit that for the record.
    And I will make the same invitation to you I made to 
Governor Ridge. The snow has gone out in Vermont. It has now 
melted. The maple syrup crop is in. Come to Vermont and talk to 
these people. I really wish you would. They are amazing. I have 
spent a lot of time both in South Burlington and St. Albans, 
where we have so many INS, Customs, others up on the border, 
and I use that term, INS, Customs, all just realizing that has 
changed, but to indicate who I'm talking about.
    These are remarkable people. They are highly dedicated 
people, alien tracking system that you referred to in law 
enforcement. I remember one time we had 20 inches of snow 
overnight. This had to stay open around the clock. Everybody 
showed up to work on time, and I said something and they said, 
well, there has to be somebody here, of course. I mean, there's 
just never any question.
    So come on up there sometime. I would love to show you 
around.
    Mr. Hutchinson. Thank you. I'd be happy to do so.
    Senator Leahy. And I will submit my other question, if I 
might, for the record.
    Senator Cochran. Thank you, Senator Leahy.

        ENFORCEMENT ROLES AND COORDINATION UNDER REORGANIZATION

    Mr. Secretary, in your directorate there are several sub-
bureaus focused on enforcement of current law, specifically the 
Bureau of Customs and Border Protection, the Bureau of 
Immigration and Customs Enforcement, and the Transportation 
Security Administration. How do you intend to coordinate the 
policies and the investigations procedures of these different 
entities within your directorate? Will they be coordinated, or 
will they function more or less independent of each other?
    Mr. Hutchinson. They will be coordinated, and we're doing 
it in a couple of ways. First of all, every Friday we have a 
policy council, BTS policy council that meets. The heads of 
each of the agencies under the Border and Transportation 
Directorate meet and we work on this coordination every week, 
high level.
    For example, use of force. Whenever you have a multitude of 
different agencies coming from the Justice Department, the 
Treasury Department, Transportation coming over, everybody has 
a different policy. We want to unite them together. This 
afternoon I'll be meeting with the Deputy Secretary about the 
procurement of boats. Whenever you have Coast Guard, it's not 
in the BTS, but we're trying to coordinate that with our 
Immigration and Customs Enforcement procurement of some air and 
marine assets, so we're working at that level as well.
    Probably most importantly, though, is the IT architecture, 
the information infrastructure. We're working with Steve 
Cooper, our Chief Information Officer for the Department, and 
building it together. For example, TSA is proposing and trying 
to pilot the CAPPS-II program, which is an information-sharing 
system I also emphasize over and over again that ultimately we 
want to be able to collect information from our visa programs 
overseas and the consular offices, make sure that information 
is available to our inspectors at the airports and our land 
ports of entry. Furthermore the information that is collected 
must be Government-based, not any private databases there, but 
appropriate to be shared, can be shared, and so we want to 
integrate these functions together.
    It is a humongous challenge. I think there's almost 3,000 
different mission-oriented programs for our information 
infrastructure. That's a huge challenge, to coordinate those 
together, but we're working on it through policy development in 
our policy council.

                       CONSOLIDATED PROCUREMENTS

    Senator Cochran. In that connection, I think there could be 
opportunities for substantial savings if you bring together the 
procurement processes too. You mention the boats and ships that 
might be under the jurisdiction of the Coast Guard or some of 
the other agencies, but a number of automobiles and other 
vehicles like buses and helicopters are used by the Border 
Patrol, Investigations, Detention, and TSA. It seems to me that 
they could be consolidated in a procurement regime under your 
directorate, and you could end up saving money and become more 
efficient in the process. Is that your plan, and to what extent 
are you implementing that kind of plan?
    Mr. Hutchinson. That is the plan, and it will result in 
some savings. For example, the Canine Enforcement Divisions. 
TSA has a canine enforcement program, bomb-sniffing dogs. We 
have drug-sniffing dogs in terms of the border inspection, and 
we want to look at ways that we can bring these programs 
together, not just for cost savings, but also for better 
standards and better training, so that's one area.
    As you mentioned, there's a whole host of others. 
Helicopters is a good example, and not just in procurement but 
also in cross-training capabilities. I was in a meeting of 
employees where you had the Border Patrol having their 
helicopters, and then you had the Air and Marine Division of 
Immigration and Customs Enforcement with their helicopters, and 
they said, you know, we'd have less down time if we were cross-
trained, we could actually use the other's helicopters, so this 
is something that's being pushed at both the ground level and 
at a high level.
    In some instances we won't be able to have joint 
procurement. If we can't, we want to be able to explain why and 
check it out.

                  CONSOLIDATED INFORMATION TECHNOLOGY

    Senator Cochran. You mentioned information technology. Do 
you intend to consolidate hardware and software systems within 
your directorate so you eventually end up with one single 
technology platform, or will it be a combination of systems?
    Mr. Hutchinson. The ultimate goal is that they're 
integrated and that the information is shared. As to how you 
technically reach that goal, I will leave that to Steve Cooper, 
our Chief Information Officer, who has the technical 
capabilities, but I am working with him to accomplish that. It 
is not going to be--we can't stop every program development 
right now to say, wait till we get all this coordinated, but 
we're trying as we develop a program saying, make sure that 
this is going to be able to tie in to the other programs that 
we know have to be developed, so ultimately we will be measured 
by that, and we're committed to having success on that.
    Senator Cochran. Well, I wish you well. I think it is a 
very challenging responsibility that you face. To what extent 
do you try to impose your will on the agency heads within your 
directorate?
    I'm thinking about some of the specific requirements for 
security precautions at our Nation's airports. There still 
seems to be a good deal of controversy surrounding some of 
those things, whether they're needed or not, whether they take 
too long, do you have too many people as screeners, or not 
enough at some places. How much are you going to get involved 
in the details of those decisions?
    Mr. Hutchinson. Senator, first of all I have a lot of 
confidence in the agency heads. They're good managers. They are 
very thoughtful, and certainly want to do a good job for the 
country, so I don't want to micromanage them. We give broad 
direction to them, but we do ask the tough questions, and 
that's my responsibility, and so that is one of the reasons I 
get out in the field. I see how it's working out there, I come 
back and push them on a number of these things, and then we 
have our own initiatives, some of those I have mentioned, to 
bring them together.
    The greatest challenge, but opportunity, we have is to 
bring these cultures and operations together in a way the 
American public expects. For example, the sharing of 
information, where a boat operator does not have to send the 
cargo information to three different agencies but can send it 
to one--a common sense approach, and we're doing that. Those 
are the kinds of initiatives we want to be able to drive with 
them. Good managers, though. They have a lot of flexibility, 
but we are working for Department objectives that they will 
implement, and we're going to make sure that happens.
    Senator Cochran. Thank you. Senator Byrd. Excuse me, 
Senator Kohl. Senator Byrd is willing to yield to you for any 
questions you might have. We've been operating under sort of a 
loosely determined 5-minute rule for questions.

                REDUCTION OF AIRPORT SECURITY SCREENERS

    Senator Kohl. Thank you. I appreciate it very much.
    Mr. Secretary, recently the Administration announced that 
it intends to cut 6,000 security screeners at airports around 
the country. I do understand that some airports may well have 
more screeners than they need, and so I'm not opposing the 
reductions in their entirety. However, I'm concerned about a 
few airports in my State of Wisconsin that I believe will have 
a difficult time dealing with staff cuts.
    First, Dane County Airport is listed as going from 81 to 63 
screeners. I have been told that this is based on some 
misunderstanding about the number of security lines at that 
airport in Madison. TSA thought that Madison had only one 
security line when in fact it has three.
    I have also been informed that this confusion is in the 
process of being sorted out and that Madison should get an 
additional screener, which would bring it to a total of 82. Is 
my understanding correct, and can we expect a decision on this 
fairly soon?
    Mr. Hutchinson. There have been some--you know, in the 
process of adjustments there were errors made that have had to 
be reevaluated. Originally we had received some inaccurate 
information about the number of lanes in Wisconsin. The field 
resubmitted that information, and the numbers will be finalized 
in the next couple of weeks to reflect the added lane you 
mentioned. I will be glad to get back with you more 
specifically on your question to give you the commitment that 
you're asking for, but that is the information that I have 
right now, and we will continue to work on that.
    Senator Kohl. I appreciate it, and will stay in close 
touch.
    At another airport, at the Outagamie County Airport in 
Wisconsin, which serves the Appleton area, it's slated to go 
down to 29 screeners from its current level of 51. However, 
even with 51 screeners Outagamie County Airport is paying 10 
percent of its screeners' employment costs now in overtime, so 
the question is, why would screeners be reduced when TSA is 
currently paying overtime on a regular basis in this location?
    Mr. Hutchinson. I would have to look at that, too, and get 
back to you. The methodology for the changes that were made 
looked at passenger loads and the numbers of lanes, the use of 
part-time and seasonal employees. The split shifts were 
considered, but that doesn't answer the question that you're 
asking, and we will be glad to get back with you as to how the 
overtime that they were having to commit justifies the 
reduction that you refer to.
    Senator Kohl. Okay. Well, I would like to be able to stay 
in touch with you and the Department on that one.

                      SMUGGLING OF PSEUDOEPHEDRINE

    Mr. Secretary, in January of 2002 a trafficking operation 
operating in several U.S. cities was found to be smuggling 
pseudoephedrine, a precursor to meth, into the United States 
from Canada. Meth is a major problem in my own State of 
Wisconsin and throughout the Midwest, but what's even worse, 
the proceeds of that trafficking ring have been traced to 
Hezbollah and other terrorist groups operating in Yemen and 
Lebanon. In what ways has the Department of Homeland Security 
tightened its processes and procedures at the borders to stop 
the smuggling of illegal drugs or their precursors into the 
United States, in light of the link between drug trafficking 
and terrorism?
    Mr. Hutchinson. Excellent question, and I appreciate that 
both from my current standpoint of protecting the borders and 
the point I made when I was at the DEA. We are very concerned 
about these types of operations at Homeland Security. Illegal 
drugs constitute one of the biggest weapons of mass destruction 
that we suffer, and so it is appropriate that we protect our 
borders from both terrorist weapons and also drugs.
    What you refer to is Operation Mountain Express, a very 
successful investigation of the pseudo-traffickers, and as you 
mentioned, some of that money went to the Middle East, some of 
which went into the hands of some terrorist organizations. What 
we're doing at the border--and I was there at some of the ports 
of entry on the Northern border, and our inspectors are looking 
at shipments that may be suspect in terms of pseudoephedrine 
that would come from Canada.
    We're also certainly encouraging our Canadian counterparts 
to regulate pseudoephedrine so they do not have the legal 
capability of procuring it there and moving it through the 
Canadian commerce chain before it comes across our border. We 
are keeping an eye on that from an inspection standpoint at the 
borders, from an investigative standpoint through Immigration 
and Customs Enforcement, and finally working with the Canadian 
Government to regulate pseudoephedrine.
    Senator Kohl. Thank you.

                SEVERE ACUTE RESPIRATORY SYNDROME (SARS)

    A last question, Mr. Secretary. We can all be thankful SARS 
has not taken serious hold in our country. However, SARS has 
shown us that a deadly illness can be introduced and spread by 
visitors to our country, or upon the return of an American 
citizen who has traveled abroad. What is the Department of 
Homeland Security doing to ensure that visitors who come into 
the United States at border crossings or by airplane or by boat 
are not carrying SARS? What is the Department doing to prepare 
for and safeguard against other, possibly more lethal diseases?
    Mr. Hutchinson. It has been a wake-up call for all of us 
that have responsibility at our ports of inspection. In 
reference to SARS, we provided training information for our 
inspectors to know what SARS is about, how to identify the 
symptoms of that, and what to guard for.
    We certainly give them the protective equipment whenever 
they have reason to believe they might be exposed so they can 
protect themselves. We are closely working with the Center for 
Disease Control and Secretary Thompson's shop to make sure we 
have the right information.
    As we see passengers that come from areas of the world that 
have an outbreak of SARS we will give them information that CDC 
prepared, that they know that the passenger would be able to 
identify the symptoms and be able to check with a doctor if 
they encounter those symptoms.
    So it's training, it's information that we're providing for 
the passengers, and then we're looking down the road in the 
event it becomes more serious, or a greater concern, what 
additional steps we should take. That is difficult, difficult 
obviously when people are coming to our land borders 
particularly. There is very little that we can do, but we do 
want to be able to provide the training and the information, 
and to see if there's any additional action we can take in 
conjunction with CDC.
    Senator Kohl. I thank you very much, Mr. Secretary.
    Mr. Chairman, thank you.
    Senator Cochran. Thank you, Senator.
    Senator Byrd.

                           ENTRY/EXIT SYSTEM

    Senator Byrd. One crucial component of ensuring our 
homeland security is ensuring that we as a government know 
which foreigners are visiting our country, why they are here, 
and that they depart when they are required to do so. Our 
existing visa tracking systems are not doing the job. The 
budget before us requests $480 million for the new entry/exit 
visa tracking system. This is only a $100 million increase over 
last year's level of funding.
    A few days ago, Secretary Ridge announced a major change in 
the program, proposing to create the U.S. VISIT system. The 
Secretary has testified about the potential use of biometrics 
in the system, but he offered very few other details when he 
appeared before the panel last week.
    Many Members of Congress and outside experts are concerned 
about the lack of progress in implementing the previous system, 
much less this revised system. It's my understanding that the 
Department has not yet determined what technology will be used 
in developing the system. Do you have anything new on that 
point?
    Mr. Hutchinson. I believe Secretary Ridge set the goals and 
the direction for us in his testimony he presented to this 
committee. He has directed us to go through a review of the 
program that we inherited to see how we can meet the objectives 
that Congress set for us in their deadlines, but also the goals 
that Secretary Ridge has set. There are a number of policy 
decisions that have to be made in order to determine how we get 
to these objectives. We are due to provide the Appropriations 
Committee a report on this, and we look forward to getting that 
to you as soon as we can conclude this review.
    Senator Byrd. Considering the track record of the former 
INS in tracking foreign visitors, let alone identifying 
potential terrorists or even coordinating watch lists with 
other Federal agencies, I did not have much faith in that 
service's ability to get the job done. Shortcomings have 
plagued the INS, and are not far from plaguing the Border and 
Transportation Security Directorate. There remain too many 
holes in our borders and not enough agents. There are millions 
of visitors to this country, and there is not even an ability 
to guarantee that they are who they claim to be.
    What steps are being taken to ensure that this system is on 
track, and that it can be deployed in a timely fashion?
    Mr. Hutchinson. Well, first of all, the goal that was given 
to us in 2003 was to deploy, to have an entry/exit system for 
our airports and our seaports. As Secretary Ridge indicated, 
we're going to meet that congressionally mandated deadline. 
We're going to have that capability.
    In addition, really in my view further than the law 
requires, we're going to have the capability of capturing and 
reading biometric identifiers at that time in our airports and 
seaports, so we look forward to working with Congress to 
accomplish that goal.
    The second part of the mandate is to have the same type of 
system in the 50 land ports of entry by the end of 2004. We are 
moving forward aggressively to evaluate what has been done by 
the former INS in developing this system. As soon as we 
complete that review, we will report to the Congress as to 
where we will be in reference to the 2004 deadlines, but we're 
working very aggressively to accomplish that.
    When you talk about tracking visitors, a part of it is also 
getting better information on our visitors and checking them 
out at our consular offices overseas. We are working with the 
Department of State right now for a memorandum of understanding 
with them to transfer some of the oversight and training 
responsibilities on that from the Department of State to the 
Department of Homeland Security, which was a part of the 
legislation that created this Department.

               TRACKING OF STUDENTS AND EXCHANGE VISITORS

    Senator Byrd. One of the criticisms of the former INS, 
Immigration and Naturalization Service, was and remains its 
inability to adequately track the entry and subsequent exit of 
non-U.S. citizens who come to the United States and for 
whatever reason overstay their visa. For instance, only last 
month, the Department of Justice's Inspector General released a 
report stating that there are significant deficiencies in the 
tracking of foreign students.
    Your Acting Assistant Secretary of the new Bureau of 
Immigration and Customs Enforcement agreed with the IG's 
conclusion that they need more resources to properly manage one 
of the many tracking systems. What is your take on that? Are 
additional resources required to implement the new system?
    Mr. Hutchinson. Well, the Department of Justice Inspector 
General report was on the SEVIS system, which was the tracking 
system for foreign students that come to our educational 
institutions, and this has been a very successful deployment, 
in my judgment, by the former INS, and now, the Immigration and 
Customs Enforcement responsibility. There were some bugs in it, 
as was pointed out by the Inspector General. Those we are 
attempting to address, and working with the universities to 
accomplish the very important goal of being able to track our 
students.
    You asked about the resources. What we are creating is a 
lot of information for us to evaluate. We know, for example, 
that the universities will call in foreign students who have 
foreign student visas but they do not show up for class. Now, 
why is that? Do they just get a job somewhere? Do they go back 
to their home? If we have over 2,000 names of people, students 
who do not show up for class, we have a responsibility to check 
those out, and we are trying to develop that capability.
    So we want to be able to get information but also to have 
an enforcement mechanism to investigate and to prosecute those 
who violate our law. That is a challenge for us. We are trying 
to meet that. Do we need more resources? That is part of the 
2004 budget that I think will be adequate. We are going through 
to see what greater capability we need. I would be happy to 
report back to you, because I want to make sure we do not just 
get information from all these different tracking systems, but 
we have a capability to follow up on that information.

                  COUNTERFEIT IDENTIFICATION DOCUMENTS

    Senator Byrd. Last year, the Senate Finance Committee 
tasked the General Accounting Office with sending agents out to 
try to enter the United States from Canada, from Mexico, and 
from Jamaica, using false names and counterfeit identification 
documents. In short, in each instance those GAO officials 
succeeded in using these fake documents to enter the United 
States. On at least one occasion, they were not even stopped as 
they crossed over at one point of entry.
    They created fictitious driver's licenses and birth 
certificates, using off-the-shelf computer graphics software 
that is available to any purchaser. Additionally, they obtained 
and carried credit cards in the fictitious names that were used 
in the test. The agents entered the United States from all 
three locations using the fake names and documents. Officials 
of the former Immigration and Naturalization Service and the 
U.S. Customs Service whom the GAO agents encountered never 
questioned the authenticity of the counterfeit documents, and 
the GAO agents encountered no difficulty entering the country 
using the fake documents. On two occasions, INS officials did 
not ask for or inspect any identification documents when the 
GAO agents entered the United States. On another occasion, an 
agent was able to walk across a major border checkpoint without 
being stopped or inspected by any government official. The 
results of the exercise led the GAO to conclude that, (1) 
people who enter the United States are not always asked to 
present identification, (2) security to prevent unauthorized 
persons from entering the United States from Canada from at 
least one location is inadequate, and (3) inspectors from the 
former INS are not readily capable of detecting counterfeit 
identification documents.
    Now, what steps, Mr. Secretary, do you intend to have 
implemented in order to address the gaps, such as better 
training, more intense document scrutiny, and what additional 
resources do you need in order to accomplish these things?
    Mr. Hutchinson. Thank you, Senator. First of all, we need 
to learn from those type of GAO reports and to take those 
lessons and apply them in the field. A couple of points there. 
In that GAO attempt to enter the country, they utilized, I 
believe, in most of the instances, State driver's licenses. Our 
inspectors, with 50 different States, are not as trained in 
identifying all the nuances of the different States' driver's 
licenses versus foreign passports, and so it can be addressed 
by more training. It can also be addressed by the States 
implementing more security in the issuance of their driver's 
licenses that are more resistant to forgery, so we need to 
approach it in both ways.
    Secondly, I would point out that these are American 
citizens that were reentering the country, and our law does not 
require American citizens who travel to Canada and back to have 
any travel document, other than simply their affirmation or 
perhaps a driver's license that they are an American citizen. 
If we required our American citizens to have passports when 
they leave the country and return, obviously that would be a 
greater security measure, but I'm not sure we want to do that 
yet.
    I would also point out that I was pleased that there was an 
instance, I believe it was in a Niagara point of entry, that an 
Iranian came across the border with fraudulent Australian 
passports, and who was apprehended at the time. So I think 
there's a difference between capability of our inspectors in 
picking up on false passports versus a driver's license from 
the different States. So we need to work on training, we also 
need to work with the States to enhance the security of their 
travel, a driver's license and other documents.
    Senator Byrd. Mr. Chairman, I have further questions, but I 
would be glad to await your questions.

   TRANSPORTATION SECURITY ADMINISTRATION RESPONSE TO SECURITY ALERT 
                                 LEVELS

    Senator Cochran. Thank you very much, Senator Byrd. In 
connection with the Transportation Security Administration, 
while you don't get involved in the minutiae of day-to-day 
administration responsibility, you do have the responsibility 
of providing guidance and supervision of those who do run that 
agency on a day-to-day basis, and I wonder about the impact of 
these different stages of alert, the red alert, yellow, orange, 
or all the rest. To what extent are you involved in helping to 
determine exactly what the Transportation Security 
Administration does when it changes from one state of alert to 
another?
    Mr. Hutchinson. I am substantially involved in that. In 
fact, when we brought on TSA from Transportation, other 
agencies from Justice, they had different ways of responding to 
the different alert levels, so one of the first things we did 
under my leadership was to ask for a review of the actions that 
were taken when we raised the alert level, and to make sure 
that they are complementary of each other. We are very much 
involved from a leadership standpoint in the actions that are 
taken by those agencies.
    We also, most recently during Operation Iraqi Freedom, 
developed our own operation, Liberty Shield, in which we 
provided the leadership to the agencies working with them as to 
what should be the response and the additional security 
measures that would be taken as a result of the hostilities 
overseas.

                      AIRPORT SCREENER REDUCTIONS

    Senator Cochran. Also, with respect to the Transportation 
Security Administration, we observed that Admiral Loy, who is 
the Administrator, has announced he plans to cut the number of 
airport screeners, 3,000 during this month and another 3,000 by 
the end of the fiscal year. How did the Transportation Security 
Administration get in the position of having such a large 
number of screeners--I have been advised the number is 55,000--
when there is a statutory cap for full-time permanent positions 
at 45,000? Is this an indication that at least 10,000 of these 
were viewed as temporary employees, and it didn't violate the 
statutory cap?
    Mr. Hutchinson. That's correct, either temporary or part-
time, so it either could be a contract or they could be part-
time. The full-time equivalency, Admiral Loy submitted to 
Congress that those statutory caps were met, but 
notwithstanding that, the reduction of the screener force came 
about. We closely monitored this working with Janet Hale, our 
Under Secretary for Management, looking at it from a budget 
standpoint, knowing that there was going to be a shortfall in 
the TSA budget, and there is this need to be met.
    We worked with Congress, the Appropriations Committee with 
this, to know how we needed to address it, and as a part of 
that we were going to have this reduction in force. There were 
other components to meeting the budget requirements, but this 
was one phase of it.

             COST OF SECURITY INVESTMENTS AT SMALL AIRPORTS

    Senator Cochran. One other issue in this airport security 
area that is troublesome is the cost of security investments 
for small airports. For many of us, we represent States that 
don't have large airports but do have substantial investments 
through local governments and airport authorities in air 
transportation facilities. These smaller airports are being 
held to the same standards as larger more financially able 
airports, they are required to make changes for explosive 
detection systems and many other things. It looks to me, that 
we're going to either put some of these smaller airports out of 
business or make it very, very expensive for local taxpayers to 
fund the changes that are being ordered at the airports.
    You mentioned Biloxi, Mississippi, a while ago when you 
were talking about your visit to the New Orleans port. Not only 
do we have ports along the Mississippi Gulf Coast, but that's a 
rapidly growing area in our State. Air transportation demands 
are increasing enormously, and while they've done a good job of 
keeping pace, the airport now is being asked to relocate 
facilities for security purposes.
    They were asked to move the parking areas way beyond where 
they were, to shut down existing parking facilities, all at 
tremendous expense, and then some of those decisions were 
changed, actually repealed. I'm not complaining that they were 
repealed, but the fact is they went and incurred enormous 
expenses, and then they said well, we changed our mind, you 
really don't have to do exactly what we asked you to do before.
    Is there any plan for the administration to try to help 
meet the needs, the financial needs, of local airports, like 
the Biloxi, Jackson, Mississippi, Airports and others in our 
State, that are having to try to figure out how they're going 
to pay for all of this?
    Mr. Hutchinson. It is a burden that is shared by your 
airports in Mississippi but also my airports in Arkansas that 
I'm very familiar with that are under similar circumstances. It 
has been a burden, and it reminds us that we certainly need to 
have enhanced security, but it also creates a real mandate on 
the private sector and expense on their part. We did get the 
EDS equipment in, but it was in very awkward places, many times 
out in front of the ticket counters, and they needed to be 
moved. The airports wanted them moved, and so that's a process 
we're going through.

                     FUNDING FOR EDS INSTALLATIONS

    Approximately $1 billion in funding has been appropriated 
for EDS installations, $738 million in 2002, and $265 million 
in 2003. Of that, about half of that has been spent, and so 
there will be more that has been put out in the field based on 
that appropriation. The President's 2004 budget did not include 
additional funding for EDS employment in light of that $1 
billion that is already appropriated, but the most recent war 
supplemental did provide for the possibility of letters of 
intent to the airports for in-line EDS installations, and we 
are committed to utilize that mechanism if the airports believe 
that is appropriate and helpful.

                AIRPORT MODIFICATION FUNDING PRIORITIES

    Senator Cochran. Do you have a procedure, or some kind of 
priority in mind for making these grants? How are you going to 
determine which airports are eligible, or which applications 
are going to be approved? I assume you can't approve every 
application for Federal funding assistance.
    Mr. Hutchinson. That is correct, and there is a ranking of 
priority. Part of it is first of all those airports which 
utilized alternative means of baggage screening, and so they 
would have a priority first for the EDS installation, and then 
there are other rankings in priority. I would be glad to answer 
that more specifically and get that back to you.
    [The information follows:]

    Funds will be utilized for modifications to airports in two ways. 
TSA will continue to fund through an existing contract with Boeing for 
completion of work already assigned to Boeing by TSA. Second, TSA 
expects to utilize these funds towards in-line EDS solutions. TSA is 
developing a plan to be completed in the near future which outlines the 
Federal Government's long-term commitment for this purpose.

    Senator Cochran. We would appreciate being informed about 
procedures and the priorities that the TSA is going to follow 
in making funds available to local airport authorities. We just 
hope the smaller ones don't get left out. That's the whole 
point.
    Mr. Hutchinson. Absolutely.
    Senator Cochran. I know there are priorities for the larger 
airports, and maybe that's where the greatest threats occur and 
are. I have some other questions as well, but on other topics, 
but I'm happy to submit those to you.
    I think you've done an excellent job, coming in to the 
responsibility as you have with a lot of pressure, a lot of 
visibility. A lot of people want answers to questions that 
maybe can't be answered right away, and you have to work your 
way through a lot of these challenges. But I've been impressed 
with the way you've taken on the job and I appreciate the fact, 
just personally, that you've agreed to serve in this capacity. 
It is a very important responsibility, but you have a high 
level of energy and enthusiasm for it, and we appreciate your 
service very much.
    Mr. Hutchinson. Thank you, Senator.
    Senator Cochran. Senator Byrd.
    Senator Byrd. Mr. Chairman, I agree with your statement and 
your assessments of the Secretary's authority and his 
dedication, and I want to echo the same.

                          PORT SECURITY GRANTS

    Earlier, we discussed port security. In February, the 
Congress approved $150 million in the Omnibus Appropriations 
Act for port security grants. Three months later, your agency, 
Mr. Secretary, had done nothing to make those funds available 
to the ports, where the dollars can actually make our homeland 
more secure. What are your comments on this? Will you commit to 
using the $150 million right away to meet some of the $1 
billion in applications that are sitting on your desk in 
response to the recent competition for the $105 million 
appropriated in the fiscal year 2002 supplemental?
    Mr. Hutchinson. Senator, you're absolutely correct that 
that money is needed out there, and that money needs to move. 
Clearly TSA, with its budget constraints, in which they have 
had many aspects of direction and demands placed on them both 
from reality, but also from Congress, has demands greater than 
the resources they have right now. I know they have to evaluate 
these demands in conjunction with the Under Secretary for 
Management and OMB, and hopefully that money will be available 
to be put out in the field in the near future. We are waiting 
for the completion of that review and determination by our 
management folks.
    Senator Byrd. On November 25, 2002, the same day the 
President signed the Homeland Security Act, he also signed the 
Maritime Transportation Security Act.
    The Coast Guard has estimated that it will cost $1.4 
billion in the first year and $6 billion over 10 years to 
implement the Act. The Congress has included in three separate 
emergency supplemental bills, as well as, in the fiscal year 
2003 Omnibus Appropriations Act, funding for port security 
grants, and a total of $348 million has been provided. However, 
none of this was requested by the administration.
    Only $93 million has been distributed to the ports to date. 
So, while the administration was eager to sign the Maritime 
Transportation Security Act, the administration has been 
somewhat silent on the costs associated with implementing it. 
Do you have any further comment, Mr. Secretary?
    Mr. Hutchinson. Simply that we value our partnership with 
Congress, and that certainly reflects that you all provide 
leadership as well in this arena. The Coast Guard is 
responsible for conducting the port security assessments at the 
top 55 of our Nation's military and economically strategic 
ports. This is what has been mandated by the Maritime 
Transportation Security Act.
    They have moved forward on this. The part of the funding 
out of the 2004 budget to complete this includes $62 billion to 
complete the assessments. They have done 20 of them. They have 
35 more to do. That is completed in the assessments out of the 
2004 budget, so the Coast Guard will be moving forward on this 
and will be working closely from the TSA perspective and the 
Customs and Border Protection perspective with the Coast Guard 
to accomplish that mandate.

       COMPUTER ASSISTED PASSENGER PRESCREENING SYSTEM (CAPPS II)

    Senator Byrd. Mr. Secretary, in the Transportation Security 
Administration's budget request, $35 million is for the new 
passenger screening program, known as the computer-assisted 
passenger pre-screening system number 2. This new system is 
designed to enhance airline passenger safety by mining 
commercial databases of personal information and using pattern 
analysis to predict which passengers might engage in terrorist 
activities. It seems to me that this is a dangerous path that I 
fear will delve into every nook and cranny of an individual 
American's life. Under this new system, as I understand it, the 
TSA will assign each passenger a risk level of green, yellow, 
or red, and they will use that determination to prevent certain 
passengers from boarding the plane.
    Now, you're walking on a tightrope. Remember in the old 
silent movies, but perhaps you don't go back that far, they had 
people walking on tightropes without a safety net. You may be 
on such a tightrope. I don't know whether you have a net or 
not. You're designing a new system to screen airline and 
airplane passengers that may run headlong into individuals' 
rights to privacy. Your effort to identify potentially 
dangerous passengers is a good goal, but your mechanism, the 
so-called CAPPS-II system, is frankly scary. I'm not sure there 
is a safety net out there.
    Mr. Hutchinson. I've heard of them.
    Senator Byrd. I was there, and I've heard that--well, 
perhaps do you want to comment at this point before I go 
further?
    Mr. Hutchinson. I would be pleased to. Let me start by 
saying I was traveling with my chief of staff the other day on 
a commercial airline, and whenever my chief of staff received 
her ticket, it had selectee there, and this was coming from the 
airline. So right now you have the airlines designating who is 
going to be subject to secondary inspection based upon a very 
inadequate system. The design of CAPPS-II is to put a little 
more rhyme and reason into who would be subject to a secondary 
screening, and it is important. I worked in Congress on privacy 
issues, and I'm very concerned about that aspect of it, and 
CAPPS will not collect personal data such as credit history. 
Information collected will come from already available 
commercial databases, but there will be a firewall so that it 
will not be collected by the Government or retained by the 
Government. That firewall is very, very critical, and it is 
important, as you point out, that that firewall not be 
breached.
    I'm pleased that Homeland Security has brought on board a 
privacy officer, Nuala O'Connor Kelly, who from a privacy 
standpoint will be reviewing this system, and we will work with 
her and other privacy groups in terms of making sure that their 
concerns are addressed, that the firewall is in place, that the 
Government will not retain data, and that we will not collect 
that data that would be offensive to Americans.
    Senator Byrd. I've heard that personal indebtedness is one 
of the criteria to be evaluated when looking at a passenger's 
risk potential. Can you confirm that?
    Mr. Hutchinson. That is not correct. There will not be a 
review of personal indebtedness and creditworthiness. The 
Government will not be doing that.
    Senator Byrd. Well, I'm glad to hear you say that. It would 
seem a bit odd, wouldn't it?
    Mr. Hutchinson. Yes, it would.
    Senator Byrd. I fear that there's something there that 
would smack of elitism.
    Mr. Hutchinson. It would be inappropriate.
    Senator Byrd. There's a risk of abuse by the Government.
    Mr. Hutchinson. I might not qualify to fly if that was the 
case.
    Senator Byrd. That is frankly un-American, so I'm glad to 
hear you answer that question as you did.
    Congress built a number of safeguards into the Homeland 
Security Act to protect against privacy invasions, but to date 
the Department has not made available to the public any 
information about development of the system, nor has it 
confirmed that it will publish guidelines for the program. How 
is Congress to know that privacy rights will be respected?
    Mr. Hutchinson. Well, I do believe that Admiral Loy has 
made an extraordinary effort to keep the public informed 
through communication with privacy groups, and he has met with 
groups from the ACLU to other privacy advocates going over what 
the CAPPS program is and what it is not, and listening to their 
concerns. I think there has really been an extraordinary amount 
of communication to the public through those groups of concern 
and a great deal of public comment on it. In fact, I think he's 
going to be testifying in a hearing on it very shortly.
    So actually contrary to the development of some databases, 
this has been done through education and communication with the 
privacy groups, and we hope to continue to do that and listen 
to their concerns.
    Senator Byrd. What data sources are being mined, m-i-n-e-d? 
CAPPS-II has raised privacy concerns that the Department has 
not yet addressed, so what data sources are being mined? Who 
has access to the data? What mechanisms will the Department use 
to verify the accuracy of the data?
    Mr. Hutchinson. The Government will not be looking at any 
of these data sources. It will be only looking at the 
Government databases such as the terrorist watch list, then 
there will be the firewall, in which the commercial databases 
will be looked at from a commercial vendor's standpoint, but it 
will not be retained or examined by the Government. That is 
where the firewall comes into place, and that goal is, of 
course, to verify the passenger's identity and therefore refine 
the security screening selectee process and eliminate the 
majority of mistaken identity situations.
    The personal data will not be collected by the Government, 
and will not be retained by the Government, and I think these 
are standards that are important in the development of this 
system.
    Senator Byrd. Will the appropriate congressional committees 
be given an opportunity to review the proposed CAPPS-II 
guidelines before they are finalized?
    Mr. Hutchinson. Absolutely. We would be happy to make sure 
that you or your staff or any of the committee staff be 
briefed.
    Senator Byrd. Very well.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Chairman, I believe I would submit the remainder of my 
questions for the record, and I thank you, and I thank the 
Secretary.
    Senator Cochran. Thank you, Senator Byrd.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                       department start-up issues
    Question. Please provide the Committee with the dollars, positions, 
and full-time equivalents that have been allocated to the Under 
Secretary's office in fiscal year 2003, requested for fiscal year 2004, 
and under which appropriation has requested these resources have been 
requested.
    Answer. See below

----------------------------------------------------------------------------------------------------------------
                                      Fiscal year                            Fiscal year
                                         2003        Source Appropriation       2004        Source Appropriation
----------------------------------------------------------------------------------------------------------------
Funding...........................      $1,990,111  Departmental               $9,715,000  Departmental
                                                     Operations.                            Operations
Positions.........................              67  .....................              67  .....................
FTE...............................       39 (est.)  .....................              67  .....................
----------------------------------------------------------------------------------------------------------------
Substantial additional support, including facilities costs, desktop information technology and telephony
  services, security, and postage costs are funded centrally.

    Question. Will there be a centralized Office of Legislative Affairs 
within the Under Secretary's office? Or do you plan to have legislative 
affairs responsibilities handled by each of your sub-bureaus?
    Answer. The Office of Legislative Affairs is centralized in at the 
Department with legislative affairs personnel assigned within our 
components to provide direct support.
    Question. What specifically has changed, and what has not yet 
changed for these agencies that transferred into your Directorate?
    Answer. Interim structures have been established, including interim 
port directors in the Bureau of Customs and Border Protection (BCBP) 
and interim District Directors within the Bureau of Immigration and 
Customs Enforcement (BICE). The Transportation and Security 
Administration transferred as a whole entity and has maintained their 
management structure.
    Question. How are you mitigating the impacts of this transition on 
the capabilities of each of the transferring agencies to continue to 
perform their homeland security missions and their non-homeland 
security missions?
    Answer. Operational personnel that perform daily activities; have 
been maintained in respective geographic locations to ensure the level 
of expertise and continuity that existed prior to March 1, 2003 is 
continued.
    Question. What specific steps have you taken to integrate the 
chains of command and the personnel of these organizations without 
interfering with their current capabilities to perform their missions?
    Answer. Interim structures have been established, including interim 
port directors in the Bureau of Customs and Border Protection (BCBP) 
and interim District Directors within the Bureau of Immigration and 
Customs Enforcement (BICE). This will provide the most effective 
consolidated organizational structure with the least disruption to 
operations and personnel.
    Question. The area that may present the most difficulty for 
integration are the three inspections services. After March 1, 2003, 
who assumed control of the inspections functions at each of the ports-
of-entry? How were the decisions made in appointing the acting port 
directors?
    Answer. On March 1st, approximately 40,000 employees were 
transferred from the U.S. Customs Service, the Immigration & 
Naturalization Service, and the Animal and Plant Health Inspection 
Service to the new Customs and Border Protection (BCBP) agency in the 
Department of Homeland Security. To address our priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States, a single, clear chain of command was established. For the first 
time, there is one person at each of our nation's ports of entry in 
charge of all Federal Inspection Services. A group of senior managers 
from the legacy agencies (Customs, INS and APHIS) met to decide and 
apply criteria for identification of interim leaders. Designated 
interim port directors were identified by considering a number of 
factors including grade level, complexity of operational activity and 
size and variety of staff. A similar process to make the structure 
permanent will be completed in fiscal year 2003.
    Question. What concrete steps are you taking to meld the different 
cultures of these organizations in a way that preserves any unique, 
positive aspects while creating an overall ``Border and Transportation 
Security (BTS) Directorate'' culture?
    Answer. Our challenge is to convey to our over 170,000 employees 
that while the name of the agency has changed their mission remains the 
same. The success of BTS hinges on our men and women in the field and 
in our headquarters. When the Under Secretary and senior management 
travel they almost always have a roundtable or town meeting for all BTS 
employees in order to hear concerns and convey the Department's 
commitment to unify employees.
    Question. How do you intend to effectively and decisively respond 
to resistance to change from these separate ``cultures'' coming over to 
BTS?
    Answer. Through sound management practices and regular recurring 
meetings with BTS component senior staff, issues are addressed in a 
timely and effective manner. I also take every possible opportunity to 
hold town hall type meetings with employees to dispel misperceptions 
and reinforce the mission objectives of DHS/BTS. I have also instructed 
each of the respective agencies/bureaus within BTS to do the same.
    Question. When will you be able to provide more detailed transition 
plans to Congress that will outline more specific steps that are 
occurring to accomplish the transition?
    Answer. According to the Homeland Security Legislation, The 
Department of Homeland Security and the Border and Transportation 
Security Directorate (BTS) must report to Congress on a regular basis 
concerning the status of the transition and the reorganization. For 
example, 100 and 20 days after the legislation's enactment, DHS must 
report to Congress on the proposed division and transfer of funds 
between the Bureau of Citizenship and Immigration Services and the BTS. 
Furthermore, one year after the legislation's enactment, DHS must 
report to Congress on the implementation of visa provisions in the Act. 
We welcome this opportunity to report to you about our progress and the 
daily challenges that we confront during this tremendous undertaking.

                          COORDINATION ISSUES

    Question. What steps will you be taking to ensure that the three 
sub-bureaus focused on enforcement within your own organization, the 
Bureau of Customs and Border Protection, the Bureau of Immigration and 
Customs Enforcement, and the Transportation Security Administration, 
will be coordinating information, policy, intelligence, and 
investigations?
    Answer. Within the organizational structure of the Border and 
Transportation Security Directorate are offices of Policy and Planning, 
as well as Operations. These offices will ensure continuity, 
coordination and direction within BTS.
    Question. As just one example, the Container Security Initiative, 
and the Customs Trade Partnership Against Terrorism are both being run 
by the Bureau of Customs and Border Protection (BCBP), and Operation 
Safe Commerce is the responsibility of the Transportation Security 
Administration (TSA). While one is focused on screening high risk cargo 
before it leaves the outgoing port, the other two operations are to be 
focused on total supply chain security. How will these projects be 
coordinated to ensure no duplication of effort and the best use of the 
funding provided?
    Answer. BCBP has the sole statutory and regulatory responsibility 
for container security on containers destined for the United States. 
Although this authority is clearly delineated through the 
implementation of enforcement programs like Container Security 
Initiative (CSI) and Customs-Trade Partnership Against Terrorism (C-
TPAT), BCBP strives to comply with its mission in coordination with 
other equally vital offices within the Department of Homeland Security 
which have statutory and regulatory responsibility over a segment of 
sea transportation.
    Coordination and communication with our department partners ensures 
an effective and streamlined security process. For example, BCBP has 
established a protocol with the United States Coast Guard to handle 
certain types of serious threats through the High-Interest Vessel 
program. Also, BCBP has shared interest with DOT and TSA in developing 
industry partnership programs that improve container security (and 
other types of transportation security) and are consistent for domestic 
and international shipping.
    BCBP and TSA are working together through a jointly chaired 
steering committee that makes the final project selection decisions for 
Operation Safe Commerce. The Federal Register notice that initiated the 
Operation Safe Commerce program makes specific references to C-TPAT and 
CSI as initiatives that may be considered as part of Operation Safe 
Commerce business practices and technology supply chain ``test bed'' 
initiatives.
    As a voluntary government-business initiative, the C-TPAT 
complements the overseas targeting of the CSI and the development of 
new security techniques under Operation Safe Commerce. As of May 9, 
2003 C-TPAT membership includes over 3,000 companies that account for 
approximately 37 percent of all U.S. imports by value and approximately 
93 percent of all U.S.-bound sea-containerized cargo. By creating a 
significant network of reliable and secure companies, C-TPAT enables 
BCBP to direct its CSI targeting to areas of greater risk and 
establishes a mechanism for incorporating the best practices and new 
high-tech equipment identified by Operation Safe Commerce.
    Question. What steps have you taken to ensure that good 
coordination is established between your organization and the new 
Bureau of Citizenship and Immigration Services (BCIS)?
    Answer. Working groups have been established to ensure proper 
coordination between BICE, BCIS as well as BCBP. These groups will 
address issues that affect all components and develop protocols to 
address these issues in a manner that satisfies the needs of all 
members of the working groups. Coordination on day-to-day issues is on-
going between all components.
    Question. We are looking forward to getting the report on the 
implementation plan for the separation of personnel and funding between 
the BTS and the BCIS as called for in Section 477 of the Homeland 
Security Act. Please outline for us what steps you are taking to put 
this plan into place.
    Answer. On March 1, 2003, the Immigration and Naturalization 
Service ceased operations and its functions were transferred to three 
new Bureaus within the Department of Homeland Security. Recognizing the 
complexity of this transition, the Department adopted a phased 
approach, which focused first on realigning the operational components 
and chains of command within the Department. To ensure continuity of 
operations, no changes were made on March 1 in the areas of shared 
corporate and administrative support functions. For the interim, the 
former INS support functions continue to support former INS components, 
and the former Customs support functions continue to support former 
Customs components. Work is currently underway to identify existing 
resources and options for organizing these functions in the longer-
term. Transition offices have been established to coordinate and manage 
the transition process, and a number of working groups have been formed 
within the Department to address these issues, including a senior-level 
BICE, BCBP, BCIS group, which meets weekly. The Department will be 
forwarding a report with more specific information on the 
implementation plan later this month.
    Question. Another important Directorate within the Department of 
Homeland Security is that for Science and Technology. How will you 
ensure that the experience and knowledge of front-line employees is 
being used effectively by the Science and Technology Directorate in 
deciding research priorities?
    Answer. Science and Technology and Border and Transportation 
Security are developing a BTS technology strategy and plan. This would 
integrate the technology needs of the border and transportation 
security bureaus into one consolidated strategy, taking advantage of 
economies of scale, prioritize needs across mission areas, create 
synergistic opportunities among the bureaus and reduce unnecessary 
duplication. It would engender the confidence of the operational 
community, help demonstrate effective budget execution and justify the 
technology budget.
    Question. What plans do you have to ensure smooth coordination with 
the Department of Justice, in such areas as the Executive Office for 
Immigration Review and the Office of Federal Detention Trustee (OFDT)? 
Please provide a detailed description of how you plan to structure the 
relationship with the OFDT.
    Answer. The benefits of cooperation between law enforcement 
agencies are clear. To take advantage of existing efficiencies and 
economies of sale, and to avoid competition for detention space, the 
Office of Detention and Removal (DRO) pursued a service provider 
relationship with the Bureau of Prisons (BOP) and the Office of the 
Detention Trustee (OFDT). The DOJ/BOP/OFDT and DHS/ICE/DRO is 
developing and negotiating an Interagency Agreement that would allow 
DOJ to act as service provider for non-Federal detention services. At 
this time, the nature of support would include: the procurement of 
detention services; the inclusion of privately operated secure 
detention facilities and alternatives to detention; the establishment 
of intergovernmental service agreements with State and local entities 
for secure detention services; administration of contracts and 
agreements; management of Justice Prisoner and Alien Transportation 
Program; and oversight of the detention standards program.
    Question. How do you plan to work with the Department of State to 
coordinate the policies governing the issuance of visas?
    Answer. The Department of Homeland Security (DHS) and Department of 
State (DOS) currently are negotiating a memorandum of understanding 
(MOU) to implement section 428 of the Homeland Security Act (HLSA), 
which governs the visa issuance process. The MOU will address how DOS 
and DHS will issue regulations, policies, procedures, and other 
guidance that affect the visa process. Both agencies recognize there 
will be a need to develop standard operating procedures to further 
elaborate operationally on various aspects of the MOU. DHS and DOS, 
however, intend to work cooperatively and in a consultative manner to 
create an effective and efficient visa issuance process.

                     INTEGRATION OF PHYSICAL ASSETS

    Question. Virtually every individual program under your direction 
has a need and a budget for buying vehicles. What steps are you taking 
to review these budget items? What plans are there for consolidation of 
procurement, retrofitting, and maintenance?
    Answer. Within the Department we are working on these very issues 
as we develop our internal processes. We intend to look at requirements 
and find opportunities for economies and best value in procurements, 
improvements and maintenance support. In the interim we are seeking 
best practices and contract opportunities that offer efficiencies 
across components within the directorate as well as across the 
department and other partners.
    Question. The Border Patrol has helicopters and fixed wing 
aircraft, while the Customs' Air and Marine Interdiction program 
transferred to your Directorate has fixed wing aircraft and marine 
assets. How do you plan to review these programs to see if there are 
possibilities for merger? Do you have any estimated cost savings that 
could be seen from the integration of maintenance?
    Answer. While the priority will be to maintain the operational 
effectiveness of the Border Patrol and the BICE Air and Marine 
Interdiction program's, we will be reviewing the operational 
effectiveness and efficiency gains envisioned by the President when he 
submitted the proposal to create the Department of Homeland Security. 
BTS has already convened a group to look at the aircraft acquisition 
for BICE and the Coast Guard. As a result of the work group, the Deputy 
Secretary has directed the Department to establish procedures to ensure 
economies of scale for major procurements. This practice will be 
utilized in conjunction with the DHS investment review board.
    Question. Do you plan to sit down with the U.S. Coast Guard to see 
what potential there is in applying best practices to your procurement 
or maintenance programs? What potential is there in possibly 
integrating some of the physical assets operated by your Directorate 
with the Coast Guard?
    Answer. BTS has already convened a group to look at the aircraft 
acquisition for BICE and the Coast Guard. As a result of the work 
group, the Deputy Secretary has directed the Department to establish 
procedures to ensure economies of scale for major procurements. This 
practice will be utilized in conjunction with the DHS investment review 
board.
    Question. Do you plan to review all of the canine programs run by 
the various components of BTS? Do you have any estimated cost savings 
that could be seen from the integration of these various canine 
programs?
    Answer. BCBP has established a working group to review all of the 
canine programs, as well as to identify overlaps in missions. Output 
from this working group was provided to the Transition Team for the 
Commissioner's review and comments. The working group is waiting for 
direction on the final structure of the canine programs; however, the 
working group is being proactive in developing standards for like 
functions such as narcotics detection. Work is ongoing to standardize 
such things as evaluations, certifications, etc. At this time, the 
efforts would be budget neutral should they be implemented.

                     NON-HOMELAND SECURITY MISSIONS

    Question. What changes did you make in the fiscal year 2004 budget 
requests for these new entities to reflect the homeland security 
priorities of the new Department?
    Answer. The fiscal year 2004 budget represents an increase of 
nearly 100 percent from the fiscal year 2002 enacted level for the new 
entities. Compared to fiscal year 2002, the Bureau of Customs and 
Border Protection request represents an increase of 33 percent, the 
Bureau of Immigration and Customs Enforcement nearly 16 percent, and 
the Office of Domestic Preparedness request is 12 times greater than 
fiscal year 2002.
    Question. In deciding fiscal year 2004 budget allocations, did you 
change any of the allocations for non-homeland security missions and 
capabilities from the amounts appropriated in fiscal year 2003? If yes, 
what were those changes?
    Answer. The fiscal year 2004 budget requests allocations for non-
homeland security missions and capabilities were made consistent with 
the fiscal year 2003 request and prepared in advance of the fiscal year 
2003 appropriations.
    Question. How do any changes in these fiscal year 2004 allocations 
represent compliance with the Homeland Security Act direction?
    Answer. The Department's primary mission is the protection of the 
American people. The fiscal year 2004 request focuses on consolidating 
border and transportation security functions, merging response 
activities, creating a central point to map terrorist threats against 
vulnerabilities in our critical infrastructure. The Department also 
ensures that non-homeland security missions and capabilities are not 
diminished.

           INFORMATION TECHNOLOGY INVESTMENTS AND INTEGRATION

    Question. The fiscal year 2004 budget for BCBP requests $30.2 
million for an Information Technology Transformation to Homeland 
Security Fund, and has a separate request for $22.3 million for an 
Information Technology Infrastructure program called ATLAS. In the 
Bureau of Immigration and Customs Enforcement (BICE) budget request 
there is an additional $17.7 million for ATLAS. Are these separate 
program needs? If not, please explain in detail what each of there 
initiatives will accomplish and how they will be coordinated across the 
two bureaus. How do these two initiatives fit in with the request for 
$5.7 million for the International Trade Data System? How do they 
relate to the ongoing Automated Commercial Environment (ACE) project.
    Answer. The Information Technology Transformation to Homeland 
Security Fund creates a fund to address Information Technology (IT) 
compatibility and interoperability issues that will arise during the 
transition to the Department of Homeland Security, including, but not 
limited to: mission systems, electronic mail, networks, collaborative 
tools, and administrative capabilities. In addition, the transition 
creates an opportunity for broader sharing of border security and 
enforcement-related IT capabilities. This fund will be used to extend 
the enterprise architecture to provide expanded access to IT 
capabilities in support of the Homeland Security mission. This 
initiative is separate from the ATLAS request.
    The request for funding for the International Trade Data System 
(ITDS) will support the development of a Government-wide system that 
will provide the trade community with a single interface to file 
international trade data with the Government. The ITDS initiative is an 
e-Government strategy that will implement an integrated, government-
wide system for the electronic collection, use, and dissemination of 
the international trade transaction data required by the various trade 
related Federal agencies. Development of ITDS functionality will be 
coordinated with the Automated Commercial Environment (ACE) and the 
overall modernization effort, and will impact both border security and 
trade compliance within multiple Federal departments, agencies, and 
areas within the participating government agencies.
    ATLAS funding will allow the upgrade of legacy INS infrastructure 
to be compatible with existing Customs and Border Protection 
infrastructure, thus establishing a basis for interoperability.
    All information technology investments are reviewed for compliance 
with our enterprise architecture framework to ensure technical 
compatibility and alignment with business goals.
    Question. How do you plan to coordinate and integrate all of the 
information technology initiatives and legacy systems, like ACE?
    Answer. BCBP is sponsoring an interagency integration team with 
ICE, BCBP and APHIS to address the myriad of integration issues, and is 
also working with DHS on information technology investments and 
architecture to ensure alignment within the Department of Homeland 
Security.
    Question. What steps will you take to avoid the merger and 
integration problems that have been experienced by so many other 
agencies before you? Have you consulted with other agencies such as 
DOD, IRS, and the FBI for ``lessons learned'' from their unhappy 
experiences?
    Answer. The BCBPs experience with the ACE initiative has provided 
an effective model for the planning and management of large scale 
information technology management systems. This model, the interagency 
integration teams mentioned above, and the established BCBP enterprise 
architecture will guide this process. The ACE business plan is based on 
lessons learned by the DOD, IRS, and FBI among others.

                           PERSONNEL IMPACTS

    Question. When will you have an estimate of potential job 
dislocations and job losses for your Directorate, and when will you 
inform the workers affected and the Congress?
    Answer. Program Managers within the Border and Transportation 
Security Directorate are currently reviewing the merged organizations 
to determine where consolidation of resources is appropriate. 
Competitive service employees within the Directorate will receive 
appropriate notification, as stated in the Reduction-In-Force 
regulations of Title 5, if and when a decision is made to close a 
facility or transfer a function to a new geographic location. We will 
ensure that Congress is notified in a timely fashion as soon as any 
decisions are made concerning worker dislocation.
    Question. What specific criteria are you establishing to determine 
who will be dislocated and who will lose their jobs, and will you 
provide affected employees a fair process in which they can appeal 
these decisions and the application of these criteria?
    Answer. Competitive service employees retain full rights under the 
Reduction-In-Force regulations in Title 5, to include appeal rights to 
the Merit Systems Protection Board. Any decision regarding which 
employees will be impacted will be based on the criteria as set out in 
these regulations to include creditable service, performance, and 
veterans' preference.
    Question. Secretary Ridge in his testimony last week mentioned that 
working groups have been created to allow current employees the 
opportunity to participate in the creation of the new system. How 
specifically is this working with your Directorate?
    Answer. The DHS Human Resources System design team has 
representatives from employee groups from throughout the Border and 
Transportation Security Directorate. Employees and managers will also 
have an opportunity to participate at town hall meetings and focus 
groups that will be conducted in the field over the next 2 months.
    Question. At this point, what changes do you envision for your 
employees in terms of performance evaluations, compensation, and 
collective bargaining arrangements?
    Answer. The DHS Human Resources design team is currently reviewing 
a variety of alternatives in all of these functional areas, and will be 
creating a set of options to be reviewed by a Senior Review Committee. 
Ultimately, the Secretary and the Director of the Office of Personnel 
Management will determine the final set of options that compose the new 
HR System.
    Question. A central issue in the rank and file of the Inspections 
officers will be the reconciliation of the highly disparate pay and 
benefit systems with which they are compensated. How will you approach 
the resolution of these pay and benefit issues? Do you anticipate 
proposing a legislative package addressing pay reform? When will that 
proposal be sent forward?
    Answer. The DHS Human Resources Design team has been fully briefed 
on the disparities in pay and benefits for employees across DHS and 
specifically in the Inspector occupation. This team will be providing 
options (which may include recommendations for new legislation) to 
address these disparities to a Senior Review Committee (SRC) later this 
summer. The SRC will then review the options and make recommendations 
to the Secretary and the Director, OPM, who will make the final 
determination on which options will be implemented.

                   MERGING AGENCY REGIONAL STRUCTURES

    Question. What specific objectives have been established for 
creating a new regional structure for your Directorate, and what 
specific issues are being considered in developing this plan? Do you 
anticipate that each of your major sub-components, BCBP, BICE, and TSA, 
will maintain separate regional structures?
    Answer. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security; to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies.
    Question. Which of the agencies transferring to your Directorate 
would you expect to be most affected by the regional restructuring 
plan? APHIS? Customs? INS? TSA?
    Answer. We are in the data gathering and baseline analysis process, 
and the regional structure has not been developed. Impacts to various 
Departmental components cannot be estimated yet.
    Question. Which is a more important objective for the plan--to save 
money or to increase operational effectiveness? How do you intend to 
make trade-offs between operational effectiveness and cost savings?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific criteria are you using to evaluate the pros 
and cons of the changes being considered, and which of these criteria 
do you consider most important and less important?
    Answer. DHS is evaluating the best way in which to merge the field 
operations of twenty-two legacy agencies, represented by nine different 
regional alignments. To accomplish this, the DHS directorates, 
including BTS, are working to: (1) develop a baseline understanding of 
the current regional structures in the component organizations; (2) 
develop the options for a regional concept to ensure day-to-day 
operations and incident responses are well coordinated and planned.
    Question. Do you have any preliminary estimates of the costs to 
implement the changes you are contemplating, and of the savings that 
might be made? When can we expect the costs to occur and the savings to 
be realized?
    Answer. No. The baseline analysis currently underway will provide a 
better sense of the magnitude of the effort required to harmonize the 
regional structures of the legacy agencies.
    Question. How long would you expect it to take to fully implement 
the plan should Congress approve it?
    Answer. We won't know until the baseline analysis is complete.
    Question. What specific progress are you making in developing the 
plan?
    Answer. BTS is working with other DHS components to analyze various 
data and develop a baseline understanding of the relevant issues 
associated with the creation of a new Department-wide regional 
structure. An initial round of data collection has been completed and 
been passed to DHS staff for analysis.
    Question. What schedule has been established to complete the 
restructuring plan and to inform Congress and the affected employees 
about your recommended course of action? Are you ahead, behind, or on 
that schedule?
    Answer. We intend to create an implementation plan upon completing 
the baseline analysis.
    Question. Please provide for the record the Statement of 
Objectives, Terms of Reference, Fiscal Guidance, Operational 
Assumptions, and mandated schedule that have been issued to guide the 
development of this plan.
    Answer. These elements could be developed as part of an 
implementation plan, which would follow completion of the baseline 
analysis. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security; to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies.

                             BORDER PATROL

    Question. Now that the Border Patrol is part of your Directorate, 
do you intend to keep the National Border Patrol Strategy that the 
former Immigration and Naturalization Service has attempted to 
implement over the past 9 years?
    Answer. The Border Patrol's national strategic plan was written in 
1994 with the focus of implementation in the areas with the highest 
level of illegal immigration. The plan is achieved with the ``forward 
deployment'' and proper balance of agents, equipment, technology, and 
border infrastructure (cameras, sensors, roads, lights, fences or other 
border barriers).
    Areas of operations that have become the focus of this plan have 
proved this to be an effective enforcement action. Participating 
sectors have seen a prolific change since the inception of their 
corresponding operations.
  --El Paso--Hold the Line (arrests down, crime reduced)
  --San Diego--Gatekeeper (29 year record low in apprehensions, crime 
        reduced)
  --McAllen--Rio Grande (crime and arrests reduced)
    Changes have occurred since the strategy's implementation, most 
notably following the September 11, 2001, attack on the United States 
The strategy's Phase IV implementation was accelerated to respond to 
the potential threats on the northern border. The upgrades and 
application of technology for border deterrence and enforcement has 
also improved.
    Continuation of the proven and successful National Border Patrol 
Strategic Plan is warranted in order to respond to emerging threats and 
changes in the past trends of illegal border entries.
    Question. What changes might you consider making to the strategy to 
increase its effectiveness and reduce migrant deaths?
    Answer. Due to concentrated border enforcement efforts, organized 
smugglers have shifted their techniques and areas of operation from 
traditional unlawful entry points near the ports of entry to extremely 
remote and dangerous areas. The intense summer temperatures and arduous 
terrain associated with these areas account for the majority of 
documented deaths. BCBP has been increasing efforts to identify and 
prosecute smugglers who choose more dangerous methods and routes to 
smuggle unsuspecting aliens. Yearly enhancements allow for BCBP to 
apply resources where the deaths occur to effectively deter and disrupt 
illegal border traffic. BCBP is also expanding its Border Safety 
Initiative, which incorporates a multi-pronged approach to making the 
border a safer environment. BCBP is increasing the number of qualified 
medical/rescue agents and is cooperating with Mexican counterparts at 
an unprecedented level. For example, a meeting of field representatives 
has just concluded, which produced a collaborative strategic plan for 
reducing deaths on both sides of the international border. As the 
strategy evolves other initiatives will be developed and supported. 
BCBP leadership is convinced that when the proper balance of personnel, 
equipment, technology, and tactical infrastructure exists, the illegal 
crossings will decline, bringing a commensurate decline in deaths and 
injury.
    Question. Given the level of additional resources that have been 
put into the Northern Border will you be revising that portion of the 
strategy?
    Answer. Since its implementation in 1994, the Border Patrol's 
National Strategic Plan has been the basis for a multi-year, multi-
phased approach for the deployment of additional personnel and 
resources, for the purpose of increasing control of our Nation's 
borders. The cornerstone of this strategy calls for ``prevention 
through deterrence'' as the means to restrict illegal entry attempts 
into the United States. Along the southwest border, the strategy has 
concentrated Border Patrol resources into those specific geographic 
areas experiencing the highest level of illegal activity. The key to 
the successful implementation of this strategy has been the deployment 
of the proper balance of personnel, equipment, technology and 
infrastructure into those areas.
    As originally written, the final phase of the National Strategic 
Plan calls for enhancing our enforcement posture along the northern 
border and coastal areas of the United States. Securing the northern 
border has traditionally presented many unique enforcement challenges 
for the Border Patrol. Our shared border with Canada is approximately 
4,000 miles long and is the longest non-militarized undefended border 
in the world. In the past, this vast expanse, coupled with an 
inadequate number of personnel and a lack of resources and 
infrastructure, has significantly limited the Border Patrol's deterrent 
effect upon illegal activity. In the wake of September 11, 2001, 
vulnerabilities and deficiencies along the northern border have 
received increased attention, which has caused the Border Patrol to 
accelerate its efforts in increasing our enforcement presence along the 
northern border.
    The current Northern Border Strategy encompasses interagency and 
international cooperation and coordination, effective technology 
development and deployment, and innovative resource allocation. The 
geographic and environmental conditions found on the northern border 
have led to the historic economic and cultural interdependence of the 
United States and Canada. In light of the long-standing cooperation and 
economic interdependency, the Border Patrol has conducted activities 
along the northern border with significantly fewer resources than were 
dedicated to the southwest border. For these reasons, the Border Patrol 
cannot simply replicate the same enforcement strategy implemented on 
the southwest border.
    The Northern Border Strategy relies upon maximizing existing 
resources in order to strengthen control of the border. The Northern 
Border Strategy also requires the proper balance of personnel, 
equipment, technology and infrastructure. To improve our effectiveness, 
the initial area of emphasis is the expansion of liaison and increased 
intelligence sharing with other Federal, State and local law 
enforcement agencies, as well as our counterparts within the Canadian 
government. The second emphasis is on the deployment of enforcement 
related technology along the border to act as a force multiplier, 
thereby increasing the area that can be adequately covered by available 
manpower. The final emphasis of the strategy calls for the deployment 
of additional personnel into our northern border sectors. As mentioned, 
subsequent to September 11, 2001, the Border Patrol accelerated into 
this phase by redeploying agents from the southwest border to the 
northern border.

  U.S. VISITOR AND IMMIGRANT STATUS INDICATOR TECHNOLOGY (U.S. VISIT)

    Question. BICE had been taking the lead on this project. Where will 
the responsibility for implementing the U.S. VISIT system lie?
    Answer. The Border and Transportation Security Directorate (BTS) is 
establishing a program office to oversee the project for which funds 
are requested under BCBP in fiscal year 2004.
    Question. In his testimony last week, Secretary Ridge said the 
entire project is under review. When will this review by complete? Who 
is conducting this review?
    Answer. The preliminary review was provided to the Secretary on May 
16, with an internal review completed by May 30. The U.S. VISIT Office, 
in conjunction with the BTS and other Department stakholders, is 
conducting the review.
    Question. In your budget request the funds for this system were 
requested under BCBP. Is this appropriate place for those funds?
    Answer. The Secretary delegated the implementation of the U.S. 
VISIT program to the Under Secretary of BTS. The U.S. VISIT program 
will ensure that funds appropriated for this system will be spent in 
accordance with the Spending Plans which are required under the fiscal 
year 2003 Omnibus Appropriations Act and Emergency War Supplemental 
Act.
    Question. What is the Department's acquisition strategy for the 
U.S. VISIT system? Does the strategy include the development of a 
prototype? Will the final solution include the selection of a single 
prototype or selected aspects of multiple prototypes?
    Answer. The acquisition strategy will not be finalized until the 
Spending Plan has been reviewed and approved by the Secretary of DHS.
    Question. A recent report by the Justice and State Departments and 
the National Institute of Standards stated that implementation of the 
entry/exit system at land borders was at least 1 year behind schedule. 
What is your current timeline for fielding the U.S. VISIT system at 
land border ports of entry?
    Answer. The entry/exit system, now known as the U.S. VISIT Program, 
is expected to be delivered on schedule as required by the Data 
Management Improvement Act. The law requires that travel documents 
contain biometric identifiers not later than October 26, 2004. The DOS 
requested an extension of this requirement. This does not affect the 
implementation of the U.S. VISIT program at the land borders.
    Question. What is your Department's position on the Justice and 
State Department reports?
    Answer. The report stated that the Department of State will require 
an additional year to implement changes to their processes and systems. 
There is a conflict in the report between implementing the U.S. VISIT 
program and the requirement for biometric identifiers in travel 
documents.
    Question. The entry/exit system will likely require substantial 
increases in staff and infrastructure modifications at 150-some land 
ports, particularly for the departure component. What assessments has 
the Directorate performed to determine the extent of additional staff 
needed?
    Answer. Workforce analysis and workforce staffing issues have been 
identified as part of the U.S. VISIT 45-day Spending Plan.
    Question. What assessments has the Directorate performed to 
determine the physical infrastructure changes that might be needed and 
their associated costs?
    Answer. Estimated physical infrastructure, environmental, and 
construction costs have also been identified as part of the 45-day 
Spending Plan. The scope and unique nature of this program required 
extensive assessments of the physical infrastructure. A facilities 
project team has been dedicated to the program on a full time basis, 
since March 2002. The facilities team is an integral part of the U.S. 
VISIT Program. The U.S. VISIT Program facilities team partnered with 
the General Services Administration (GSA) in early April 2002 to 
prepare the foundation for facilities and infrastructure improvements 
related to the U.S. VISIT Program. The facility team is charged with 
the development and implementation of facilities and infrastructure in 
accordance with the program objectives and requirements. Direction and 
guidance to the facilities program team is provided by a Steering 
Committee staffed by Senior Executives from BICE, BCBP, and the General 
Services Administration.
    The work to date has included:
  --Collected basic facilities planning data in a Geographic 
        Information System data base for all 165 Land Ports of Entry, 
        including
    --environmental data from State and Federal resource agencies
    --high-resolution aerial photography of all Land Ports of Entry 
            (POE)
    --operational data for all Land Ports of Entry
    --documentation on real estate ownership
  --Modeled traffic flows for the 50 largest Land Ports of Entry
  --Developed proto-type designs for the 60 small Land Ports of Entry
  --Completed Feasibility Studies for the 51 small Land Ports of Entry
  --Completed environmental baseline studies for each Land Ports of 
        Entry
  --Initiated a Strategic Environmental Appraisal for each Land Ports 
        of Entry

        STUDENT AND EXCHANGE VISITOR INFORMATION SYSTEM (SEVIS)

    Question. Has that transition of authority from BCIS to your 
Directorate taken place? Who within the BICE will have formal 
responsibility for carrying out this program?
    Answer. Yes, authority for the Student Exchange Visitor Program 
(SEVP) has transitioned to BICE. The Director of SEVP will have 
responsibility for carrying out the program.
    Question. In March of 2003, the Department of Justice, Office of 
Inspector General (OIG) issued a report on SEVIS questioning whether 
the program has been fully implemented. What steps are you taking to 
remedy the problems in school certification that were found by the OIG?
    Answer. The Bureau is in the process of reviewing the issues raised 
in the OIG report and is preparing a response. We will make available 
our response to you as soon as it is completed and delivered to the 
OIG. We expect to have that reply completed by the end of May 2003.
    Question. Under the current timeline, the SEVIS system will not 
have complete information entered into it on every foreign student in 
the United States until August of 2003. This is 2 years after the 
events of September 11--some of those terrorists were on student 
visas--and 20 months after receiving full funding for the system. The 
Congressional mandate was to have the system completed by January 2003. 
Why is this taking so long? And what is being done to track these 
students in the meantime?
    Answer. The DHS worked hard to meet the aggressive deadline for 
SEVIS implementation (January 2003) set forth in the USA PATRIOT Act. 
On July 1, 2002, 6 months before the deadline, the SEVIS was initially 
deployed to begin preliminary enrollment of accredited schools on a 
volunteer basis. Also in July 2002, the core foreign student program 
functionality was made operational and schools began to utilize SEVIS. 
By January 1, 2003, the all facets of the SEVIS system, including 
exchange program and exchange visitor functionality, and all system 
interfaces were deployed. By regulation, all schools and exchange 
programs, certified to admit foreign students or exchange visitors, 
were required to utilize SEVIS for all new students as of February 15, 
2003. All continuing foreign students must be entered into SEVIS no 
later than August 1, 2003. The primary reason for a phased approach to 
collecting information on foreign students (e.g., entering students 
followed by continuing students) was to ensure program integrity. The 
schools needed adequate time to review and convert the considerable 
data on their continuing students to SEVIS.
    This multi-phase approach was described in proposed regulations 
published in May 2002 and highlighted in testimony before the U.S. 
House of Representatives, Committee on the Judiciary, Subcommittee on 
Immigration, Border Security, and Claims (September 18, 2002) as well 
as before the U.S. House of Representatives, Committee on Education, 
Workforce Subcommittees on Select Education and 21st Century 
Competitiveness (September 24, 2002). Finally, the multi-phase approach 
was codified in DHS final regulations in December 2002.
    Until August 1, 2003, foreign students already in the United States 
continue to be monitored under the paper-based processes of former INS 
information systems. Schools are still required to maintain records and 
report updated information on these continuing students and are 
required to report violations of status to the DHS.
    Question. What steps have you taken to tighten the oversight and 
training of contractors who are out there actually doing the on-site 
reviews of schools? What steps are being taken to improve the training 
being provided to adjudicators and inspectors?
    Answer.
    Training of Contractors.--The primary role of contractors 
conducting the on-site review of schools is to gather information 
pursuant to a standardized questionnaire developed by BICE. Once the 
information is collected, it is forwarded to BICE adjudicators where it 
is incorporated with other information and used in the decision-making 
process with respect to a school's certification or denial to SEVIS.
    BICE has actively managed the on-site contractors. Initially three 
firms were employed by BICE for on-site reviews. Due to poor 
performance, one of the three firms was removed. The two remaining 
firms have demonstrated sufficient capacity to complete the on-site 
reviews without delay. Adjudicators have been instructed to bring 
deficient reports to the attention of the Contacting Officer's 
Technical Representative (COTR) so that these issues may be addressed 
with the relevant contractor. The COTR meets and communicates regularly 
with managers from the two contractors to discuss deficiencies as well 
as best practices. When fully staffed, BICE will use its compliance 
officers to perform many of the functions currently performed by the 
contractors.
    Training of Adjudicators.--Officers assigned to adjudicate I-17 
school certifications were provided with two separate group-training 
sessions in June and August of 2002. Since that time, we prepared and 
disseminated a comprehensive update to the Adjudicators Field Manual 
(the core guidance to adjudications officers of all benefit 
applications) that covers all adjudicative aspects of the foreign 
student regulations. Additionally, Headquarters has been conducting 
weekly regional conference calls with all officers adjudicating I-17s 
to keep them current on the status of on-site reviews and to answer any 
general questions regarding the adjudication of cases or to address the 
specifics of an actual case. Finally, Headquarters provides one-on-one 
training for officers newly assigned to this duty, on an as needed 
basis.
    Training of Inspectors.--In January 2003, the BCBP inspections 
branch trained more than 300 inspectors at over 100 ports-of-entry via 
a web-based, interactive teleconference system. A copy of the training 
materials was provided to each port for follow-up training, conducted 
locally. The BCBP inspections branch continues to update its SEVIS 
related training.
    Question. An important purpose of the SEVIS system is to allow for 
the tracking down of those students who have fraudulently entered this 
country with no intent to abide by their visa status. Have procedures 
been set up to identify and refer potential fraud for enforcement 
action?
    Answer. Yes, procedures have been set up to identify and refer 
potential fraud for enforcement action. Leads are received from 
schools, from a variety of sources including the SEVIS system. The 
leads are entered into a database and record checks are conducted by 
the Law Enforcement Support Center against a number of databases 
including the Foreign Terrorist Tracking Task Force databases and the 
Non-immigrant Information System.
    When it is determined that a student or exchange visitor entered 
the United States, failed to comply with his or her status and then 
failed to depart, the lead is then deemed to be a viable lead which is 
referred for enforcement action. All viable leads are entered into 
immigration lookout databases. The leads are then prioritized based on 
national security concerns and, if appropriate, assigned to field 
offices for further investigation.
    With regard to the enforcement of SEVIS, approximately 3,000 leads 
have been received from schools since December 2002, resulting in over 
1,000 viable leads. All of these viable leads have been entered into 
automated lookout systems and 206 of these leads have been assigned to 
field offices based upon national security considerations. To date, 21 
arrests have taken place and 2 violators were denied entry into the 
United States. 84 cases are still pending in the field and the 
remaining cases were resolved without arrests.

                   INTEGRATED INVESTIGATION STRATEGY

    Question. The new Bureau of Immigration and Customs Enforcement 
BICE brings together the investigation arms of the Customs Service, the 
investigative functions of the former Immigration and Naturalization 
Service, and the Federal Protective Service. This unification of 
investigative functions is intended to enhance information sharing 
between Federal bureaus and provide for more cohesive enforcement of 
immigration and customs laws within the interior of the United States 
in addition to protecting Federal institutions and interests. Can you 
describe in more detail the nature of the Bureau's functions and how 
you plan to delegate specific roles and responsibilities within the 
Bureau?
    Answer. The Bureau's functions will fully integrate the previous 
investigative responsibilities held by the Special Agents of the 
Customs Service and the Immigration and Naturalization Service. The 
investigative components of BICE will enforce the full range of 
immigration and customs laws of the United States. By unifying the 
previously separate investigative functions, the new Bureau will 
enhance information sharing with Federal, State and local law 
enforcement and develop stronger relationships with the U.S. Attorneys' 
Office.
    The American public will only be able to identify a former Customs 
or INS agent as a BICE agent. To this end, all agents will receive 
training in the disciplines of their new counterparts to facilitate a 
cohesive effort in furtherance of the investigative mission of BICE.
    BICE will accomplish its mission through effective leadership, 
cooperation and coordination with internal components, law enforcement, 
other governmental agencies and through the development of information 
technology and appropriate sharing and use of intelligence information 
to assess threats and prioritize targets. BICE will further develop and 
enhance partnerships with international, Federal, State, and local 
entities to help identify, prosecute, and/or dismantle criminal 
organizations and to locate, apprehend, prosecute, and/or remove 
individuals who threaten the peace and stability of the nation. The IIP 
will focus its resources on the issues and threats identified as most 
severe and will systematically identify and prioritize those activities 
and apply all available laws and tools to counter those threats.
    Question. When do you anticipate putting together an integrated 
investigations strategy that will blend the customs and immigration 
responsibilities of BICE and sharing it with the Committee?
    Answer. The challenges of the 21st century and the aftermath of the 
September 11, 2001 attacks demand an integrated investigations strategy 
that provides a highly organized global approach with regard to the 
customs and immigration enforcement responsibilities. The unique 
authorities possessed by BICE special agents will allow them to play an 
integral role in defending the United States and securing its borders.
    BICE is currently endeavoring to implement an integrated 
investigations strategy, which should be completed in the near future. 
Putting together an integrated investigations strategy means the 
recognition that BICE must partner with other law enforcement and 
intelligence agencies to protect and defend the United States. It will 
seek strong functional liaisons, and will formulate an aggressive, 
integrated investigations strategy and infrastructure with its 
partners. However, the process of integration takes time--not only to 
integrate several program specific investigations strategies--but also 
to ensure the compatibility with interdependent systemic 
infrastructures including information technology, human and budgetary 
resource options. For example, a new chain of command (integrating the 
two agencies) will be established, agents will be cross-trained in the 
disciplines of their counterparts at Customs or INS, differences in 
operational policies will be reconciled, and joint facilities may need 
to be secured. Currently, under the direction of the Assistant 
Secretary, we are ensuring steady progress toward addressing these 
issues, including the process of assembling an integrated, efficient 
and effective investigations strategy. The Bureau looks forward to the 
opportunity to share these developments with the Committee, as they 
occur.
    Question. BICE has responsibility for investigating everything from 
intellectual property to smuggling of contraband. How do you plan to 
ensure that non-homeland security investigations are maintained at the 
same level?
    Answer. Because law enforcement investigative priorities must 
concurrently evolve with the trends in criminal activity, each year 
BICE will review its investigative priorities and establish a 
comprehensive investigative strategy.
    BICE will continue to collaborate with other law enforcement 
agencies to identify, prioritize, and pursue threats to the homeland. 
In addition, BICE will continue constant coordination with the 
intelligence community and with private, public, State, local, and 
Federal law enforcement agencies. This coordination will be a key 
component of achieving the strategic approach to the full range of 
investigations for which BICE is responsible.
    Question. There are approximately 355,000 individuals who have been 
issued final deportation orders that have just walked away, absconded. 
The fiscal year 2003 Consolidated Appropriations Resolution included 
$10 million for increased investigative staff to pursue absconders. 
What is the status of bringing on these new investigators? How do you 
plan to tackle the absconder situation?
    Answer. BICE is planning to dedicate the $10 million in new funds 
to locating, apprehending and deporting criminal alien fugitives in 
fiscal year 2003. These new funds will be used to acquire equipment as 
well as hire and train 69 new officers solely devoted to the initiative 
to locate, apprehend and remove absconders. Eight new fugitive 
operations teams will be deployed in key strategic locations; Georgia/
North Carolina, the Maryland/Washington DC/Virginia corridor, 
Massachusetts/New England, Mid-Atlantic, Illinois/Midwest, Central 
Texas, Pacific Northwest, and supplements to the existing Los Angeles 
team. Some of the positions will also be used to establish permanent 
staff at the Law Enforcement Support Center to aid in the entry of 
alien records into the National Crime Information Center (NCIC) which 
is used as a force multiplier.
    The $10 million supplements the $3 million from the counter-
terrorism supplemental the former INS received from the Patriot Act in 
fiscal year 2002. That $3 million was used to hire 40 new officers, 
deployed as 8 teams in 7 cities, devoted solely to fugitive operations. 
The locations included New York City (2 teams), Detroit, Miami, Newark, 
Chicago, Los Angeles and San Francisco.
    In order to provide a solid foundation to these teams, BICE has 
developed a new specialized training course for the members of the 
fugitive operations teams. The first class will begin training in July 
2003.
    Tackling the absconder problem will require an integrated system to 
arrest and remove current absconders in conjunction with programs 
designed to reduce the future absconder population. One element of this 
system will be the creation of new multi-agency task forces to focus on 
the problem of absconders. BICE has reached out to other Federal 
agencies, such as the U.S. Marshals, IRS, Social Security 
Administration and the Department of Labor as well as State and local 
law enforcement agencies, to expand the enforcement net and ensure that 
every tool available is utilized to find these aliens. Another key 
element of the system includes greater use of intensive supervision to 
ensure aliens show up for proceedings and removals, thus reducing the 
growth of absconders.

                      AIR AND MARINE INTERDICTION

    Question. What is the status of the modernization review of all air 
and marine assets?
    Answer. With respect to Air and Marine Interdiction assets, BICE 
has completed a review of all air and marine assets and expects to 
complete a revised modernization plan in late July 2003. We estimate 
delivering the plan to Congress in August 2003.
    The Border Patrol developed a replacement/enhancement plan for 
their air and marine assets in fiscal year 2000. The acquisition of new 
assets is based upon availability of funds for each fiscal year. 
Additional new aircraft and marine vessels acquisitions are planned for 
in fiscal year 2003.
    Question. Currently the base budget for Air and Marine Interdiction 
is spilt between BCBP and BICE, with the operations and maintenance 
budget in BCBP and a portion of the salaries and expenses of the 
personnel in BICE. What is the appropriate placement of this important 
program? Please provide the rationale for that decision.
    Answer. The Air and Marine Interdiction budget was deliberately 
placed in BICE. Some of the reasons for this decision are:
    Air and Marine staff and capital assets are deployed primarily for 
interdiction. The principal goals of interdiction are to enhance the 
BICE investigative process to prevent terrorist activity and to further 
investigations of major smuggling operations whether they be drug, 
alien, or terrorist in nature.
    As a key part of the BICE integration of the immigration and 
customs enforcement mission with other Federal agencies, OAMI will 
support investigative processes at Coast Guard, Secret Service, 
Emergency Management, TSA, and FPS. OAMI will support investigative 
processes at non-DHS agencies from DEA to FBI.
    The use of OAMI mission and assets must be closely connected to the 
BICE intelligence mission and operations to be effective. It is this 
connection that ensures that the limited air and marine assets are 
effectively deployed to specific targets over a vast sea or border 
resulting in maximum deterrence capability. BICE intelligence based 
operations must be the lynchpin of OAMI strategy.
    Operationally, OAMI is more identified with investigations than 
inspections or surveillance activity. OAMI has historically reported 
through the investigations division of Customs. In fiscal year 2002, 
approximately 60 percent of OAMI flight hours supported customs 
enforcement. With the integration of customs and immigration 
enforcement, we estimate that more than 80 percent of OAMI operational 
flight hours will directly support BICE investigations, foreign 
operations, border and maritime patrols. The remaining 20 percent will 
support transportation of people and assets, as well as training and 
maintenance, and other customers for support flights.
    Based upon the above factors, placement of OAMI within BICE 
accomplishes the objectives of intelligence-based operations; more 
effective support of DHS and inter-agency law enforcement missions; and 
furtherance of investigations of terrorists and other crime syndicates. 
Air and Marine support of border protection functions will continue 
under this placement and will be formalized in an upcoming management 
directive. The proper placement of all our programs remains subject to 
periodic review.
    Question. Please provide the fiscal year 2004 positions, FTE, and 
dollars for the following: operations and maintenance, to include the 
proper level of adjustments to base; salaries and expenses to, include 
the appropriate level of administrative overhead from the legacy 
appropriation and adjustments to base.
    Answer. In order to fund the authorized strength of 1,105 FTE, the 
legacy appropriation with adjustments to base includes $112 million for 
salaries and expenses in the fiscal year 2004 budget request. An 
additional $175.05 million is included in the fiscal year 2004 budget 
request for legacy operations and maintenance with adjustments to base. 
Appropriate levels of administrative overhead are pending the 
completion of administrative support and structures between BCBP and 
BICE.

                FEDERAL LAW ENFORCEMENT TRAINING CENTER

    Question. How do you plan to balance the training needs of the 
Border and Transportation Directorate with the training needs of other 
Departments?
    Answer. The Federal Law Enforcement Training Center (FLETC) 
conducts training and provides training support services for 75 partner 
organizations from across all three branches of Federal Government. 
FLETC also provides training for international, State and local law 
enforcement agencies on a selective basis. In the President's fiscal 
year 2004 request, FLETC was projected to train 45,208 students for a 
total of 183,202 student weeks of training at Glynco, Georgia, Artesia, 
New Mexico and Charleston, South Carolina. In early fiscal year 2004, a 
fourth site in Cheltenham, Maryland, is anticipated to be fully 
operational for requalification training in the Washington, DC 
metropolitan area. Currently, training statistics for Cheltenham are in 
the developmental stage and are not part of the President's budget 
request. Of the projected student weeks of training, 65 percent will 
come from the nine law enforcement agencies transferred to the 
Department of Homeland Security.
    The fiscal year 2003 projections are unprecedented for FLETC. To 
meet the training needs, FLETC will continue a 6-day workweek, which 
was started in January 2002, at its largest site in Glynco. Further, 
FLETC has a priority training system, which ensures that all mandated 
entry level law enforcement training is given first scheduling 
priority. The FLETC has received updated projections for fiscal year 
2004. The new training projections have increased significantly and 
FLETC is currently evaluating the impact of the increased requests for 
training. If these requests are substantiated the FLETC will have to 
explore other options, including extended work days, realignment of 
training among sites under FLETC's scheduling control, and the use of 
other available Federal, State and local training resources on a 
periodic basis.

                    OFFICE FOR DOMESTIC PREPAREDNESS

    Question. How does the Administration propose to allocate the $500 
million requested for firefighters and the $500 million proposed for 
law enforcement? For example, do you intend to retain the current grant 
programs now being managed by the Emergency Preparedness and Response 
Directorate (formerly FEMA) which provide emergency management 
performance grants to states or grants directly to fire departments 
through the Assistance to Firefighters Grant program?
    Answer. There are two separate allocations of $500 million in the 
fiscal year 2004 request. One $500 million allocation will be for the 
traditional Fire Act program being transferred from FEMA. Since its 
inception, DHS's Office for Domestic Preparedness has enjoyed a strong 
relationship with the nation's fire service. The planned transfer of 
the Fire Act program to ODP will not change the manner in which the 
program is administered nor is it an attempt to merge the program with 
ODP's formula grant program. The program will continue to be managed 
consistent with the statutory requirements as a direct, competitive 
grant program to address the health and safety of firefighters.
    The other $500 million allocation request for State and local law 
enforcement for terrorism preparedness and prevention activities which 
include: training and equipment for WMD events, support for information 
sharing systems, training of intelligence analysts, development and 
support of terrorism early warning methods, target hardening and 
surveillance equipment, and opposition force exercises.
    Question. There was controversy during consideration of the 
Homeland Security Act as to whether the Department's Border and 
Transportation Security Directorate or its Emergency Preparedness and 
Response Directorate should properly manage and oversee the first 
responders program. Do you believe that the Office for Domestic 
Preparedness is properly placed under the Department's Border and 
Transportation Security Directorate?
    Answer. I support moving ODP to the Office of State and Local 
Coordination. With ODP's ever-expanding responsibilities and broadening 
scope, I think it is important for the agency providing funding to 
States and locals to reside within the office assigned in acting as 
liaison to those very States and locals. Therefore, the proposition of 
moving ODP from BTS to the Office of State and Local Coordination will 
be a means to several ends. Moving ODP will enhance the Office of State 
and Local Coordination because of ODP's long standing relationships 
with State and local public safety agencies and responders. Perhaps 
most importantly, a move will give DHS a ``one-stop-shop'' for all 
first responder funding within the Department.
    Question. No additional funding is requested for fiscal year 2004 
for critical infrastructure protection grants (funded in the fiscal 
year 2003 Emergency Wartime Supplemental Appropriations Act) or for 
high-threat urban areas (funded in the fiscal year 2003 Consolidated 
Appropriations Act and the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act). Do you foresee a need to continue 
funding for either of these grant programs in fiscal year 2004?
    Answer. The $200 million appropriated in the 2003 Emergency Wartime 
Supplemental Appropriations Act was for reimbursement of states for 
expenses incurred protecting critical infrastructure during Operation 
Liberty Shield.
    Urban Area Security Initiative (UASI) was developed and implemented 
after the fiscal year 2004 budget request was developed. We believe the 
states will find this program an integral part of their strategic 
planning, and continue to fund it with grant funds ODP allocates to 
them on an annual basis.
    Question. First responders funding has been awarded to states with 
a pass-through to local governments on the basis that statewide plans 
are developed to deal with the issues of terrorism preparedness, 
vulnerability assessments and the like, and that the funds be spent by 
the States and local governments consistent with this plan. How 
important do you believe the statewide plans are in assuring the proper 
expenditure of this assistance at the State and local level?
    Answer. The State Homeland Security Strategy is designed to give 
each state and territory one comprehensive planning document that 
includes response requirements for a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, capabilities at both the State 
and local jurisdiction levels. It should serve as a blueprint for the 
coordination and enhancement of efforts to respond to WMD incidents, 
using Federal, State, local, and private resources within the State. 
Because of the importance of this information, the grants are awarded 
based on the submission of this state plan to ensure the state uses the 
funds according to the needs identified in the strategy.
    There have been many concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner. Therefore, the fiscal year 2003 State 
Homeland Security Grant Program I (SHSGP I) and SHSGP II incorporate a 
strict timeline to facilitate the release and obligation of this 
funding.
    The SHSGP I application kit was posted online on March 7, 2003. 
States had to submit their applications to ODP within 45, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded. As mandated by Congress, 80 percent of the equipment funds 
must be provided to local units of government. The required bi-annual 
Categorical Assistance Progress Reports must reflect the progress made 
on providing funds to the local jurisdictions.
    The SHSGP II application kit was posted online on April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time that the 
grant is awarded. As mandated by Congress, 80 percent of the total 
amount of the grant to each State must be provided to local units of 
government. The required bi-annual Categorical Assistance Progress 
Reports must reflect the progress made on providing funds to the local 
jurisdictions.
    Question. In testifying before the Senate Appropriations Committee 
on the fiscal year 2003 supplemental request and again before this 
Subcommittee last week, Secretary Ridge indicated that there may be 
reason to rethink how we distribute future terrorism preparedness 
funding, whether the population-based distribution formula historically 
used by the Office for Domestic Preparedness is appropriate, or whether 
it should take into account such factors as threat, vulnerability, 
critical infrastructure needs, and the like. Does the Administration 
plan to propose a formula change for distributing this funding? What 
formula change will you be seeking?
    Answer. The current formula for the allocation of ODP funds to the 
States for the fiscal year 2003 State Homeland Security Grant Program 
(SHSGP) I and SHSGP II was computed on a base, pursuant to the Patriot 
Act, plus a population formula. Starting in fiscal year 2004, the 
Department will seek to make changes in how it distributes funding to 
the States. Each State and territory will continue to receive a base 
amount, but the balance of funds will utilize a multi-faceted formula, 
taking into account factors including threat and risk assessments, 
critical infrastructure of national importance, and population density.
    Until the overall formula is changed, each State must take into 
consideration needs and capabilities when allocating their State funds 
to local jurisdictions.
    Question. What formula was used to award the approximately $100 
million in fiscal year 2003 funds for grants to high-threat urban areas 
announced by the Department on April 8, 2003, for distribution to seven 
U.S. cities (New York City, N.Y.; Washington, D.C. and the National 
Capital Region; Los Angeles, CA; Seattle, WA; Chicago IL, San 
Francisco, CA; and Houston, TX)? Do you expect to use this same formula 
to award the additional $700 million provided in the fiscal year 2003 
Emergency Wartime Supplemental Appropriations Act?
    Answer. While the specifics of the formula used to award the 
approximately $100 million, and subsequent $700 million, for the Urban 
Areas Security Initiative is classified, it includes a weighted linear 
combination of current threat estimates, critical assets within the 
urban area, population and population density, the result of which is 
used to calculate the proportional allocation of resources.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

 UNMANNED AERIAL VEHICLES AT THE LAS CRUCES, NEW MEXICO INTERNATIONAL 
                                AIRPORT

    Question. I was pleased to learn of Secretary Ridge's interest in 
using unmanned aerial vehicles (UAVs) for improved surveillance along 
our nation's borders. I strongly support such action to improve our 
nation's ability to patrol our borders, particularly in less-populated 
areas.
    Southern New Mexico is already the site of ongoing UAV flights out 
of the Las Cruces International Airport. This airport is the 
headquarters of New Mexico's emerging UAV Center of Excellence, the 
newly formed joint regional UAV Systems and Operations Validation 
Facility (USOVF), a partnership between the 46th Test Group at Holloman 
Air Force Base and the Physical Science Laboratory of New Mexico State 
University. The USOVF is pre-approved by the Federal Aviation 
Administration for file and fly in a regional flight area of 300,000 
square miles in the western United States. The Las Cruces International 
Airport is situated less than 40 miles from the U.S.-Mexico border, and 
in a central location among U.S. border states.
    I understand that Senator Stevens is interested in using UAV's to 
patrol the maritime border between Alaska and Russia in the Bering 
Straight. What do you anticipate will be the size and scope of the 
Department of Homeland Security's deployment of UAV's on our borders?
    Answer. BTS has asked the Science and Technology Directorate to 
evaluate the use of UAVs in a Border and Transportation Security 
environment. S&T was also asked to evaluate other potential 
applications.
    Question. What funding and facilities will the Department need for 
a UAV program?
    Answer. Until the requirements have been scoped to determine the 
feasibility and extent of a UAV program, we cannot predict what amount 
of funding and the type of facilities might be appropriate for the 
Department to implement a UAV program.
    Question. On what timeline will the Department implement this 
initiative?
    Answer. At this time, it is unknown what the timeline would be for 
the Department to implement this type of initiative. A proposed project 
plan including milestones and deliverables is expected to be ready for 
review by June 2003. The project plan will discuss the BTS-specific 
project as well as strategies in developing UAV initiatives in the 
near, mid, and long term for DHS venues such as borders and ports.
    Question. Based upon the characteristics of the Las Cruces, New 
Mexico International Airport, could you provide an assessment of its 
potential for utilization by the Department of Homeland Security for 
serving as a platform for the deployment of UAV's for Homeland Security 
purposes?
    Answer. Based upon the description of the Las Cruces, New Mexico 
International Airport, the facility appears to have potential for 
serving as a platform for UAV deployment for Homeland Security 
purposes. After UAV program feasibility, requirements and scope is 
determined a more detailed assessment on available testing and 
deployment facilities would need to be made.

                             BORDER ISSUES

    Question. It has been 17 years since the Federal Government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S. 539). The new bill will focus on U.S. borders 
with Canada as well as Mexico. This bill has the dual goals of 
facilitating the efficient flow of trade while meeting the challenges 
of increased security requirements.
    This will include:
  --More funding for equipment at our land borders
  --Additional funding for personnel
  --Additional funding for training, and
  --Additional funding for industry/business partnership programs along 
        the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow the BCBP to 
expand our influence beyond the borders and into Mexico, Central 
America, South America and the Caribbean. Under the umbrella of the 
Customs-Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. BCBP supports BASC through ACSI, 
which are teams of BCBP officers that travel to the BASC countries to 
assist businesses and government in developing security programs and 
initiatives that safeguard legitimate shipments from being used to 
smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. Under the C-TPAT programs consisting of the Americas 
Counter Smuggling Initiative (ACSI), and the Business Anti-Smuggling 
Coalition (BASC), BCBP is engaging the Mexican trade community and 
Mexican Customs in a cooperative relationship against the smuggling of 
drugs and implements of terror. Meetings have been held with Mexican 
Customs through a bilateral U.S.-Mexican Government Working Group. 
Through this working group, the United States and Mexico can work 
jointly through these programs to establish a secure supply chain 
between our countries, while facilitating cross border trade. BCBP is 
also working with Mexican Customs to identify what areas in Mexico 
should be targeted for the establishment of new BASC chapters.
    Under the high-level United States and Mexico Customs Bilateral 
Working Group, a demonstration project to test a fast and secure lane 
at El Paso is underway. This bilateral program is designed to expedite 
and facilitate commercial truck crossings at the Ports of Entry (POEs) 
by implementing the mandated requirements of securing the flow of 
people, transportation, and goods under a secure infrastructure. This 
program is aimed at facilitating cross border trade, while improving 
and ensuring the supply chain security of the participants that range 
from manufacturing, to transportation, to importation.
    BCBP has two ACSI teams travelling throughout Mexico to work with 
the BASC Chapters in Monterrey, Ciudad Juarez and Mexico City to 
prevent drug smugglers and elements of terrorism from using legitimate 
cargo to enter their illegal merchandise into the U.S. BASC, which was 
initiated in March 1996, continues to be a private sector business-led, 
BCBP supported alliance under C-TPAT that complements and enhances our 
efforts to secure the supply chain. C-TPAT is an anti-terrorism 
response to the events of September 11, 2001 which engages the trade 
community in a cooperative relationship with Customs in the war against 
terrorism. C-TPAT will work with foreign manufacturers, exporters, 
carriers, importers and other industry sectors emphasizing a seamless, 
security conscious environment throughout the entire commercial 
process.

            FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)

    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-Federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day, 
yet it has been running at around 320 students during fiscal year 2003.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS.
    Question. How do you intend to provide training for the newly hired 
DHS personnel as continued training for existing DHS personnel in light 
of the new security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, the FLETC is a good example of the new government 
approach intended by the legislation creating the DHS: a means to 
harmonize the work of many law enforcement agencies through common 
training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 73 percent of our 
estimated total Federal training workload.
    FLETC intends to work closely with all segments of DHS. Placing 
FLETC within the DHS will help to support the ``unity of command'' and 
the coordination and efficiency themes sought in the public law that 
created DHS. FLETC has a long history of service to many of the DHS 
components--the U.S. Secret Service, the former Customs and Immigration 
and Naturalization Services including the U.S. Border Patrol (USBP), 
the Federal Protective Service, and more recently, the Transportation 
Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2000 placed new and increased demands on the 
nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput without compromising the 
qualifications of graduating officers and agents, and maximizing the 
use of each of its training facilities. With the consultation and 
concurrence of its partner organizations (POs), FLETC leadership 
directed that training be conducted on a 6-day training schedule 
(Monday through Saturday), thus generating a 20 percent increase in 
throughput capability. More importantly, the 6-day training schedule 
drives a corresponding compression of the length of each training 
program, effectively delivering each class of new law enforcement 
officers to their agencies weeks sooner than under the conventional 
training schedule. Should the 6-day training schedule be insufficient 
to meet the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. I have tasked the Federal Law Enforcement Training 
Center with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two-phase methodology to identify the training 
assets and to develop a plan for operating the facilities employed by 
each of the Directorate's bureaus, and will also include the Coast 
Guard, Secret Service, and the Bureau of Citizenship and Immigration 
Services. The operational plan will provide the framework for 
coordinating academy training in all BTS bureaus. The Committee will 
develop and submit a report at the conclusion of each phase. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan for Artesia and all 
other sites.

                     PURCHASE OF THE TOWN OF PLAYAS

    Question. Approximately 1 week ago, I sent you a letter suggesting 
the Department of Homeland Security purchase the town of Playas for the 
training of state and local first responders.
    As you are aware, Playas is a deserted company town in Southern New 
Mexico that could be used as a real world anti-terrorism training 
center.
    Playas incorporates almost 260 homes, several apartment buildings, 
a community center, post office and airstrip, a medical clinic, 
churches and other typical small town structures.
    This town would cost the government $3.2 million dollars--a bargain 
that should not be passed up. While Federal law enforcement has access 
to modern training facilities at FLETC, state and local first 
responders do not have access to the same quality of facilities. Playas 
can meet this vital need in a cost-effective manner.
    Currently, New Mexico Tech, a member of Homeland Security's 
National Domestic Preparedness Consortium, has put together a proposal 
for the Department of Homeland Security through their Office of 
Domestic Preparedness to purchase Playas.
    Question. What role do you foresee Playas playing in the defense of 
our homeland?
    Answer. At this time, a decision as to the role of Playas is 
undetermined, although the site could have potential value in a 
national training architecture. Playas' usefulness as a location for 
homeland defense preparedness training must first be assessed through a 
feasibility study to determine if acquisition of the property will make 
a contribution to the national first responder training program.
    Question. Will you evaluate the feasibility of using Playas as a 
training site for State and local first responders before we lose this 
unique opportunity?
    Answer. A feasibility study to determine the potential use of 
Playas as a training center would be the first step in the decision-
making process. If upon review of the completed feasibility study a 
decision is made to move forward with utilizing the property for a 
training facility, a detailed plan will be developed to determine the 
most advantageous manner in which to acquire the property. This would 
be a lengthy process given the many legal issues involved, particularly 
if the decision is for the Federal Government and ODP to purchase or 
lease the property.

                          NATIONAL GUARD ISSUE

    Question. I have been told that the Department of Defense has 
decided to terminate National Guard support to the Department of 
Homeland Security's border inspection operations. I believe that the 
National Guard has been an intricate partner with Customs for well over 
a decade, providing the extra hands necessary to help inspect cargo at 
our land borders, seaports, and mail facilities. I believe there are 
approximately 350 National Guardsmen working alongside Customs in this 
capacity, at any given time.
    This work is of particular importance to New Mexico on our border 
with Mexico. There are approximately 52 guardsmen along the New Mexican 
border supporting a total of 90 plus Customs, Immigration and 
Agriculture inspectors. It is my understanding that for every guardsman 
who works searching cargo or screening mail allows an extra Department 
of Homeland Security (DHS) inspector to be on the frontlines looking 
for terrorists.
    As I understand, the Defense Department would like to place these 
guardsmen in positions (along the U.S. border) that are more ``military 
unique'', such as intelligence collection.
    Is now the time for DOD to move these guardsmen from these critical 
positions?
    Answer. In September 2002, DOD officially informed the U.S. Customs 
Service, now Bureau of Customs and Border Protection (BCBP), that they 
would discontinue funding National Guard counternarcotics support of 
BCBP's Cargo and Mail Inspection operations (the only BCBP operations 
supported by National Guard soldiers) effective September 30, 2003. DOD 
subsequently changed this date to September 30, 2004. The reason for 
discontinuing the National Guard support, as stated by DOD officials, 
is that they wish to phase out all National Guard counternarcotics 
support that does not require unique military skills.
    As a result of the September 2002 notification, aggressive hiring 
strategies to offset any negative impact of losing National Guard 
support were implemented. Through regular appropriations, supplemental 
funding and an overall increase in our inspector corps as a result of 
the March 1, 2003 transition to BCBP, our agency is prepared to do 
without National Guard support beginning October 1, 2004.
    Question. Shouldn't we be increasing the number of guardsman at our 
borders?
    Answer. As a result of the significant increase in BCBP staffing, 
as outlined above, it is not necessary to retain National Guard support 
at our borders, nor is it necessary to increase the number of National 
Guard soldiers at the border locations. BCBP welcomes National Guard 
support beyond September 30, 2004, but the support is not critical for 
BCBP to accomplish its mission.
    Question. If DOD pulls the Guard from the border will DHS need more 
funding to replace personnel?
    Answer. No. Through regular appropriations, supplemental funding 
and an overall increase in our inspector corps as a result of the March 
1, 2003 transition to BCBP, our agency is prepared to do without 
National Guard support beginning October 1, 2004.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                            FIRST RESPONDERS

    Question. A portion of your budget is dedicated to managing the 
Department's First Responder initiative, and providing grants for 
preparedness. Within this initiative, you plan to award grants to 
states to address the equipment, training, planning and exercise needs 
(as recognized in their updated response plans, which identified goals 
and objectives for preparedness, State and local enforcement anti-
terrorism initiatives, and Citizen Corps preparedness activities). What 
do you believe is the most efficient way to get funding into the hands 
of those first responders, who so desperately need it?
    Answer. There have been many concerns from the government as well 
as first responders in the field regarding the grant funding reaching 
local jurisdictions in a timely manner. Therefore, the fiscal year 2003 
State Homeland Security Grant Program I (SHSGP I) and SHSGP II 
incorporate a strict timeline to facilitate the release and obligation 
of this funding. Also, as mandated by Congress, 80 percent of the 
equipment funds in the SHSGP I, and 80 percent of the total amount of 
the grant to each state in the SHSGP II, must be provided to local 
units of government. The required bi-annual Categorical Assistance 
Progress Reports for both grant programs must reflect the progress made 
on providing those funds to local jurisdictions.
    Question. Can you explain to me the process in place for awarding 
the grant program?
    Answer. The fiscal year 2003 State Homeland Security Grant Program 
I (SHSGP I) application kit was posted online on March 7, 2003. States 
had to submit their applications to ODP within 45 days, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded.
    The SHSGP II application kit was posted online April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time the grant is 
awarded.

                 TRANSPORTATION SECURITY ADMINISTRATION

    Question. In the hours following the attacks on the Pentagon and 
the World Trade Center, it was clear that the lines of communication 
between everyone involved in air travel--the FAA, Federal authorities, 
airlines, and customers--was severely deficient, if not to say 
completely inadequate. What steps have been taken to improve this so 
that information moves quickly and accurately from the air traffic 
controllers to the airlines to the passengers, and most importantly, to 
the appropriate agencies in the event of another emergency?
    Answer. The communications flow between air traffic controllers, 
airline corporate headquarters and security divisions, Department of 
Defense, and other Departments occurs under processes established among 
the Federal Aviation Administration, Transportation Security 
Administration, Department of Homeland Security, and the Department of 
Defense. In cases where there is a known threat to aviation security, 
the agency that identifies the threat establishes communications with 
the other agencies via established conference calls, at which time all 
command centers are brought into a coordination conference call. In 
addition to these interagency conference calls, each agency initiates 
calls within its own organization for coordination with internal 
response and information sources to build and maintain situational 
awareness. The Transportation Security Administration establishes 
direct links to internal and external agencies via secure and non-
secure means for information gathering and direction. The communication 
systems are tested regularly to identify and correct glitches in the 
lines of communication so that we are confident there will not be any 
problems in a real emergency. At the end of every test, we conduct an 
outbrief to review the exercise and identify areas for improvement. 
These communications links encompass the full spectrum of agency 
capabilities to respond to any threat to aviation security. Additional 
details on the secure elements of the communication links can be 
provided in a classified setting.

                              AIR MARSHALS

    Question. On September 11th, it became apparent that our nation's 
protectors of the commercial skies, the U.S. Air Marshals, needed to be 
in better communication--not only with their superiors but also with 
each other. Who knows what could have been averted, and how many lives 
could have been saved had communications technology been available.
    I know that over the past year or so, the TSA has been working with 
technology companies in order to develop a communications system that 
allows the air marshals to communicate in real time with officials on 
the ground, as well as other air marshals stationed on other commercial 
aircraft. I think this is necessary so that our air marshals are not 
isolated at 30,000 feet.
    Do you have any knowledge of the progress of this technology 
development?
    Answer. Pursuant to House Conference Committee Report 107-593, 
TSA's Federal Air Marshal Service (FAMS) was provided $15 million to 
begin implementation of an Air to Ground Communications program. TSA 
intends to utilize this funding to purchase a Commercial Off-the-Shelf 
(COTS) product, which includes hardware and software, for 
implementation of the Air to Ground communications system. This initial 
system will allow FAMS to utilize a portable, quickly deployable air to 
ground communications system which will seamlessly integrate existing 
FAMS wireless technology. This comprehensive wireless communications 
system may also be used by other local, State, and Federal agencies, 
and the Department of Defense, to achieve secure communications through 
a dedicated law enforcement network.

                           BAGGAGE SCREENERS

    Question. The TSA recently announced plans to eliminate 3,000 more 
airport screening jobs by the end of September, coupled with 3,000 
others announced in March, amount to about 11 percent of the 55,600 
screeners employed.
    This plan will save the TSA an estimated $280 million. I applaud 
the TSA's effort to trim their budgetary needs, however, is a good idea 
to cut the work force and putting some workers on part-time hours? Do 
you believe this to be a wise decision at this time?
    Answer. TSA acknowledges the requirement to reduce and re-
distribute some of the screener workforce. Getting the right number of 
screeners at airports will continue to be a management challenge. It 
will be essential for us to use our work force in a flexible manner if 
we are to avoid long lines after the reduction. Part time employees 
will be essential for staffing checkpoint lanes during peak periods. 
Through the implementation of good management principles and practices, 
TSA will be able to maintain its charter of world-class security with a 
more efficient, more effective screener workforce.
    Question. Will we still have enough workers to screen 100 percent 
of the bags?
    Answer. Yes. The resulting workforce, made up of full and part time 
employees, will be able to electronically screen 100 percent of the 
bags when the balance of baggage screening equipment is deployed to the 
remaining airports.

                        AIR TRAFFIC CONTROLLERS

    Question. A year ago, we discussed the need for accountability in 
the security screeners and airport employees as a whole. Then Congress 
passed the Aviation and Transportation Act which federalized those 
employees. Recently, President Bush issued an executive order that 
deleted the clause in a previous order signed by President Clinton that 
described air traffic control as an ``inherently governmental 
function.'' The Administration has proposed studying whether to hire a 
private company to take over the air traffic control system. What 
effect will privatizing the Air Traffic Controllers will have on the 
current system?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), this question is more appropriately addressed to that agency.
    Question. Do you believe it will solve current issues, or create 
problems?
    Answer. Because the safe operation of the Nation's air traffic 
control system is the responsibility of the Federal Aviation 
Administration (FAA), an agency within the Department of Transportation 
(DOT), this question is more appropriately addressed to that agency.

                   CROSS-CHECK OF PASSENGER IDENTITY

    Question. When passing the Aviation and Transportation Act, 
Congress felt the need to include the Computer Assisted Passenger Pre-
screening System (CAPS II). CAPS II would scan government and 
commercial databases for potential terrorist threats when a passenger 
makes a reservation. Under this program, passengers will be required to 
provide their full name, address, telephone phone number, and date of 
birth. The airline computer reservation system will then automatically 
link to the Transportation Security Administration (TSA) for a computer 
background check that can include credit, banking history, and criminal 
background checks. The TSA will then assign a score to the passenger 
based on the agency's risk assessment of the traveler.
    However, the Office of Management and Budget (OMB) has doubts about 
the project and believes that there may be better use for the money 
slated for this project, and has the power to remove the project if 
they deem appropriate. Not to mention the potential infringement on 
personal privacy, and the possibility for mistakes effecting innocent 
people.
    Do you believe the CAPPS II program is necessary, and what are you 
doing to ease the OMB's worries regarding the program's effectiveness 
and operation?
    Answer. Yes, TSA believes that the CAPPS II program is necessary. 
Not only will it enhance security, but it will improve security 
resource allocation (including screeners and FAMs) and it will relieve 
the airlines of the burden of running the current CAPPS program 
(estimated at $150-200 million annually). TSA has submitted a Business 
Case for CAPPS II which is under review.

                  QUALIFIED ANTITERRORISM TECHNOLOGIES

    Question. The Homeland Security Act of 2002 (Sections 862) provided 
the Department of Homeland Security with authority to compile a list of 
``qualified antiterrorism technologies'' that would qualify or receive 
certain protection under that Act. Has this list been compiled? If not, 
why?
    Answer. The list of ``qualified antiterrorism technologies'' has 
not yet been compiled. The regulations to govern implementation of the 
SAFETY Act must be completed before the SAFETY Act can be implemented. 
Promulgation of these regulations is a high priority, and DHS is 
working with the Office of Management and Budget (OMB) to finalize an 
initial set of SAFETY Act regulations. We expect to publish these 
regulations for comment very shortly. Following the public comment 
period, the regulations will be finalized and issued. As soon as the 
regulations are issued, applications can be made to DHS for 
consideration of possible technologies that are determined to meet the 
criteria set forth in Subtitle G, Sec. 862.
    Question. If this list has been compiled, can Members of this 
Committee get a copy of this list?
    Answer. This list has not yet been compiled; please see answer to 
Question BTS-S56 for current status.
    Question. How would a company that has an antiterrorism technology 
be considered for approval?
    Answer. DHS has developed plans for both an immediate 
implementation path, and for a longer-term ``ideal state'' process, to 
implement the SAFETY Act. Public notification of the application 
process and of the select categories of technologies that will be 
considered for certification will be made through the DHS website after 
regulations are issued.
    Question. Do they need to wait for the rulemaking process to be 
completed to apply for approval?
    Answer. Yes, companies will need to wait until after the rulemaking 
process has been completed. DHS does not yet have an application or 
approval process in place. Final application and approval processes are 
contingent upon issuance of regulations. DHS wants to ensure that 
applicants are well informed about requirements so that they can make 
informed decisions regarding submitting their technologies for 
consideration
    Question. If so, when will that process be completed?
    Answer. Until DHS and OMB have completed their review and issued 
guidance for the actual implementation of the SAFETY Act, it is not 
possible to determine an actual date for completing the process. 
However, the Department does place a high priority on completing the 
necessary guidance and regulations and is prepared to act quickly after 
issuance of the guidance.

                            BORDER SECURITY

    Question. This Directorate arguably has one of the toughest jobs in 
the Department. Ideally, if this Directorate performs its job to 
perfection, then the concerns of terrorists coming into our country to 
attack our citizens or our infrastructure are reduced to a great 
extent. With 7,500 miles of land borders with Canada and Mexico and 
95,000 miles of coastline to keep watch over, short of building a large 
wall around the country, how much success have you had in strengthening 
our border security?
    Answer. The priority mission BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States at and 
between Ports of Entry (POEs) while simultaneously facilitating 
legitimate trade and travel.
    In order to carry out its priority mission, BCBP has developed and 
is implementing Smart Border initiatives with other nations and with 
the private sector, such as the Container Security Initiative (CSI), 
the Customs-Trade Partnership Against Terrorism (C-TPAT), NEXUS, and 
the Free and Secure Trade (FAST) Program, and will continue to push our 
zone of security outwards.
    Our layered inspection process and the components of a Smart Border 
include:
  --Advance electronic information
  --Automated targeting tools
  --Identifying and facilitating low-risk travelers and shipments
  --Non-intrusive inspection technology
  --Industry partnerships
  --Training
  --Pushing security beyond our borders
    BCBP uses various large-scale, portable and hand-held technologies 
in different combinations to substantially increase the likelihood that 
a nuclear or radiological weapon or weapons grade material will be 
detected. We have identified and are deploying nuclear and radiological 
detection equipment to include personal radiation detectors, portal 
radiation monitors and radiation isotope identifier devices.
    In combination with our layered enforcement process, these tools 
currently provide BCBP with significant capacity to detect nuclear or 
radiological materials.
    Additional initiatives include, but are not limited to:
  --Training to further develop a highly skilled and trained workforce;
  --Sensors to remotely monitor low volume ports of entry; and
  --Exchange of intelligence and information to identify potential 
        nuclear and radiological smuggling threats.
    Our goal is to examine 100 percent of all high-risk cargo and 
conveyances and to screen all high-risk people, cargo and conveyances 
for radiation. The Border Patrol, a component of the Bureau of Customs 
and Border Protection, is responsible for preventing the illegal entry 
of any persons crossing between the ports of entry along the 8,000 
miles of international border with Canada and Mexico. To accomplish 
this enormous mission, there are currently over 10,000 agents deployed 
on the border to deter, detect, and apprehend any illegal entrants at 
the border. These dedicated agents have historically arrested in excess 
of 1,000,000 illegal entrants annually. In order to improve the 
enforcement effectiveness of these agents, the use of technology and 
enhanced detection systems are continuing to be deployed along the 
border. In addition to the technology, additional border barriers, high 
intensity lighting units and improved border roads have been used to 
assist the agents in providing the maximum in border security measures 
between the ports of entry. The success of these measures has recently 
lead to reductions in illegal entry arrests along certain major border 
areas, as well as the continued disruption of organized smuggling 
efforts on the border.
    Question. Are any of these projects visible to our country's 
citizens to make them feel safer?
    Answer. BCBP has developed a multi-layered process to target high-
risk shipments while simultaneously facilitating legitimate trade and 
cargo. Our Smart Border initiatives include components that are 
invisible to a majority of the traveling public. These include 
cooperative efforts with other nations to push security beyond our 
borders, advance electronic information, automated targeting tools, 
intelligence and partnering with industry.
    Portions of our layered enforcement process are highly visible to 
the general public. These include our inventory of hand-held, portable 
and large-scale non-intrusive inspection (NII) technologies deployed to 
our nation's air, land and seaports of entry, as well as the additional 
personnel and canine resources necessary to support the technology.
    Many of the Border Patrol's newest assets are visible to the 
citizens who reside in our many border communities. Those assets 
include the latest in state of the art helicopters, which frequently 
patrol over these communities. In addition, there are infrastructure 
improvements in fencing, checkpoint facilities and expanded canine 
units for locating persons and contraband hidden in vehicles and train 
boxcars. Also visible to our citizens is the increase in the number of 
agents patrolling in marked sedans and four-wheeled drive trucks along 
the border. In addition, every Border Patrol sector has a community 
out-reach program to educate and inform the local communities of the 
activities of the Border Patrol and to reassure the citizens of the 
Patrol's efforts in providing security along the border of the country. 
While many of the assets used by the Border Patrol are not readily 
visible to the public, such as surveillance and detection equipment, 
the results of the increased presence of agents along the border 
continues to be favorably noted by the local media and civic 
organizations in many border communities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                        EXPIRATION OF COBRA FEES

    Question. The COBRA fees--which fund nearly all overtime for the 
legacy Customs inspectors among others--expire at the end of this 
fiscal year. Have you submitted legislation to the appropriate 
authorizing committees and discussed with them the need for the 
extension of these fees? Also, what contingency plans, if any, do you 
have in place to cover the costs of the current COBRA-funded functions 
should the fees not be extended in time?
    Answer. We have briefed both the House Ways and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP, as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and 
preclearance (19 USC 267 and 31 USC 9701) and that foreign trade zones 
and bonded warehouses be billed for inspectional and supervision 
services (19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding.
    It should also be noted that the failure to reauthorize the fees 
provided for under the COBRA statute (19 USC 58c) will result in an 
additional loss in collections of approximately $1 billion annually. 
This represents the Merchandise Processing Fees, which are deposited 
into the General Fund of the Treasury as an offset to the commercial 
operations portion of the BCBP budget.
 legacy custom service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.

                 ANTI-DUMPING AUTHORITY (BICE AND BCBP)

    Question. What is the expected cost in fiscal year 2003 of 
administering the anti-dumping authority in section 754 of the Tariff 
Act of 1930 (19 USC 1675c)?
    Answer. While enforcement of the Tariff Act is a major priority of 
the BCBP, its efforts to enforce this legislation cut across many 
different programs and organizations which are concurrently performing 
a variety of trade compliance functions within BCBP. Therefore, the 
cost of BCBP's enforcement efforts in this area is not easily tracked 
or monitored in a way that enables BCBP to provide a quick and easy 
answer to this question. Ultimately, any answer would be an estimate of 
BCBP's costs.

                            BUDGET DOCUMENTS

    Question. The budget justification documents for BCBP and BICE do 
not include detailed legacy information on the agencies/accounts broken 
out in a manner similar to that which used to be provided by the former 
Customs Service. Was information provided to the Department by the 
former Customs Service staff prepared in that format? Please provide 
the Subcommittee with a copy of that submission to assist us in tracing 
the budgets from fiscal year 2003 to fiscal year 2004?
    Answer. The former Customs Service did not provide a draft of the 

FISCAL YEAR 2004 BUDGET TO THE DEPARTMENT IN ITS TRADITIONAL FORMAT.
                           DHS FIRST 100 DAYS

    Question. Secretary Ridge noted in his list of the Department's 
accomplishments for the 1st 100 days that BCBP had ``acquired and 
deployed additional ``A-STAR'' and ``HUEY'' helicopters to bolster 
enforcement efforts along the U.S. Southern border''. With what fiscal 
year funds were these aircraft purchased? Are other rotary or fixed-
wing aircraft in the procurement pipeline? If so, where is their 
planned deployment?
    Answer. The purchase of the additional ``A-STAR'' helicopters was 
made in fiscal year 2002 with funding received from counter-terrorism 
supplemental appropriations in that year. The ``HUEY'' helicopters were 
obtained through the military on-loan program for special operations 
and tactical training requiring the mission capabilities of that 
aircraft. The deployment of the ``HUEY'' helicopters to bolster border 
enforcement operations occurred in fiscal year 2002.

              NATIONAL CAPITOL REGION AIRSPACE PROTECTION

    Question. Last week, in his commemoration of the first 100 days of 
the new Department of Homeland Security, Secretary Ridge noted that the 
Department's Bureau of Immigration and Customs Enforcement Office of 
Air and Marine Interdiction has, ``provided 24-7 airspace security 
coverage over Washington, D.C.'' I understand that Blackhawk 
helicopters were transferred to this area to provide this ``airspace 
security''. How many assets have been assigned to this region and from 
which parts of the country are they being borrowed? How long are they 
expected to be assigned to this region? What are the impacts on the on-
going operations at the other regions from which these assets have been 
borrowed? Is there a long term ``fix'' in the planning stages for this 
problem? Does the Department intend to establish an air security branch 
for the National Capitol Region?
    Answer. The Bureau of Customs and Immigration Enforcement (BICE), 
Office of Air and Marine Interdiction (OAMI) is providing two Blackhawk 
helicopters and two Citation Tracker aircraft with associated aircrews 
and support personnel for National Capital Region (NCR) air security 
operations. Additionally, OAMI is providing Detection Systems 
Specialists (DSSs) and four operator consoles from the Air and Marine 
Interdiction Coordination Center to establish and provide 24-7 law 
enforcement air surveillance to the NCR. These assets are drawn from 
throughout the OAMI program and are rotated on a regular basis to 
minimize the impact to any one sector. The impact on aircraft 
maintenance at the other regions is the reduction of man-hours. There 
is no expectation of this mission terminating.
    Question. Given the importance of all of these missions, as well as 
the limited number of Department air assets, why are no funds requested 
in your fiscal year 2004 budget for additional aircraft? Further, if 
you decide to create a National Capitol Region program, how much money 
is required to do so?
    Answer. The Department of Homeland Security's fiscal year 2004 
budget will leverage existing assets to accomplish this mission.

                  RESTRUCTURING AIR AND MARINE PROGRAM

    Question. What are the plans for updating and restructuring the Air 
and Marine program? Will pilots who train and graduate from the same 
academy as agents be eligible to become 1811's? Will there be any 
equipment upgrades? Will there be new offices set up in the New York 
Metro and National Capitol Region? Will new offices with assets in 
these areas be cost effective in the event of changing security levels?
    Answer. In addition to NCR coverage, OAMI has developed plans to 
expand air security and interdiction operations beyond the traditional 
southern focused alignment to include the Northern Border. Currently 
OAMI has a ``permanent'' temporary air unit in the Northwest and 
routinely deploys air units to other Northern Border locations. Also, 
in order to meet the increased demands from Northern Border operations, 
OAMI plans to increase the capacity of the OAMI national training and 
standardization center to include flight simulators. This will increase 
the safety and proficiency of OAMI personnel.
    BICE Special Agents, Pilots, Air Interdiction Officers, Air 
Enforcement Officers and Marine Enforcement Officers attend and 
graduate from the Federal Law Enforcement Training Center. Graduation 
from this academy qualifies personnel as Criminal Investigators (1811).
    The OAMI Modification Plan is a living document and currently under 
revision. Previous versions have been forwarded to OMB and Congress for 
consideration. This includes equipment upgrades as well as 
recapitalization of aircraft and vessels. OAMI has a standing 
requirement to upgrade operational equipment to keep pace with 
technological advancements.
    Currently there are no plans to set up additional offices in New 
York City other than the existing Air Unit. However, AMI has 
established a communication and radar surveillance infrastructure for 
the New York City area that can be easily accessed and used for 
training or operational events. There is a plan for a National Capital 
Region Air Branch and NCR Coordination Center.

                          OPERATION GREENQUEST

    Question. By all accounts, the on-going anti-terrorism initiative 
known as ``Operation Greenquest'' is working quite well. However, there 
have been rumblings that the FBI may be attempting to take control of 
the Operation from the Department's Bureau of Immigration and Customs 
Enforcement. Is this true? If so, does the Department support shifting 
control of the program from legacy Customs to the FBI? For what reason? 
What is the status of negotiations with other Departments and agencies 
regarding terrorism financing (Operation Greenquest) and Narcotics 
investigations (Title 21)? Are you pushing to ensure that ICE Agents 
retain this authority?
    Answer. In an effort to unify the U.S. Government's war against 
terrorist financing, the Departments of Homeland Security and Justice 
entered into a Memorandum of Agreement (MOA) on May 13, 2003. This MOA 
assigns lead investigative authority and jurisdiction regarding the 
investigation of terrorist finance to the Federal Bureau of 
Investigation (FBI).
    Those cases that are determined to be ``terrorist financing'' cases 
will be investigated only through participation by the Bureau of 
Immigration and Customs Enforcement (BICE) in the FBI Joint Terrorism 
Task Forces (JTTF). All appropriate BICE-developed financial leads will 
be reviewed by the FBI, and if a nexus to terrorism or terrorist 
financing is identified, the leads will be referred to the JTTF under 
the direction of the FBI's Terrorist Financing Operations Section 
(TFOS). There are no provisions in the current agreement between DHS 
and DOJ that allow for delegation of authority of terrorist financing 
investigations.
    In accordance with BICE's independent authority and jurisdiction 
relative to other financial crimes and money laundering investigations, 
BICE will be the lead investigative agency for financial investigations 
that are not specified as ``terrorist financing'' cases. BICE will 
continue to vigorously and aggressively proceed with its DHS mission to 
target financial systems that are vulnerable to exploitation by 
criminal organizations, and to protect the integrity of U.S. financial 
infrastructures.

                      AQI FUMIGATION INVESTIGATION

    Question. The Agriculture Department's Animal and Plant Health 
Inspection Service--Agriculture Quarantine Inspection (AQI) program was 
transferred by law to the Department of Homeland Security. However, the 
investigators who follow-up, review and investigate the importation of 
prohibited goods from prohibited countries remain part of the 
Agriculture Department. Similarly, the personnel responsible for 
fumigation, following the discovery of pests, remain at USDA. Does this 
make sense? Is the Administration considering a legislative fix to 
correct this contradiction?
    Answer. The separation of mutually dependent program functions, 
such as the USDA investigators and personnel responsible for 
fumigation, from the AQI program transferred to the DHS is problematic 
and requires high levels of cooperation, communication, and 
coordination at multiple levels. To facilitate this, DHS and USDA 
addressed issues early by including relevant Articles in a Memorandum 
of Agreement (MOA) required by the Homeland Security Act of 2002. 
Specifically, there are Articles for separating functions and then 
coordinating these functions once separated. Further, additional and 
more specific agreements are necessary and are being developed. The MOA 
will be periodically reviewed and modified as mutually agreed to by DHS 
and USDA. Through the MOA and additional, more specific agreements, DHS 
and USDA will have an opportunity to re-adjust the assignment of 
program functions and responsibilities to maximize collective ability 
to carry out respective missions. Program officials from both DHS and 
USDA are working together to accomplish this. Legislative fixes offer 
another means to accomplish necessary and beneficial re-adjustments and 
changes. DHS Agricultural Inspection Policy and Program staff is not 
currently working on developing legislative fixes.

   JUSTICE DEPARTMENT'S RECENT DECISION REGARDING ILLEGAL IMMIGRANTS

    Question. On April 24, Attorney General Ashcroft announced that his 
agency has determined that broad categories of foreigners who arrive in 
the U.S. illegally can be detained indefinitely without consideration 
of their individual circumstances if immigration officials say their 
release would endanger national security. Apparently, Homeland Security 
officials appealed that decision but their objections were overruled by 
the Attorney General. There are significant costs that are born by 
detaining illegal immigrants until their eventual deportation. For 
instance, it is estimated that the detention of Haitians in Florida 
over a 6 month period has cost the Department $12.5 million. Given that 
the Justice Department decision could have a significant impact on the 
Homeland Security Department's budget, how will the costs of these 
policy decisions be paid and by whom? Is the Department making further 
appeals of the Justice Department's ruling in this case?
    Answer. BICE is fully supportive of the decision by the Attorney 
General to allow national security implications to be considered as 
part of bond determinations. This decision was requested by BICE in the 
face of a recent Board of Immigration Appeals (BIA) decision which had 
ruled that bond determinations could only be based on individual 
circumstances.

                         DETENTION AND REMOVAL

    Question. The fiscal year 2004 budget request for detention and 
removal activities appears to be cut by $37.4 million below the level 
appropriated in the fiscal year 2003 Omnibus Act. Given Attorney 
General Ashcroft's decision to permit the detention--on national 
security grounds--of entire categories of aliens found entering or 
residing in the United States, as well as the already relatively 
crowded conditions at ICE detention facilities across the country, how 
can the Department justify any reductions in this activity? Will the 
Justice Department provide additional funds to bridge any potential 
resources gaps or will this just become yet another unfunded mandate?
    Answer. As stated previously, BICE is fully supportive of the 
decision by the Attorney General to allow national security 
implications to be considered as part of bond determinations. This 
decision was requested by BICE in the face of a recent Board of 
Immigration Appeals (BIA) decision which had ruled that bond 
determinations could only be based on individual circumstances.
    There were two significant reductions to the funding level for the 
fiscal year 2003 Detention and Removal budget. In the appropriate 
account, $615 million identified for the Office of the Federal 
Detention Trustee was reduced by $22 million in the Conference Report. 
In the User Fee account, Detention and Removal funds were reduced by 
$5.6 million due to a decrease in expected User Fee revenue. As a 
result, 1,081 beds would have to be reduced. If a reduction in beds is 
necessary, the result will be 9,729 fewer aliens being detained. For 
aliens in detention, approximately 92 percent are removed, while 
approximately 13 percent of aliens on the non-detained docket are 
removed. Thus, the reduction in 1,081 beds may result in 7,686 fewer 
removals.

                           LETTERS OF INTENT

    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. TSA has received OMB approval to begin using the LOI 
process. Once an LOI is established, TSA and the relevant airport 
development authority enter into a Memorandum of Agreement (MOA) to 
outline the specific details of the work to be accomplished to complete 
an in-line explosive detection system (EDS) solution.

                        HIGH THREAT URBAN AREAS

    Question. Just last week the Office for Domestic Preparedness 
released the application kit for the $100 million High Threat Urban 
Area program that Congress funded in the fiscal year 2003 Omnibus 
Appropriations Act. The applications for the seven eligible cities are 
due June 16. By the time the funds get to the cities, it will have been 
at least 4\1/2\ months since the Omnibus bill was signed into law. 
Getting out this first round of money required a lot of work on the 
part of the Department. You had to develop a funding formula from 
scratch, and had to design an application kit. But I'm concerned about 
the next round of funding.
    In the fiscal year 2003 supplemental, Congress appropriated $700 
million for the high threat urban area program. I do not want cities--
and this time it will be more than just seven eligible cities--to wait 
4 months to receive their grants. When will you award the $700 million? 
Congress required that the $700 million be allocated to high threat 
urban areas within 60 days of enactment, which is June 11, 2003. Given 
that applications for the first round of funding are due June 16, can 
the Department award all $800 million at that time? This would prevent 
cities from applying more than once for the same program, and would 
allow for coordinated planning and implementation.
    Answer. Due to concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner, the grant application for the 
approximately $100 million for the Urban Areas Security Initiative 
incorporates a strict timeline in order to facilitate the release and 
obligation of this funding. The application kit was posted online on 
April 30, 2003, with a deadline for applications due June 16, 2003. The 
additional $700 million referenced in Public-Law 108-11, The Wartime 
Supplemental Appropriations, was not allocated by DHS before April 30, 
2003. On May 14, 2003, DHS announced how the $700 million was 
allocated, identifying the cities that are eligible to participate in 
the program. Therefore, the first application cannot be combined with 
the next application for the $700 million. To expedite the grant awards 
for the $700 million, ODP will again adhere to a strict timeline.

                FIRE GRANTS AND FIRST RESPONDER FUNDING

    Question. Mr. Secretary, FEMA--in conjunction with the National 
Fire Protection Association--released a study on January 22, 2002, 
entitled ``A Needs Assessment of the U.S. Fire Service'' which reported 
that only 13 percent of our nation's fire departments are prepared 
handle a chemical or biological attack involving ten or more injuries. 
Last year, FEMA awarded $334 million in fire grants but received more 
than 19,000 applications that requested over $2 billion.
    Given the critical unmet needs of our nation's first responders, I 
simply do not understand the Administration's lack of commitment to 
this program. In fiscal year 2002, the President refused to spend $150 
million approved by the Congress for this program. For fiscal year 
2003, the President proposed to eliminate all funding for the program. 
For fiscal year 2004 you are proposing a 33 percent reduction to the 
fire grants program from the 2003 enacted amount of $745 million.
    Please explain to the Subcommittee why the Administration does not 
view this program as a critical part of our strategy to secure the 
homeland.
    Answer. ODP has been providing Federal assistance to State and 
local emergency responders through grant funding since 1998. Eligible 
disciplines for these grant funds include the fire service, law 
enforcement, emergency medical services, and other emergency services 
disciplines. While the allowable costs for these grants do not include 
hiring of operational personnel such as fire fighters, they do include 
many items related to prevention, response and recovery, such as: 
equipment, exercises, training and administrative staff and overtime 
costs. All of these items are crucial to the support and readiness of 
fire departments.
    The Department of Homeland Security budget request for fiscal year 
2004 includes at least an additional $500 million in grants that 
contribute to firefighter preparedness, as well as $2.5 billion for 
State domestic preparedness grants to provide equipment, exercises, 
strategic planning, and support to the national training and exercise 
program. This amount is in addition to the $566.295 million in State 
domestic preparedness grants available through the fiscal year 2003 
State Homeland Security Grant Program (SHSGP) I, and the $1.5 billion 
in State domestic preparedness grants that is available for the SHSGP 
II. Basic turn-out gear covered under the Fire Act is also equipment 
that would be used in response to a terrorist event, therefore funds 
that are available for the State homeland security grants can be used 
to provide much needed equipment and other direct services to the fire 
fighting community.

                  FISCAL YEAR 2003 TSA FINANCIAL PLAN

    Question. The Transportation Security Administration advised the 
Congress that we would be provided with a spending plan for how you 
intend to obligate the funds appropriated to your agency for this 
fiscal year. We have now entered the 8 month of this fiscal year--and 
we have yet to be provided with such a spending plan. We are told that 
TSA faces a significant funding shortfall--perhaps in excess of $900 
million. We have not received a supplemental request from the President 
to meet this shortfall. The Administration opposed efforts to add 
funding to the recent supplemental to close the operating deficit. Do 
you believe that TSA can live within its current budget and, if so, 
what steps are you and they taking to live within that budget? Why has 
TSA waited 3 months since enactment of the Omnibus to deliver a plan?
    Answer. Since enactment of fiscal year 2003 Omnibus Appropriations 
Act (Public Law 108-7) in February and the Emergency Wartime 
Supplemental Appropriations Act (Public Law 108-11), TSA has been 
working with the assistance of the Department of Homeland Security and 
the Office of Management and Budget to develop a budget execution plan 
that will meet the needs of the agency within the funding provided.
    Since the establishment of TSA, the agency has confronted a series 
of unforeseen and extraordinary requirements as it worked to meet 
mandated deadlines and to establish normalized business practices. In 
addition, development of a fiscal year 2003 budget plan was 
particularly challenging since the Omnibus Appropriations Act contained 
a large number of earmarks that were not budgeted. The transfer of TSA 
from the Department of Transportation to the Department of Homeland 
Security on March 1 was another unusual dynamic.
    TSA has prioritized its spending needs for fiscal year 2003, 
resulting in a budget plan that has been transmitted to the Congress as 
a reprogramming notification. TSA will adhere to this plan and will 
closely monitor its execution for the remainder of the fiscal year.

                        INS CONSTRUCTION BACKLOG

    Question. Please provide the Subcommittee with details on the 
current INS construction backlog.
    Answer. The DHS will begin addressing these backlogs following a 
strategic, multi-year approach.

               PRIVATE MAIL RADIATION DETECTION EQUIPMENT

    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The Bureau of Customs and Border Protection (BCBP) 
personnel are equipped with radiation detection devices at FedEx and 
United Parcel Service (UPS) facilities. At the present time BCBP 
personnel use both Personal Radiation Detectors (PRD) and Radiation 
Isotope Identification Devices to screen cargo at both FedEx and UPS 
facilities.
    Both UPS and FedEx are in the process of procuring and installing 
company owned radiation detection devices at overseas locations. Once 
completely installed, this equipment will allow these companies to 
screen all incoming cargo and parcels before entering the commerce of 
the United States. Both companies will be relying on several types of 
equipment, such as Hand-Held Devices and Radiation Portal Monitors, at 
their overseas facilities. The types of radiation screening devices 
used will depend on the size of the facility and amount of cargo 
screened.

   BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT: ON-GOING OPERATION

    Question. My staff recently was briefed on an on-going Bureau of 
Immigration and Customs Enforcement activity referred to as ``Operation 
Blue Girard''. Is there money in the fiscal year 2004 budget request 
specifically designated for this activity? If so, how much and for what 
purposes?
    Answer. Operation Blue Girard is one part of a multifaceted port 
security program coordinated by the BICE SAIC/Miami, which falls under 
Operation Enduring Vigilance, which is a comprehensive multi agency 
approach to securing the seaports, cruise passengers and sea cargo in 
South Florida. Agencies from the Federal, State and local governments 
combine resources to address the threat to homeland security and from 
drug or alien smuggling. There is no funding in the fiscal year 2004 
budget request specifically designated for this activity. Funding for 
maritime port security operations such as Operation Enduring Vigilance 
is handled internally within the agency budget process to include 
special operations funding.

     WYDEN AMENDMENT TO S. 165--AIR CARGO SECURITY IMPROVEMENT ACT

    Question. During mark-up of S. 165 in the Commerce Committee, 
Senator Wyden won voice vote approval of an amendment requiring a 
report on plans by the Transportation Security Administration to gather 
data on plane passengers. He said he wanted to determine how the 
collection of data impacts civil liberties and privacy. Has the 
Administration taken a position on the Wyden provision? Does it share 
the same concerns about personal privacy and data mining issues?
    Answer. The Administration does not oppose the Wyden provision. TSA 
is committed to ensuring that personal privacy is protected in the 
CAPPS II program and welcomes the opportunity offered by Senator Wyden 
to demonstrate that commitment. With regard to data mining, while the 
Administration believes that it can be an important tool, the CAPPS II 
program will not be involved in data mining.

                       PORT SECURITY ASSESSMENTS

    Question. Have you reviewed the port security assessments that have 
been completed to date to determine if there are patterns in port 
vulnerability that ports generally should begin to address immediately?
    Answer. Review of the port security assessments completed to date 
has yielded valuable preliminary information regarding security 
enhancement requirements. These assessments have identified a number of 
physical security enhancements that were either non-existent or needed 
improvement, such as fencing, lighting, and closed circuit television 
systems. Other common recommendations included: standards for 
transportation worker identifications systems, security plans, 
communications systems, and screening equipment standards for cargo and 
passengers.

               ENFORCEMENT OF INTELLECTUAL PROPERTY LAWS

    Question. The enforcement activities of the Customs Service are 
critical to the health, safety and well being of U.S. citizens and our 
economy. Historically, Customs has been our first line of defense and 
this is reflected by the responsibilities we have given Customs through 
the laws granting it powers to detain citizens and cargo and, if 
necessary, to seize and forfeit goods.
    In the 5 fiscal years from 1998 to 2002, Customs stopped over 
19,700 shipments because of trademark and copyright violations. Customs 
seized over $373.9 million of counterfeit and pirated product. Because 
of the public health and safety risks posed by counterfeits and the 
injury to our commercial enterprises, these enforcement activities 
should continue in order to protect our national economic security.
    In several well-publicized cases, millions of dollars made from 
cigarette smuggling were funneled to terrorist groups. Given that there 
may be numerous priority areas for our new bureaus with border 
responsibilities (Bureau of Customs and Border Protection and Bureau of 
Immigration and Customs Enforcement), where is the issue of product 
counterfeiting and piracy on your list of priorities?
    Answer. Customs and Border Protection's top priority is the 
detection and apprehension of terrorism and terrorism related material. 
Interdiction of counterfeiting and piracy remain a priority because of 
the potential use of money generated from the smuggling of 
counterfeited and pirated goods for terrorist activity
    Question. Also, the security of the United States has many 
dimensions. How are the new agencies--the Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement--going 
to increase the needed protection of our commercial enterprises from 
those who bring counterfeit and illegal products into the United 
States?
    Answer. BCBP has increased protection of commercial enterprises by 
implementing stringent cargo manifest rules, increasing importation 
research, and conducting more high-risk shipment exams.
    Question. The enforcement responsibilities of the Bureau of Customs 
and Border Protection and the Bureau of Immigration and Customs 
Enforcement appear to be distinct; yet, overlapping. How will these two 
bureaus not only coordinate their enforcement efforts but also 
strengthen efforts to stop trafficking in counterfeit and illegal 
products in the United States?
    Answer. The combining of agencies and personnel under DHS will 
increase the research and examination capabilities of each agency. The 
increase of research and investigative personnel leads to a broader and 
more productive work force.
    Question. In fiscal year 2002, Customs stopped over 5,000 shipments 
that involved intellectual property theft, amounting to nearly $100 
million. Will this continue to be an area of enforcement in view of the 
magnitude of the violations?
    Answer. Due to the sheer volume and monetary value of BCBP seizures 
involving intellectual property theft, IPR will continue to be a 
priority. IPR will continue to be a focus for enforcement in order to 
protect the owners of intellectual property and prevent the movement of 
terrorist funds through this illegal activity.
    Question. The U.S. Customs Service has been split between the 
Bureau of Customs and Border Protection and Bureau of Immigration and 
Customs Enforcement. How will this new structure increase the number of 
inspections of containers?
    Answer. The restructuring of BCBP and BICE will potentially 
increase the number of inspections. It will allow for a greater amount 
of personnel dedicated to the research, exam and investigations leading 
to the apprehension of terrorists or others that commit violations of 
U.S. laws and regulations.
    Question. Given the terrorist link, how can the new Department 
better target containers and seize illegal products entering the United 
States?
    Answer. BCBP is able to update and implement targeting systems and 
research shipments related to entities associated with terrorism or 
commodities associated with acts of terrorism. Advanced technology and 
cooperation from foreign countries have increased the targeting and 
interdiction of illegal products from entering the United States.
    Question. In terms of budgeting and personnel and training, what is 
being proposed for fiscal year 2004 compared to the last several years?
    Answer. Current projections for fiscal year 2004 are to train 
approximately 5,000 new inspectors and 2,000 new Border Patrol agents. 
Past training workloads for new recruits are indicated in the table 
below.

----------------------------------------------------------------------------------------------------------------
                                                   Border Patrol        INS         Agriculture       OFO \1\
----------------------------------------------------------------------------------------------------------------
2001............................................           2,100           1,110             192             460
2002............................................           2,000           2,720             308           1,210
2003............................................           1,980           2,960             334           1,830
2004 (est.).....................................           2,000             N/A             432           5,000
----------------------------------------------------------------------------------------------------------------
\1\ With the establishment of DHS, legacy INS, Customs and Agriculture inspectors become part of the Office of
  Field Operations in Customs and Border Protection. Legacy Border Patrol becomes its own office in Customs and
  Border Protection.

    Question. In fiscal year 2002, U.S. Customs seizures of 
intellectual property reached a new record and eclipsed the previous 
year by over 33 percent. Illegal cigarettes shot up from the 5th 
largest commodity to the top commodity being smuggled into the United 
States. Is the large increase in tobacco smuggling due to operations 
run by foreign terrorists?
    Answer. Tobacco smuggling has not been linked solely to the funding 
of terrorist operations. Tobacco smuggling is known to be a profitable 
and highly lucrative cash commodity. However, through the use of BCBP 
databases tobacco shipments can be tracked and monitored for possible 
illicit or terrorist activity when linked to direct intelligence or 
derived from investigations.
    Question. What efforts are you taking to intercept cigarette 
smuggling?
    Answer. Efforts to intercept cigarette smuggling include greater 
scrutiny of imports from international sources known to be lenient to 
smuggling activity as well as importation trends, and the greater use 
of non-intrusive examinations. The use of automated targeting systems 
allows for efficient review of import information. Non-intrusive exams 
are utilized to uncover false compartments or other methods of 
concealment.
    Question. In the fiscal year 2002 appropriations, $800,000 was 
designed for ``tobacco smuggling task forces''? What have the task 
forces done to increase the number of seizures of illegal product?
    Answer. To combat cigarette smuggling, the U.S. Customs Service 
created a Tobacco Task Force at headquarters. Last fiscal year, two 
full time agent positions and one full-time intelligence research 
specialist position were filled. Additionally, one full time agent 
position in Brussels was filled. This agent serves as coordinator with 
related European entities as part of the Tobacco Task Force. The Task 
Force provides coordination and investigative expertise to numerous 
complex international tobacco smuggling investigations involving 
Federal, State and Foreign law enforcement agencies. The Task Force 
provided funding and training in support of joint State/Federal Tobacco 
Smuggling Task Force members and funded an International Cigarette 
Smuggling conference in September 2002 for all disciplines of the U.S. 
Customs Service, to several Federal prosecutors, and to some of our law 
enforcement counterparts from around the world. These efforts have lead 
to a large increase in tobacco related investigations and has 
contributed significantly to the increase in seizures as well. No 
additional appropriations were earmarked for the Task Force in fiscal 
year 2003.
    Question. In the fiscal year 2002 appropriations, $5 million went 
to the Intellectual Property Rights Center and Investigations 
Initiative. Could you please explain their activities and 
accomplishments? How does this investigative unit relate to the new 
bureaus--BCBP and BICE--and how will it increase the likelihood of 
seizures of illegal products?
    Answer. The enforcement of intellectual property rights was a high 
priority trade strategy for the U.S. Customs Service, Office of 
Investigations, throughout fiscal year 2002. Since the reorganization, 
BICE has retained its foremost position. The IPR Center provides 
coordination and expertise to the BICE field offices in IPR-related 
investigations. It is a centralized collection and analysis point for 
allegations of Intellectual Property crime and investigative leads 
generated by law enforcement agencies, industry associations, the right 
holders and the public.
    In fiscal year 2002, the IPR Center funded twelve Special Agent and 
nine Intelligence Research Specialists positions. The IPR Center funded 
positions have allowed the placement of investigative resources in 
Customs Attache offices located in Beijing, Hong Kong, Bangkok, and 
Singapore, as well as, field offices located in Houston, Los Angeles, 
Miami, San Francisco and New York. These resources provided the 
technical expertise and support, which facilitated successful outcomes 
in domestic and foreign investigations.
    During fiscal year 2002, the Center received over 200 incoming 
allegations and complaints from industry sources and right holders. 
After analyzing the information, multiple cases were referred to 
Customs field offices. During this period, the U.S. Customs Service 
initiated over 75 IPR related criminal investigations, which resulted 
in multiple arrests and convictions. In addition, over 85 IPR related 
seizures were effected by the Customs Service.
    During fiscal year 2002, the Center personnel conducted dozens of 
training and outreach activities to domestic and foreign law 
enforcement officials, industry groups and associations. The Center 
personnel are regularly called upon to present the enforcement programs 
in the IPR arena to foreign dignitaries and delegations, who visit the 
United States as part of the State Department's Foreign Visitor Program 
and on other initiatives.
    The Center is one of the leading members of the INTERPOL 
Intellectual Property Crime Action Group, which is a joint industry-law 
enforcement group designed to promote and coordinate IPR enforcement 
around the world. The IPR Center is now part of the Immigration & 
Customs Enforcement. The BICE and BCBP elements involved in the 
enforcement of Intellectual Property laws are continuing their 
respective duties and operational relationship. The Director of IPR 
Center continues to chair the BICE-BCBP IPR Trade Strategy Board 
meetings and represents BICE as the leading component of the joint 
effort in this area.
    Question. Could you provide this Subcommittee with a report 
detailing your plans in fiscal year 2004 for the interdiction of 
illegal products in the United States and how you would measure success 
in this critical area? I would appreciate having such a report within 
30 days for the Subcommittee's use in consideration of the fiscal year 
2004 budget request of the department.
    Answer. BCBP agrees to provide the report.
    Question. One example cited of a decrease in emphasis on 
intellectual property (IP) enforcement is the cancellation of training 
sessions. I am told that several ports of entry including Honolulu, 
Buffalo, Cleveland, Champlain (NY), Detroit, Port Huron (MI), St. 
Alban's (VT), San Francisco/Oakland, and Minneapolis have cancelled 
scheduled IP training sessions. The reason given is that a lack of 
resources and new mission priorities make IPR enforcement a non-
essential activity. Are you aware of these cancellations and don't you 
believe these sessions remain important to the Department's overall 
mission? What figures do you have on the number of training sessions 
cancelled this fiscal year? Should such training be centralized through 
the Department or left to the individual ports?
    Answer. Port directors are free to accept or reject offers of 
product identification training offered by parties-in-interest. Given 
the fact that antiterrorism is, and must continue to be, our first 
priority, field resources have been reallocated to respond to this 
threat, leaving fewer resources available for IPR enforcement. In the 
case of the vast majority of the ports cited, they have not 
historically been major points of entry for IPR violating goods, thus 
the need for such training is not critical to these locations.
    Question. These same companies indicate that Customs inspectors 
familiar with IPR enforcement are being reassigned at alarming rates. 
For example, the Port of Newark, New Jersey reportedly had 40 
inspectors assigned to conduct IP investigations before the move the 
DHS, and now it has one. We have heard that Los Angeles has seen a 
similar reduction. Is this true? Have there been actions at other ports 
to divert agents from IP inspections to other functions?
    Answer. In order to respond to our antiterrorism mission, it has 
been necessary to reallocate resources at all locations.
    Question. What is the effect of changes in the Threat Advisory 
Level to Custom's mission priorities? Has DHS established enforcement 
or operations guidelines for the different security levels? What impact 
does a change from Code Yellow to Code Orange have on the enforcement 
of intellectual property rights?
    Answer. When the nation is at Code Orange, all cargo examination 
criteria which do not have an antiterrorism, national security, or 
public health and safety nexus are suspended.
    Question. The Container Security Initiative (CSI) is designed in 
part to allow Customs to search more cargo containers, better target 
suspect shipments, and still facilitate trade. Will CSI also help in 
the detection of other nefarious products such as drugs and counterfeit 
merchandise, or is it restricted to protecting against weapons? What 
steps are you taking to ensure that programs such as the CSI aren't 
used against the United States to facilitate trafficking in illegal 
goods that don't pose an immediate threat to the public?
    Answer. The twin goals of the BCBP are to increase security and to 
facilitate trade. BCBPs obligation to make our borders and our country 
safer, includes making sure that legitimate goods continue to enter 
efficiently. In order to fulfill our twin goals, we have developed and 
implemented many important initiatives designed to carry out both of 
those goals effectively.
    In a standard CSI in-country team, BCBP officers target with the 
host nation cargo containers destined for, or transiting through, the 
United States. If during the course of the manifest targeting or 
container screening processes the BCBP officer discloses a shipment 
containing goods which violate a U.S. law or regulation, the 
information is transmitted to our National Targeting Center, the port 
of destination, and the appropriate Bureau of Immigration and Customs 
Enforcement office for action.
    The CSI in-country team pre-screens and inspects commodities prior 
to lading in the host nation. Commodities rejected for potential 
weapons of mass destruction (WMD) or terrorist contraband will not be 
permitted to continue on its course to an U.S. port. Furthermore, that 
ship will not be allowed into U.S. territorial waters.
    If, on the other hand, a container is targeted for inspection for 
commercial reasons, and is not inspected in the foreign port, it will 
be inspected when it reaches the intended U.S. port of entry. Under 
this scenario, BCBP officers at the U.S. port of entry will initiate 
the appropriate enforcement and penalty against the member the chain 
supply (carrier, importer).
    Question. In an article posted on its website describing Operation 
Green Quest, Customs States that one of the many criminal enterprises 
used to fund terrorist organizations derive is the sale of counterfeit 
merchandise. To what extent has Operation Green Quest investigated or 
uncovered the connection between intellectual property theft and 
terrorist financing? To the extent that this link has been made, 
shouldn't Customs continue to focus on IP enforcement as a means to 
foreclose counterfeiting and piracy as a source of funding for 
terrorists?
    Answer. Operation Green Quest investigations have revealed that a 
variety of criminal activities serve as funding sources for various 
criminal elements, some of which are alleged to have ties to terrorist 
organizations. Among these are violations of laws protecting 
intellectual property rights and prohibiting the manufacture, 
trafficking and sale of counterfeit merchandise. The Bureau of 
Immigration and Customs Enforcement is conducting several on-going 
investigations involving the use of proceeds derived from the sale and 
trafficking of counterfeit merchandise, alleged to support designated 
terrorist organizations. BICE is committed to investigating any 
violation of Federal law that may be used to fund criminal enterprises.
                                 ______
                                 

             Question Submitted by Senator Patrick J. Leahy

                           AIRPORT SCREENERS

    Question. I understand the TSA has finished assessing how many 
screener positions--full- and part-time--are needed at each airport 
around the country and that 6,000 airport security jobs will be trimmed 
by the end of this fiscal year. What is the average percentage of cuts 
taking place at airports nationwide? And what is the percentage of cuts 
you expect at the Burlington International Airport in Vermont? In 
addition, did the cuts planned for Burlington take into account that 
bomb-detection machines are not yet in place at the airport?
    Answer. Nationwide, the percentage reduction of passenger and 
baggage screeners is 11 percent. To screen passengers' baggage at BTV, 
all baggage screening equipment has been deployed and the screener 
workforce at the airport has been hired and fully trained to provide 
the proper operation of this equipment. TSA has taken into account 
BTV's recent receipt of twelve additional Electronic Trace Detection 
machines. TSA is concluding a second round of modeling to determine 
final screener staffing numbers for each airport.

                          SUBCOMMITTEE RECESS

    Senator Cochran. Mr. Secretary, we appreciate very much 
your cooperation with our subcommittee. We had planned to 
continue to review the fiscal year 2004 budget request for the 
Department of Homeland Security on Thursday, with witnesses 
being the Commissioner of the Bureau of Customs and Border 
Protection, the Administrator of the Transportation Security 
Administration, and the Director of the Federal Law Enforcement 
Training Center, but because of schedule conflicts my intention 
now is to try to reschedule that hearing for next week. We will 
make an announcement about our next hearing as soon as 
possible.
    Senator Byrd. Senator, do I understand you, Mr. Chairman, 
to say that the Thursday meeting this week may be rescheduled?
    Senator Cochran. Yes, sir. We will try to reschedule that 
hearing for next week.
    Senator Byrd. I'm glad you're doing that, because the Armed 
Services Committee is marking up the DOD authorization bill at 
the same time Thursday morning that the subcommittee had 
planned that hearing.
    Senator Cochran. I thank you for advising me of that 
conflict. The subcommittee will stand in recess.
    [Whereupon, at 11:52 a.m., Tuesday, May 6, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]

</pre></body></html>
